<html>
<title> - TOYOTA GAS PEDALS: IS THE PUBLIC AT RISK?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               TOYOTA GAS PEDALS: IS THE PUBLIC AT RISK?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

                           Serial No. 111-75

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


               TOYOTA GAS PEDALS: IS THE PUBLIC AT RISK?






               TOYOTA GAS PEDALS: IS THE PUBLIC AT RISK?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

                           Serial No. 111-75

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
58-346                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSPEH'' CAO, Loiuisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 2010................................     1
Statement of:
    LaHood, Raymond H., Secretary, U.S. Department of 
      Transportation.............................................    11
    Lastrella, Fe Niosco, lost family members in a car accident 
      involving a Toyota vehicle; Kevin Haggerty, experienced 
      sudden unintended acceleration in a Toyota vehicle; Joan 
      Claybrook, president emeritus of Public Citizen and former 
      Administrator of the National Highway Traffic Safety 
      Administration; and Clarence M. Ditlow, executive director, 
      Center for Auto Safety.....................................   126
        Claybrook, Joan..........................................   135
        Ditlow, Clarence M.......................................   145
        Haggerty, Kevin..........................................   131
        Lastrella, Fe Niosco.....................................   126
    Toyoda, Akio, president and CEO, Toyota Motor Corp.; and 
      Yoshimi Inaba, president and CEO, Toyota Motor North 
      America, Inc...............................................    73
        Inaba, Yoshimi...........................................    79
        Toyoda, Akio.............................................    73
Letters, statements, etc., submitted for the record by:
    Claybrook, Joan, president emeritus of Public Citizen and 
      former Administrator of the National Highway Traffic Safety 
      Administration, prepared statement of......................   138
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............   174
    Ditlow, Clarence M., executive director, Center for Auto 
      Safety, prepared statement of..............................   147
    Haggerty, Kevin, experienced sudden unintended acceleration 
      in a Toyota vehicle, prepared statement of.................   133
    Hodes, Hon. Paul W., a Representative in Congress from the 
      State of New Hampshire, prepared statement of..............   166
    Inaba, Yoshimi, president and CEO, Toyota Motor North 
      America, Inc., prepared statement of.......................    81
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California:
        Prepared statement of....................................     9
        Prepared statement of Mr. Saylor.........................   153
    Kaptur, Hon. Marcy, a Representative in Congress from the 
      State of Ohio, various materials...........................   121
    LaHood, Raymond H., Secretary, U.S. Department of 
      Transportation, prepared statement of......................    14
    Lastrella, Fe Niosco, lost family members in a car accident 
      involving a Toyota vehicle, prepared statement of..........   129
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Memo dated March 17, 2008................................    33
        Number of FTE vacancies in NHTSA.........................    31
    Quigley, Hon. Mike, a Representative in Congress from the 
      State of Illinois, prepared statement of...................   172
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     4
    Toyoda, Akio, president and CEO, Toyota Motor Corp., prepared 
      statement of...............................................    76


               TOYOTA GAS PEDALS: IS THE PUBLIC AT RISK?

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11 a.m., in room 
2154 Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the committee) presiding.
    Present: Representatives Towns, Kanjorski, Maloney, 
Cummings, Kucinich, Tierney, Clay, Watson, Lynch, Cooper, 
Connolly, Quigley, Kaptur, Norton, Davis, Van Hollen, Cuellar, 
Hodes, Murphy, Welch, Foster, Speier, Driehaus, Chu, Issa, 
Burton, Mica, Souder, Duncan, Turner, McHenry, Bilbray, Jordan, 
Flake, Fortenberry, Chaffetz, Schock, Luetkemeyer, and Cao.
    Also present: Representative Davis of Kentucky.
    Staff present: John Arlington, chief counsel, 
investigations; Kevin Barstow, investigative counsel; Peter 
Fise, staff assistant; Linda Good, deputy chief clerk; Jean 
Gosa, clerk; Velginy Hernandez, press assistant; Adam Hodge, 
deputy press secretary; Carla Hultberg, chief clerk; Marc 
Johnson and Ophelia Rivas, assistant clerks; Chris Knauer, 
senior investigator/professional staff member; Phyllis Love and 
Christopher Sanders, professional staff members; Mike McCarthy, 
deputy staff director; Steven Rangel, senior counsel; Jenny 
Rosenberg, director of communications; Leneal Scott, IT 
specialist; Shrita Sterlin, deputy director of communications; 
Ron Stroman, staff director; Gerri Willis, special assistant; 
Lawrence Brady, minority staff director; John Cuaderes, 
minority deputy staff director; Rob Borden, minority general 
counsel; Jennifer Safavian, minority chief counsel for 
oversight and investigations; Frederick Hill, minority director 
of communications; Adam Fromm, minority chief clerk and Member 
liaison; Kurt Bardella, minority press secretary; Seamus Kraft 
and Benjamin Cole, minority deputy press secretaries; Tom 
Alexander and Kristina Moore, minority senior counsels; Marvin 
Kaplan, minority counsel; and Jonathan Skladany, minority chief 
counsel.
    Chairman Towns. Good morning. And thank you all for being 
here.
    It is hard to imagine the horror of the event that took the 
lives of an entire family near San Diego, CA on August 28, 
2009. California's Highway Patrolman Mark Saylor, his wife, 
their 13-year-old daughter, and Mrs. Saylor's brother, Chris, 
were driving in a Toyota Lexus, a loaner car that the Toyota 
dealer provided while their car was being repaired.
    As they drove along the highway, suddenly the car 
accelerated rapidly. He stood on the brakes, but nothing 
happened. No matter what he did, he could not stop the car from 
flying down the road faster and faster. As this car reached top 
speed in just a few seconds, it was all he could do to keep it 
under control.
    In a frantic call to 911, his brother-in-law, Chris, 
reported the gas pedal was stuck, the brakes did not work, and 
they were barreling down on an intersection. He yelled over the 
phone, ``Hold on. Hold on. Hold on. Hold on, and pray. Pray.'' 
And those were his last words.
    We now know that the terrifying death of this family was 
not caused by a freak accident. It turns out that people from 
all over the country had been complaining about sudden 
acceleration in Toyota vehicles. And what people are wondering 
is, ``Will I be next?''
    Our investigation found that the National Highway Traffic 
Safety Administration [NHTSA] has received nearly 2,500 driver 
complaints about sudden acceleration in Toyota vehicles. We 
have discovered that since 2000, one insurance company, State 
Farm, has reported to NHTSA over 900 cases of sudden 
acceleration in Toyotas. We have also learned that NHTSA did 
very little about it; and, when it did do something, its 
actions were very limited.
    Similarly, Toyota either ignored or minimized reports of 
sudden acceleration. Toyota first blamed the problem on 
improper installation of floor mats, never mind that many 
reports of sudden acceleration involved vehicles that did not 
even have a floor mat. Now they blame it on sticky gas pedals. 
While I remain skeptical that these are the sole causes, the 
way that these complaints were handled indicates problems at 
both NHTSA and Toyota.
    Since 2003, NHTSA has undertaken a multitude of 
investigations into sudden unintended acceleration. But there 
is a serious question of whether NHTSA used all of its 
regulatory tools to thoroughly investigate this issue.
    When I read press accounts about how former NHTSA officials 
were hired by Toyota and then helped to negotiate the scope of 
regulatory increase, I have my own doubts.
    In the case of Toyota, there is striking evidence that the 
company was at times more concerned with profit than customer 
safety. Toyota's own internal documents indicate that a premium 
was placed on delaying or closing NHTSA investigations, 
delaying new safety rules, and blocking the discovery of safety 
defects. In fact, Toyota officials bragged about saving $100 
million by preventing NHTSA from finding a defect related to 
sudden acceleration.
    The recent Prius recall represents yet another troubling 
pattern of delay when it comes to revealing safety information. 
A few weeks ago, Toyota announced it would recall certain Prius 
models because of a software problem related to the braking 
system. Drivers began complaining to NHTSA about Prius brake 
problems last year. Toyota knew about this problem and was 
already addressing it for new cars on the assembly line. But at 
the same time, Toyota withheld that information from both NHTSA 
and current Prius drivers until months later.
    If the spotlight had not already been shining brightly on 
Toyota, would the public have ever been told? That is a 
question that needs to be answered.
    NHTSA failed the taxpayers. Toyota failed their customers. 
Thousands of complaints, multiple investigations, and serial 
recalls are bad enough, but we now have 39 deaths attributed to 
sudden acceleration in Toyotas.
    To give that horrifying number some perspective, there were 
27 deaths attributed to the famous Pinto exploding gas tank of 
the 1970's. In short, if the Camry and the Prius were 
airplanes, they would be grounded.
    These facts raise several important questions. Is it safe 
to drive these cars? Is Toyota now serious about solving the 
problem? Can NHTSA say the cause of the problem has been 
identified and fixed? What can we do to prevent this kind of 
thing from happening again? Can the American people trust NHTSA 
to ensure vehicle safety? Hopefully, we will find some answers 
to these and many other questions today.
    On that note, I yield to the gentleman, the ranking member 
from California, Congressman Darrell Issa, for his opening 
statement.
    [The prepared statement of Hon. Edolphus Towns follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.001
    
    [GRAPHIC] [TIFF OMITTED] T8346.002
    
    [GRAPHIC] [TIFF OMITTED] T8346.003
    
    Mr. Issa. Thank you, Mr. Chairman. A little housekeeping. 
Mr. Chairman, I would ask unanimous consent Mr. Jeff Davis of 
the Commonwealth of Kentucky be allowed to participate in the 
hearing as a dais member, recognizing that it will be unlikely 
that there will be any time for him to ask questions.
    Chairman Towns. Without objection, he will be accepted.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Chairman, it is the obligation of yourself primarily, 
and then myself, to set the tone for hearings, to tee up, if 
you will, through our opening statements how we view what we 
are going to accomplish here today. And I would like to commend 
you for the work you have done in your opening statement and 
add just a little bit more to it.
    I would first like to put up a slide of the recalls, From 
Recall to Recovery.
    This slide shows a little of the history that the chairman 
alluded to. The 1978 recall of Ford Pintos. The 1981 GM recalls 
for steering problems, 5.8 million vehicles. The very sad but 
great loss of life, 1982 Tylenol recalls of 31 million bottles 
of Tylenol pills, which of course led to the tamper-proof 
bottles we all take for granted today. The 1996 Ford recalls of 
8 million vehicles for fires. And, of course, the well-
publicized GM recall after their pickup trucks would 
spontaneously explode if hit from the rear.
    Mr. Chairman, this is an example of companies, both auto 
and non-auto, who over the years have faced clear challenges. 
In the case of the auto companies, we expect to see them again. 
We judge them not by whether or not they from time to time have 
unseen and developed problems in their vehicles; but, how 
quickly they respond and how they in fact react after scrutiny, 
from either within their own company or from without, brings 
these to their attention.
    I will not call any of these five a success except for 
Tylenol. Tylenol was a victim of other people, in all 
likelihood, poisoning their product; and yet, they took a step 
that has changed safety of the medicines we take for granted 
today.
    Recently, Mr. Toyoda's company, Toyota Motor Cars, began 
airing a television commercial, and I will take the liberty of 
using his words today. In it, they said that, ``In fact, good 
companies fix the mistakes they have made, but great companies 
learn from them.''
    Today, we will be asking Mr. Toyoda and Mr. Inaba those 
very questions as to whether or not they are a good company or 
a great company.
    My second slide, I think, depicts one of the challenges of 
why, prior to today, we cannot say that Toyoda was a great 
company, perhaps not even a good company, when in 2007 what we 
know for a fact is that floor mat problems or gas pedal 
entrapment problems were discovered in similar vehicles in both 
the United States and Japan.
    In the United States, working with NHTSA, a negotiated fix 
related to the carpets occurred. In Japan, the gas pedal, like 
the one seen here today, was shortened. In 2009, nearly 2 years 
later, we had the sad and fatal loss of life in what in all 
likelihood, and has been at least documented, reported, and not 
formally contested, to be a carpet entrapment problem of an 
automobile loaned by Bob Baker, a local dealer in my city, that 
led to this loss of life.
    Today, in 2010, gas pedals are being shortened at dealers 
around the country. It is very clear that at least at Toyota, a 
possible solution, now seen as superior, was available, 
contemplated, and executed, but not for the very car that 
ultimately--the S350 that led to this loss of life.
    So today we will be asking two questions: How could NHTSA, 
in this modern age in which I can Google Secretary LaHood's 
name, get pictures from all over the world of the Secretary to 
get information and bio and almost anything from data bases 
around the globe--how is it that NHTSA does not formally have a 
system to know about every report, whether it is a sticky 
accelerator in Great Britain, whether it is a troubled system 
in Canada, whether it is a different but similar vehicle in 
Japan, NHTSA is not prepared to proactively act.
    Some would say that we should in fact add to our body of 
laws. I believe that both NHTSA and Secretary LaHood will tell 
us that our body of law is sufficient and yet modernization is 
required.
    I am delighted to have my friend and former colleague, 
Secretary LaHood, here today, because it will be on his watch 
that either the Department of Transportation will be a good 
organization dealing with these specific problems, or a great 
organization learning from the mistakes of the past.
    Mr. Chairman, I thank you for holding this hearing. I look 
forward to our witnesses, and I yield back.
    Chairman Towns. I thank the ranking member for his 
statement.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.004
    
    [GRAPHIC] [TIFF OMITTED] T8346.005
    
    Chairman Towns. At this time, we would like to introduce 
our first witness, the Honorable Raymond H. LaHood, Secretary 
of the U.S. Department of Transportation.
    Mr. Secretary, it is a longstanding tradition that we swear 
all of our witnesses in. If you would stand and raise your 
right hand.
    [Witness sworn.]
    Secretary LaHood. It gives them a chance to take more 
pictures, also.
    Chairman Towns. Let the record reflect that the witness 
answered in the affirmative. You may be seated. And you may 
begin.

 STATEMENT OF RAYMOND H. LaHOOD, SECRETARY, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Secretary LaHood. Thank you Chairman Towns and Ranking 
Member Issa, and the members of the committee, for the 
opportunity to appear before you today to discuss the important 
issue of Toyota's recent safety recalls.
    Ever since I was sworn in as Secretary of Transportation 13 
months ago, I said that safety is the Department's No. 1 
priority. I would like to think that we have demonstrated that 
commitment time and time and time again. When the terrible 
crash of the Washington Metro system claimed nine lives and 
injured dozens of others last summer, we quickly introduced 
legislation, which I would encourage all of you to cosponsor, 
to give us Federal safety oversight over transit, something we 
currently don't have. As a matter of fact, we are prohibited 
from having that kind of responsibility.
    When Colgan Air Flight 3407 crashed in Buffalo, we learned 
right away what many of the problems were and we did not wait 1 
year for the NTSB to conclude its investigation. We began 
working with the aviation industry immediately to enhance 
airline safety and pilot training, holding 12 safety summits 
around the country. This spring, the FAA will issue a new rule 
to combat pilot fatigue, and it has already begun to overhaul 
pilot certification qualifications.
    One of the hallmarks of my time as Transportation Secretary 
has been our work on distracted driving. For all of you with 
cell phones and BlackBerries and other electronic devices, I 
want you to know that I am on a rampage about people talking 
and texting while driving a bus, plane, or train, and an 
automobile. It is a menace to society, and we recently 
exercised our authority to ban truck drivers from texting while 
driving.
    Now, for Toyota. The Toyota recall situation is extremely 
serious and we are treating it extremely seriously. The three 
recalls involving Toyota are among the largest in automobile 
history, affecting more than 6 million people in the country.
    And I would like to say a word to consumers. If you notice 
your gas pedal or your brake is not responding as it normally 
would, contact your Toyota dealer now. The recent recalls 
involve three issues:
    One, accelerator, pedal entrapment by floor mats, which can 
lead to uncontrolled acceleration at very high speeds. It is 
important to take your floor mats out of the driver's side of 
the vehicle until your car has been repaired for this problem 
by an authentic Toyota dealer.
    Second, accelerator pedals sticking or returning slowly 
after being depressed. If the pedal is harder to depress or 
slower to return after releasing it, this could be the 
precursor to what is known as a sticky pedal. If your pedal has 
these symptoms, contact your Toyota dealer immediately. If your 
gas pedal becomes stuck for any reason, steadily apply the 
brake, put the car in neutral, bring it to a stop in a safe 
place, and call your dealer.
    Finally, with the Toyota Prius for model year 2010 and the 
Lexus HS250, if you experience a change in your car's braking 
performance, contact your Toyota dealer.
    Now, I want everyone to know that the National Highway 
Traffic Safety Administration has the most effective defect 
investigation program in the world. Known as NHTSA, its job is 
to investigate complaints and to look for defects.
    NHTSA receives more than 30,000 complaints from consumers 
every year, and we take every one seriously. We look at every 
one, we don't set any of them aside, and we review them quickly 
to make sure that if there is a serious issue, we will look at 
it and ultimately investigate it.
    Over just the last 3 years, NHTSA's defect and compliance 
investigation have resulted in 524 recalls involving 23 million 
vehicles. We haven't been sitting around on our hands. When 
people complain, we investigate. When there needs to be a 
recall, we do it.
    Of the 100 investigations NHTSA opens in an average year, 
there are currently 44 open defect investigations, 5 of which 
involved Toyota. Every step of the way, NHTSA officials have 
pushed Toyota to take corrective action so that consumers would 
be safe. Unhappy with Toyota's responsiveness to our safety 
concerns, the Acting Administrator of NHTSA, Ron Medford, and 
two associates flew to Japan in December 2009 to clarify for 
Toyota management what the company's legal obligations are to 
find and remedy safety defects in vehicles sold here in 
America. In January, our new Administrator of NHTSA, David 
Strickland, and Ron Medford, now our Deputy Administrator, told 
the president of Toyota North America in no uncertain terms 
that we expect prompt action following the disclosure of the 
sticky pedal problem. Toyota publicly announced that recall 2 
days later.
    I have been on the phone with Mr. Toyoda from here to 
Japan, and I am so pleased that he accepted the invitation to 
appear before this committee.
    With potential fatal defects on the road, NHTSA has pressed 
hard to expedite these safety fixes. If NHTSA had opened a 
formal investigation and Toyota had resisted a recall, that 
would have consumed an enormous amount of time and resources, 
in effect extending the period in which owners of affected 
vehicles are at risk. By engaging Toyota directly and 
persuading the company to take action, the agency avoided a 
lengthy investigation that would have delayed fixes for a year 
or more.
    Last week, I announced that we are investigating whether 
Toyota acted quickly enough in reporting these safety defects 
to NHTSA as well as whether they took all appropriate action to 
protect consumers. We have asked Toyota to turn over a wide 
range of the documents that will show us when and how they 
learned about these safety problems. NHTSA will continue to 
make sure Toyota is doing all it promised to make its vehicles 
safe, and we will continue to investigate all possible causes 
of unintended acceleration.
    While the recalls are important steps in that direction, we 
don't maintain that they answer every question. Some people 
believe that electromagnetic interference has a dangerous 
effect on these vehicles. Although we are not aware of any 
incidents proven to cause such interference, NHTSA is doing a 
thorough review. We will get in the weeds on this. We will do 
everything we can to find out if electronics are a part of the 
problem. And if we find the problem, we will make sure it is 
resolved.
    I have been assured by Mr. Toyoda that he takes U.S. safety 
concerns very seriously, and its safety is the company's top 
priority. And we will hold him to that.
    Finally, I want to remind everyone that there is a reason 
that we investigate safety defects and there is a reason that 
we push automakers to do the right thing. I listened to the 911 
tape of the Saylor family's harrowing last moments.
    Mark Saylor, a California Highway Patrolman, died last 
year, along with his wife and daughter and brother-in-law, when 
the accelerator got stuck and the Lexus they were driving 
crashed at more than 120 miles per hour. Last evening, after I 
finished my testimony before the Energy and Commerce Committee, 
I met with the Saylor family to offer our sympathy and to offer 
any assistance we could give to them. It was a horrible tragedy 
and I hope that no other family has to endure that.
    Mr. Chairman, let me conclude by saying this. I was sworn 
in on January 23, 2009. I have traveled to 36 States and 80 
cities. Everywhere that I have gone, I have talked about 
safety. That has to be our No. 1 priority, whether it is in 
trains, planes, or automobiles. You look at any statement I 
have ever made, any speech I have ever given, there is always 
something about safety in it.
    We will not sleep at DOT and we will work 24/7 at NHTSA to 
make sure that every Toyota is safe to drive, and we will 
continue to make safety our No. 1 priority at DOT and at NHTSA.
    I look forward to your questions.
    Chairman Towns. Thank you very much, Mr. Secretary. I 
really appreciate your commitment to safety. I think that is so 
important.
    [The prepared statement of Secretary LaHood follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.006
    
    [GRAPHIC] [TIFF OMITTED] T8346.007
    
    [GRAPHIC] [TIFF OMITTED] T8346.008
    
    [GRAPHIC] [TIFF OMITTED] T8346.009
    
    [GRAPHIC] [TIFF OMITTED] T8346.010
    
    [GRAPHIC] [TIFF OMITTED] T8346.011
    
    [GRAPHIC] [TIFF OMITTED] T8346.012
    
    [GRAPHIC] [TIFF OMITTED] T8346.013
    
    Chairman Towns. Let me just raise a couple of questions 
with you very quickly.
    The committee has reviewed thousands of complaints sent to 
NHTSA regarding the sudden acceleration of Toyota vehicles. 
Before the crash that killed members of the Saylor family in 
August 2009, there were almost 2,000 complaints at the time of 
Toyota's floor mat recall in 2007. The agency had already 
received more than 1,300 complaints. My question is: Why did it 
take NHTSA so long to act?
    Secretary LaHood. Well, Mr. Chairman, I would say this. I 
have been in this job a little more than a year; and prior to 
my time, which would have been prior to January 23, 2009, if 
there are issues that I can't answer, I will get back to you 
for the record. But I am going to tell you this: 40,000 
complaints come to NHTSA every year, and we look at every one 
of them. We think every one is important. Some come from people 
who are driving cars, some come from the industry. We look at 
what is going on from stakeholders, people who are in the 
automobile business. Sometimes they file complaints with us. 
And then, when we see a pattern, we will do an investigation or 
we will look at it. And if our investigation shows there needs 
to be a recall, it will be done. That has been the work of 
NHTSA.
    With respect to your specific question during that time 
period, what I would like to do, Mr. Chairman, is put it on the 
record after I really can get the facts for you.
    Chairman Towns. Thank you very much, Mr. Secretary.
    Again, I know you, as all of us, recognize how important 
safety is. So let me ask you this: Do you think it is safe to 
drive a Toyota today?
    Secretary LaHood. Pardon me?
    Chairman Towns. Do you think it is safe to drive a Toyota 
today?
    Secretary LaHood. I will say this. I will say that if 
people check our Web site, DOT.gov, we have listed every Toyota 
that is up for recall. I want anybody that has one of those 
cars to take it to their dealer and to make sure that it gets 
fixed. And, again, we are going to work 24/7, and we are going 
to continue until every Toyota is safe for their customers to 
drive.
    Chairman Towns. Thank you for your commitment and your 
dedication in this regard.
    I now yield to the ranking member, Mr. Issa.
    Secretary LaHood. This mic is on, Mr. Issa. But----
    Mr. Issa. It just dropped off all of a sudden. It has 
nothing to do with you, I am sure.
    Chairman Towns. Switch to the other mic. In fact, you can 
use two.
    Secretary LaHood. This one works. OK, I will use two.
    Mr. Issa. It is very Presidential.
    Mr. Secretary, I will pick up where the chairman left off. 
Some companies, including Toyota, I am told, you can go to 
their Web site and you punch in a VIN, which is the one piece 
of information that anyone who is in possession of the car can 
see. At your Web site, you have to put in make and model. So 
you kind of have to know your trim level, etc.
    Can you commit to us that in the foreseeable future the 
Department of Transportation could and, if you agree, should 
have for every automobile sold in America a VIN number on file, 
so if somebody punches in the VIN number they can see every 
recall and every piece of safety information that you know of 
that needs to be applied to that vehicle?
    Secretary LaHood. Given the right amount of time, I will 
commit to you that--we should make that information available 
in the simplest possible way, for even people who maybe don't 
have access to a computer or whatever, we should make it 
available to people.
    Mr. Issa. I appreciate that. And a lot of my questions from 
my opening remarks are about what do we do proactively for the 
future. And I appreciate that we will all have questions both 
for you and for NHTSA and followup questions about the past. 
But let me go on to another one.
    Currently, NHTSA, as I understand it, has 41, 42--49 in the 
high year--thousand inquiries or complaints. And, of course, 
the auto companies also have theirs. If an auto company reaches 
a certain threshold, they have a requirement to send that in, 
in the United States. If an auto company has a recall in 
another country, they have an obligation to inform NHTSA, I 
understand, through that system.
    Now, you and I served in our past lives on the Select 
Intelligence Committee, so you are very familiar what our open-
source system is. Can you tell me today that there is any 
technological reason or commonsense reason that in fact we 
should not--we, the U.S. Government and NHTSA, should not be 
able to transparently see all claims from all of our First 
World partners--obviously to be arranged--and all the 
collateral material from all the people who want to sell 
vehicles in this country? Meaning, is there any reason you have 
to wait until there has been a recall to get information?
    As you know, Great Britain, they didn't actually have a 
recall but they had a similar sticky pedal that they didn't see 
as significant because they thought it only happened there on 
right-hand drive cars. And yet, when we were getting a 
relatively small amount of sticky pedals, had we had that 
information, like any open-source bringing together of 
information, an agency of the government would have fairly 
easily been able to have an alert that could have been sent to 
the auto company for their attention and response.
    Do you see any reason that is not something that should be 
part of a great organization rather than a good one?
    Secretary LaHood. I agree that it should be part of it. We 
believe in transparency. I personally think information can be 
very powerful. And the more, the better.
    Mr. Issa. Now, I know that you can't answer everything 
about NHTSA, but I think you are familiar with the Toyota Blade 
sold in Japan, the one that had a pedal similar to this, even 
though it was not an automobile sold in the United States, in 
which they shortened the pedal because of entrapment. Are you 
familiar with that?
    Secretary LaHood. I am not intimately familiar with that, 
Mr. Issa.
    Mr. Issa. Well, I would appreciate it if you would respond 
for the record of how, in the future, a similar automobile in 
another country that does have a change can have a change 
consistent in the United States. As I said in my opening 
remarks, we took a shortcut, with NHTSA's acquiescence and 
awareness, we took a shortcut on the mats in 2007 here, while 
in Japan they reduced--they increased the clearance on the 
pedal. The difference is the difference in San Diego of that 
family still being alive.
    So that is probably the most important question I have for 
you, is between open-source information and consistency of 
similar or even sometimes dissimilar parts around the world, 
can you commit to me that it is within your vision and 
authority with existing law to bring about a real change so 
that this will not happen again?
    Secretary LaHood. I take your point on this. It is a good 
point, and you have my commitment.
    Mr. Issa. I appreciate that. And if you would do us one 
favor, and that is if at some time in the future you do see a 
potential need for more authority or more specific legislation, 
that you would also come back to us.
    Secretary LaHood. Absolutely.
    Mr. Issa. Thank you.
    Mr. Chairman, thank you again. I yield back.
    Chairman Towns. I thank the gentleman from California.
    I now yield 5 minutes to the gentleman from Pennsylvania, 
Congressman Kanjorski.
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary.
    Secretary LaHood. Thank you.
    Mr. Kanjorski. From arriving at this meeting today, I 
assume this is one of the more uplifting sessions that you have 
had since in office. I think this is probably the greatest 
attendance I have seen in the hallways of the press.
    Secretary LaHood. I would agree.
    Mr. Kanjorski. Obviously, we have struck a nerve, this 
committee and the occurrence that happened in California. I 
wanted to take a moment, Mr. Secretary, to congratulate you. I 
think--I have been observing you for the last week or two, and 
I think you courageously exercised the authorizations of your 
office, exactly what this committee and the Congress expect you 
to do.
    Earlier today, I was watching the ranking member, Mr. Issa, 
on CNBC, and he made an interesting proposal, partially what he 
has discussed with you today. And maybe if that proposal could 
be encapsulated into legislation with greater authority, but 
even above and beyond the auto industry, that we find a way, 
since we are in a global marketplace, to find this information, 
readily assembled for deposit, and then for availability to not 
only citizens of the United States but citizens of the world. 
And it is something we should have.
    I commented to my staff after I saw Mr. Issa, I love 
Portuguese sardines. But I have to be honest with you. If 
somebody died from botulism as a result of eating sardines, I 
would have no way in the world of knowing where to go, where to 
find out, or who to inform. And it is time now that we think 
about the fact that we are not in a city market, a State 
market, or regional market, or just a national market; we are 
in a world market. And if anything productive could come out of 
this hearing, and highlight it is the fact that we take this 
positive action.
    So I make an open offer to the ranking member. I will join 
you in the sponsorship of authorization of not only the auto 
industry, but all international industries, to get this type of 
repository information made available, and utilize the 
intelligence networking and information of this country to 
commercialize it, if you will.
    And to you, Mr. Secretary, I want to make the offer that 
this has been a tragic experience, I think, for Toyota. I am 
sure that if I were a stockholder of that company, or if I were 
Japanese, with the pride they have with that company and their 
50 years of experience, this is something no one wanted to see 
happen. And what we have to do is handle this situation with a 
form of class, if you will. I hope we don't utilize this as 
some effort to beat up either on a foreign manufacturer or to 
overemphasize or exacerbate the feelings that may occur between 
the two nations.
    Secretary LaHood. We certainly haven't done that. And I 
know that all of you feel this way. We have done it under the 
umbrella of safety for people who own Toyotas.
    Mr. Kanjorski. That is a good message, if we can put that 
message out there. What we want to derive from this hearing and 
from this fact is the best purposes in the world, to accomplish 
things in the future so this can't happen or won't happen 
again. But on the other hand, we don't want to excoriate our 
friends and exaggerate situations that go beyond 
reasonableness.
    So I thank you for your testimony. I thank you for your 
attendance to this. And I pledge to you, together with the 
ranking member, that we will take such action as possible to 
see a positive result.
    Secretary LaHood. We will work with you on that.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Chairman Towns. Thank you very much. I now recognize the 
gentleman from Indiana, Mr. Burton, former chair of this 
committee.
    Mr. Burton. Let me preface my remarks by welcoming you, Mr. 
Secretary. We have been friends for a long, long time, and I 
know you to be a very honorable man. So the questions I am 
going to ask have nothing to do with questioning your 
integrity; I want you to know that.
    There was an invitation made to Mr. Strickland to testify, 
and there was an article in the Los Angeles Times today that 
indicated that, because of your request, Mr. Strickland was 
asked not to testify today. Is there some reason for that?
    Secretary LaHood. Well, look, Mr. Burton; Mr. Strickland 
has been on the job 40 days. I have been on the job about 13 
months. I am not going to have our NHTSA administrator, who has 
been on the job 40 days, appear. And, look it, I am taking 
responsibility for this. As I said in my testimony, safety is 
No. 1. And I am going to be accountable. If somebody wants to 
criticize NHTSA or the Department, I will be responsible for 
that, not somebody else. That is my job. I am not going to duck 
it. And I am not going to give it to somebody who has only been 
on the job 40 days.
    And when I talked to Mr. Towns and Mr. Issa, it was always 
clear to me they wanted me to come and I wanted to come, when 
we originally talked. So I don't know how that confusion 
occurred, but that is the reason for it.
    Mr. Burton. Now, don't get mad at me, Ray. That was the Los 
Angeles Times.
    Secretary LaHood. Well, just because I raised a little 
decible in my voice doesn't mean I am mad, Mr. Burton.
    Mr. Burton. Mr. Secretary, I have known you for 20 years. 
Don't give me that stuff.
    You know, there is a question about whether or not there 
might be some kind of a sweetheart arrangement with some of the 
people that preceded you working at NHTSA; and there are a 
number of people, I think at least two NHTSA employees, who now 
work for Toyota. They are on the Toyota payroll, and I have 
their names here. Are you familiar with that at all, sir?
    Secretary LaHood. I have read the reports of that and we 
have looked into it. And what the law requires is that if you 
have been an employee at DOT and you go to work for a company 
that does work with DOT, you cannot communicate or participate 
in the work that you did with this company. So if you go to 
work for a company, if you go to work for Toyota, you cannot 
communicate on issues that you dealt with at DOT.
    So, for example, if those employees worked at NHTSA, which 
they did, they can't come back and be talking about these 
things. They could talk about a highway project or something 
like that, I suppose. But--and here's my pledge to all of you. 
If anybody here knows that there's violations, let me know, and 
I will refer it to the IG and there will be an investigation.
    There has been no more higher standard set for ethics than 
this administration. At the first Cabinet meeting, the 
President made it clear: I don't want any ethical problems with 
anybody.
    Mr. Burton. This preceded you anyhow, Mr. Secretary.
    Secretary LaHood. Right.
    Mr. Burton. But this Mr. Christopher Santucci, now Toyota's 
assistant manager of technical and regulatory affairs, did work 
for the agency. And according to General Motors, Ford, and 
Chrysler, they don't have anybody that's formerly worked for 
NHTSA that's working for them in those capacities. But you're 
saying that these gentlemen, that----
    Secretary LaHood. They can work for Toyota. But they cannot 
come back and talk about issues that they worked on. They can't 
do that. They could talk to people in other modes, FAA or some 
other mode, but they cannot come back and talk to our folks 
about issues that they----
    Mr. Burton. The one thing that I would suggest is that the 
appearance is one of the things that right now I think the 
public is very concerned about. And a couple of people that 
worked at NHTSA that go to work and they're in a public 
relations position, they could talk to people at NHTSA, and the 
appearance may be that they are influencing some decisionmaking 
that is going on.
    Secretary LaHood. Look, I agree with you on this, Mr. 
Burton, and I think this law probably should be tightened up, I 
really do. Because I agree with you, perception is reality. 
Anybody that's been in politics knows that. And I take your 
point on this.
    Mr. Burton. Well, thank you very much. And I still love 
you, Ray.
    Chairman Towns. Does the gentleman yield back?
    I now recognize the gentleman from Maryland, Representative 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And to Mr. 
LaHood, Secretary LaHood, it is good to have you here.
    One of the things that--we find ourselves in quite a 
dilemma here. On the one hand, as Mr. Kanjorski has said, we 
want to be very careful about what we are doing here, because 
we do have a No. 1--one of our main trading partners, Japan, 
involved. On the other hand, though, we have the safety of 
citizens, many of our constituents who spend thousands upon 
thousands of dollars to buy an automobile, and they have a 
right to expect to be safe.
    And to that end, yesterday there was some very telling 
testimony before the Commerce Committee, and I know you were 
there and heard about it, where the president of Toyota Sales 
USA, when asked about the mat issue, whether it was a sticky 
pedal or the mat problem, whether recalls in regard to those 
issues would solve the problem, he was not sure. Are you 
familiar?
    Secretary LaHood. Yes, sir. I was there, and I heard his 
testimony.
    Mr. Cummings. And as I sat here and I listened to you when 
you talked about--you said go to the Web site. And you said if 
people were having certain problems, they should go to the 
dealership. And then I heard you--in answer to the chairman's 
question, I don't think you ever really answered the question, 
because he asked you whether or not you considered a Toyota to 
be safe. You are our safety guy, just as you just said. You 
said it, I didn't. And I believe that. I believe you are 
concerned about safety.
    The question still becomes, for our constituents, you as 
our safety guy.
    Secretary LaHood. Well, let me answer you very directly, 
Mr. Cummings.
    Mr. Cummings. Thank you.
    Secretary LaHood. For those cars that are listed on our Web 
site, DOT.gov, for recall to go back, those are not safe. We 
have determined they are not safe.
    Mr. Cummings. All right.
    Secretary LaHood. We believe that we need to look at the 
electronics in these cars, because people have told us they 
believe there's an issue. And we are going to do that. We are 
going to have a complete review on the electronics. But for 
now, any car that is on the Web site needs to go back to the 
dealer to be fixed.
    Mr. Cummings. Now.
    Secretary LaHood. We have determined that those are not 
safe because of a floor mat problem, because of a sticky pedal. 
And----
    Mr. Cummings. It's the ``and'' that I am wondering about 
right there. In other words, you just said you didn't consider 
those safe. But, again, we had Lentz saying yesterday--and I am 
not trying to attack you, I just want to make sure we are 
clear.
    Secretary LaHood. Look, I am not offended by any this of 
this. Come on. I am not.
    Mr. Cummings. But we need to be clear. We have people 
driving these cars every day. And I am just wondering, do you 
believe that--and it sounds like you do--that there's something 
beyond just those two things, as Mr. Lentz of Toyota USA 
testified to yesterday?
    And one more question. If those automobiles--if there are 
automobiles that are not on the recall list, because that is 
what I am beginning to wonder about, what are they supposed to 
do?
    Secretary LaHood. There are people who believe that there 
are electronics problems with Toyota, and that is the reason we 
are going to do a review.
    Mr. Cummings. OK.
    Secretary LaHood. And for now, we don't have evidence right 
now to say conclusively that there are these electronics 
problems. We are going to get into it, we are going to get in 
the weeds. There were people at that committee yesterday that 
had some studies that showed that there were electronics 
problems on at least one that was tested. We want that 
information.
    For now, the only thing I will say to Toyota drivers: If 
your car is listed, take it to the dealer and get it fixed. And 
please know that we are going to look at some other issues 
because we've had complaints about the electronics.
    Mr. Cummings. Now, do we have enough personnel to do that?
    Secretary LaHood. Yes, sir. And I will tell you this. The 
President in his budget proposed 66 new employees for NHTSA. We 
have 125 engineers, and we do have electrical engineers also.
    The answer is the President has proposed in our budget 66 
new employees for NHTSA.
    Mr. Cummings. And when you look at NHTSA and you talk about 
looking at problems, and you said when you see a pattern, can 
you tell us what a pattern is? In other words, you say if you 
see a pattern, then you take the next step.
    Secretary LaHood. I would say, you know, if we get--I don't 
know; say we get 50 complaints on an automobile, say we get 10 
complaints, we look at those seriously. And if those 10 
complaints appear to be serious, we will begin to look into it.
    Mr. Cummings. Thank you. I see my time has expired. Thank 
you, Mr. Chairman.
    Chairman Towns. I thank the gentleman from Maryland.
    I now recognize the gentleman from Florida, Congressman 
Mica.
    Mr. Mica. Mr. Chairman, when I received the notice for 
today's hearing--in fact this, I guess, is from the committee--
it says the panel of witnesses would include David Strickland, 
the administrator of NHTSA. I know he has only been on the job 
for a limited number of days, but I think it is important that 
he testify.
    I would ask unanimous consent that he be allowed to testify 
and be sworn in as a witness.
    Chairman Towns. As it was explained earlier, that the 
Secretary indicated the fact that the decision was made that he 
had been on the job 40 days, and that is the reason that he is 
not here. But the Secretary also assured us that the decision, 
in terms of the final decision, was his, and that he is 
prepared to assume that responsibility. So once he said that, I 
became very comfortable with it. Because if he is going to 
assume the responsibility, then of course when we discussed it 
with the ranking member we accepted that. And, of course, I 
think that we should just move on.
    Mr. Mica. Well, I do understand that he is here and he is 
available. I've never met him before, but I read his resume. 
And it said--this is from the Department Web site. It said that 
his work included the--he was with the Senate committee, I 
guess, and advising the Commerce Committee members led to his 
inclusion of several significant vehicle safety measures, 
including the electronic stability control mandate for every 
passenger vehicle. So he does have a certain amount of 
expertise.
    If we are going to look at the safety of equipment, I think 
it appears he not only is knowledgeable but has also had 
experience in passing legislation or influencing regulations in 
that regard.
    So I can withdraw my request. But, again, I am disappointed 
that he is not a witness, and I was led to believe, again, that 
he was on the witness list.
    Mr. Issa. Would the gentleman yield?
    Mr. Mica. Well, I will yield.
    Mr. Issa. Just very briefly on this point.
    Mr. Chairman, we are anticipating having another panel in a 
week or two. Would you agree to work with us on the possible 
inclusion of Mr. Strickland? Because, of course, we are going 
to be calling probably Bush administration people, and we can 
see the potential of that at the end of this hearing.
    Chairman Towns. I don't have a problem with that at all, 
because, let's face it, what we are talking about happened on 
the other watch. And of course we need to recognize that. So 
the point is that I think that is where our emphasis should be 
in terms of trying to make certain we talk to them.
    But I don't have a problem in terms of at some point asking 
Mr. Strickland to come forward. But the point is I think we 
should just move forward today. We have the Secretary with us. 
And I think----
    Mr. Mica. I will withdraw my motion if it's acceptable, and 
will work with you. But then, if I am now recognized.
    Chairman Towns. I now recognize the gentleman for 5 
minutes.
    Mr. Mica. NHTSA is the primary national safety 
transportation, surface safety transportation agency of the 
United States and the Department of Commerce; right, Mr. 
LaHood?
    Secretary LaHood. That is correct.
    Mr. Mica. Every account I have heard to date says that 
NHTSA failed and Toyota failed. The chairman said it in his 
opening statements yesterday. We heard that. I am sorry I can't 
talk to the NHTSA administrator today, but we will get an 
opportunity to hear from him.
    You opened your commentary, rightfully so, with safety 
being the primary responsibility of the Department of 
Transportation. Correct?
    Secretary LaHood. That is correct.
    Mr. Mica. And you now set the policy, and you have been 
there for a number of months. So I am somewhat baffled by the 
budget request of the administration from 2010 to 2011, the 
budget request that came out a few days ago, with the smallest 
request for increase in budget for our primary safety agency. 
It was only $5 million. And yesterday I said in the 
Transportation Committee that my dad used to say, It is not how 
much you spend but how you spend it, if you spend it wisely.
    But I think you know the concern Mr. Oberstar and I have 
had about safety and making that a priority, particularly in 
transportation and in NHTSA in particular. But it is a 
relatively modest amount. In fact, it is one of the lowest 
increases requested. Any reason for that?
    Secretary LaHood. We think that adding 66 new people at 
NHTSA probably gets us where we need to be in terms of really 
staying on top of our safety issues.
    Mr. Mica. You have 632 current positions. How many 
vacancies do you currently have?
    Secretary LaHood. I'll have to get back to you on the 
record for that.
    Mr. Mica. Does Mr. Strickland know? Maybe if Mr. Strickland 
or staff happen to know.
    Secretary LaHood. I will be happy to get back to you for 
the record.
    Mr. Mica. OK. And I would like, Mr. Chairman, to ask 
unanimous consent that, the number of FTE vacancies in NHTSA, 
be included in the record.
    Chairman Towns. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.014
    
    Mr. Mica. The issue of the revolving door of people going 
from NHTSA to the industry, it was stated that there's no 
communications that what you stated allowed between them. I 
have a copy of an e-mail in 2008 between Scott Yon of the U.S. 
Department of Transportation and the former NHTSA employee who 
works for Toyota. Are you aware that these types of 
communications went back and forth?
    Secretary LaHood. I saw that e-mail.
    Mr. Mica. Well, you did admit that we should tighten things 
up. I think that was your term.
    Secretary LaHood. Absolutely.
    Mr. Mica. Is there now a 2-year ban or a 1-year ban? Are 
you familiar with the restrictions on the revolving door?
    Secretary LaHood. Two-year ban.
    Mr. Mica. So I would be glad to hear your recommendation 
and support your recommendation to tighten this.
    Secretary LaHood. I will be happy to work with you on it.
    Mr. Mica. In fact, Mr. Chairman, I would like to submit 
this document to the record to show that in fact there has been 
communications, and that we do need to close the revolving 
door. If it's just limited to Toyota----
    Chairman Towns. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.015
    
    [GRAPHIC] [TIFF OMITTED] T8346.016
    
    Mr. Mica [continuing]. It doesn't matter.
    I do have disappointment. Again, I don't want to get into 
all the specifics of where those bodies are directed or 
requested. It's not my intention to try to embarrass the 
Department. It's my intention to make certain that you have the 
resources to do the job that you need to do to ensure safety.
    Is there anything else you could recommend to either our 
Transportation Committee or Government Reform in the way of 
additional authority, personnel, or resources that would 
allow----
    Secretary LaHood. Regarding safety?
    Mr. Mica. Yes.
    Secretary LaHood. I would love for every member of this 
committee to cosponsor the transit safety bill that Mr. 
Oberstar introduced. That's a good way to give us the 
opportunity to have oversight over transit systems, including 
WMATA, which had a terrible crash that sparked our interest in 
really getting into the safety business. And I would encourage 
every member of this committee to look at that bill. It is a 
good bill, and it gives us the authority, which we are 
prohibited from doing, to get into the safety business with 
respect to transit organizations.
    Mr. Mica. Well, and transit is one thing. Again, the 
Federal agency has say over Amtrak and freight rails, which 
have probably the worst safety record. But if you took all the 
fatalities in public transit over the years and compared it to 
the incidents that have been cited today in this one automobile 
part, I think we have a problem.
    Secretary LaHood. Mr. Mica, I don't minimize any fatality. 
I think one fatality is too many fatalities. And when eight 
people are killed here in Washington, DC, on America's Metro 
system, somebody needs to be looking out for safety. We want to 
do that. And I hope we can have your support to do it.
    Mr. Mica. Finally, I would venture to say, and there's an 
article in today's Post that if we had--we do have equipment 
that could provide that safety. Rather than spending on a bunch 
of people wandering around the tracks, our money would best be 
expended----
    Secretary LaHood. You will be happy to know the President 
has proposed $150 million in the 2011 budget for WMATA for 
equipment.
    Chairman Towns. The gentleman's time has expired.
    Mr. Mica. And $5 million for the NHTSA budget, the lowest 
amount that I have in recent history. Thank you.
    Chairman Towns. The gentleman's time has expired.
    I now yield to the gentleman from Ohio. But let me just 
say, before we do that, we have three votes; and, of course, we 
are going to continue through the votes, I just want to assure 
you of that. So as soon as you vote, you need to come right 
back, because we are going to continue.
    The gentleman from Ohio is recognized.
    Mr. Kucinich. I thank the chairman.
    Welcome, Secretary LaHood.
    Secretary LaHood. Thank you.
    Mr. Kucinich. CBS had an exclusive where they were able to 
gain some internal documents that showed that Toyota redesigned 
software in 2005 in response to complaints that cars were 
accelerating unexpectedly. Are you familiar with those 
documents?
    Secretary LaHood. No, sir, I'm not.
    Mr. Kucinich. Is this the kind of issue that NHTSA has the 
ability to be able to get into?
    Secretary LaHood. Yes, sir.
    Mr. Kucinich. So are you interested in that kind of report?
    Secretary LaHood. Yes, sir.
    Mr. Kucinich. One of the suggestions made in that report is 
that the--by an electrical engineer--is that there may be a 
problem with systems design with respect to Toyota and, I would 
assume by reference, to their electronic throttle control.
    Does your Department have the technical ability to be able 
to analyze systems, design, engineering, mechanical, software, 
hardware, and all the elements that would be necessary to be 
able to come to a conclusion as to what the nature of 
unintended acceleration would be?
    Secretary LaHood. Yes, sir, we do. And we take our 
responsibility seriously. We have 125 engineers. We have 
electrical engineers. We are going to get into the weeds in a 
very thorough, comprehensive review on the electronics, because 
that issue has been raised enough that we need to do that. It's 
been raised by people who drive Toyotas, it's been raised by 
Members of Congress, and we are going to do it.
    Mr. Kucinich. The distance between Washington and Japan is 
well established. But the question is: What kind of ability do 
you have to send those who have the technical skills to analyze 
documents to Japan to get Toyota's cooperation in being able to 
review records of research from, let's say, 2004, 2005, on 
these models, internal documents that would tend to show 
whether or not Toyota was aware of any of these problems?
    Have you sent people specifically to do that? And if you 
haven't, do you intend to as part of your findings and your 
investigations?
    Secretary LaHood. We have asked for a voluminous amount of 
information from Toyota which we will review. If we need to go 
to Japan and meet with their engineers and get more 
information, that will be a part of our review.
    Mr. Kucinich. But you no doubt are aware that as an 
established and respected automobile manufacturer, that Toyota 
would have research documents within their control that would 
show the function of various components of their system.
    Secretary LaHood. Yes. Of course.
    Mr. Kucinich. And I think this is important, Madam Chair, 
that we hear from the Secretary on this, because his Department 
does have the ability to be able to get into this. And while 
we, as Members, get these documents, we can analyze them, we 
have help in being able to understand.
    Now, in the time that I have remaining, for the instruction 
of the membership and the public, could you walk us through how 
complaints are investigated? You know, who does the 
investigation? Can you enable us to learn, is this all in-
house? Do you outsource any of your investigations?
    Secretary LaHood. Almost all of our investigations are done 
in-house by our experts. People file complaints with us, and we 
take them seriously. We look into them. When we decide that 
this is serious enough, we interview people; we look at all the 
possible written material from the automobile manufacturer, 
from people themselves, from--we gather the most comprehensive 
amount of information through interviews and research, and then 
make a judgment if a car needs to be recalled.
    Mr. Kucinich. Well, thank you, Mr. LaHood. I just want to 
make sure that you put on your agenda the issue of the redesign 
of software by Toyota engineers in 2005, because we want to see 
if Toyota's claim that electronics were not to blame--we want 
to see how that squares with the software redesign that 
occurred apparently in response to some kind of electronic 
problem.
    Secretary LaHood. It's on our radar.
    Mr. Kucinich. Thank you, very much, Mr. Secretary, and 
thank you for your service to our country.
    Secretary LaHood. Thank you.
    Ms. Norton. The time of the gentleman has expired.
    Mr. Secretary, I want you to know that the chairman has not 
morphed into a lady in red. He has gone to vote, and I am here 
pending the vote of the Congress to give the residents of the 
District of Columbia the same vote that your constituents had 
when you were here making trouble and doing good.
    Secretary LaHood. As a former Member, I supported your 
opportunity to do that, Ms. Norton.
    Ms. Norton. And we certainly will miss your vote when the 
bill comes up. We thank you. The Members will reappear.
    I call on, next, the gentleman from Indiana, Mr. Souder, 
for 5 minutes.
    Mr. Souder. Thank you very much.
    Mr. Secretary, I want to say I always appreciated your your 
intelligence and your feistiness. It is how we arrive at truth, 
and it is the only way we get at truth. I appreciate that.
    First, let me say, so nothing is misunderstood, I don't 
represent a Toyota district. I represent a GM district. Fort 
Wayne is the proud manufacturer of the Silverado and the 
Sierra. My manufacturers supply all auto companies, but mostly 
the Big Three. But this whole ruckus about Toyota has bothered 
me personally in watching this process--100 percent risk free 
is your goal--because it is not really achievable. It is not 
achievable in bicycles or ice skating or horseback riding or 
anything. You try to get that. But we have kind of held them up 
to an artificial standard here.
    I am concerned that by dragging Mr. Toyoda through this, or 
asking questions like, ``Are you completely, 100 percent safe 
in a Toyota?'' What are you supposed to say?
    It leads me to ask a couple of questions, and you may not 
be able to answer all of these today, but I would really 
appreciate you looking at this because this needs a thorough 
looking at and a fair looking at, and not acting like it is 
just one car company. One thing is no vehicle is 100 percent 
safe; isn't that true?
    Secretary LaHood. Our goal is to make sure that vehicles 
are 100 percent safe, Mr. Souder.
    Mr. Souder. But no vehicle is 100 percent safe?
    Secretary LaHood. Our goal will continue to be to make sure 
that cars are 100 percent safe.
    Mr. Souder. Second, you said that all Toyotas that are on a 
safety recall, and you are even less confident of their safety 
if they are on a recall. Wouldn't you encourage people, if they 
have a safety recall on any of the car companies, of which you 
said this is one of the largest, but not the largest, any car 
company that has a safety----
    Secretary LaHood. Of course. Absolutely. In the last 3 
years, 23 million cars have been recalled and the vast majority 
of them have not been Toyotas. So anytime there is a recall, 
people should take their car in and get it fixed. Of course.
    Mr. Souder. Yes, and that is very logical. Right now, the 
whole world media is focused on one of the companies. I just 
want to make sure that----
    Secretary LaHood. I can give you a whole list of cars that 
are on recall, Mr. Souder, and I would be happy to do that for 
the record.
    Mr. Souder. I would appreciate that.
    One of the challenges here is, and I know from my district, 
almost every supplier supplies all of the Big Three. We don't 
have enough suppliers anymore to be unique in the United 
States, and most of them supply some of Honda and Toyota.
    And one of the things that strikes me here is that you 
should find out, not just looking at Toyota, but where is a 
common supplier, and if that supplier was supplying just to 
Toyota, as opposed to other suppliers, if it is supplying other 
companies and it isn't occurring there, what would be the 
unique thing that is happening in Toyota? And I don't have 
confidence right now that is occurring, but I would think it is 
kind of a basic research question right now. You did represent 
an industrial district, too, that had companies, and I think 
that is a fair thing.
    Now, we also have a question of the difference between--
first, let me ask you, you agree with this, right, that some is 
sudden acceleration and some is slow return?
    Secretary LaHood. Yes.
    Mr. Souder. And that the deaths--which have dramatically 
increased since all the publicity, the allegations, but the 
proven number was 14, then it went up to 39 that are now in 
question, and more coming--were all related to the sudden 
acceleration and not the slow return? The slow return, I think 
you correctly said, is a potential danger, but the sudden 
acceleration, every single one of the deaths related to that?
    Secretary LaHood. That's correct.
    Mr. Souder. CTS is one of the suppliers. They are not in my 
district, they are in Joe Donnelly's, but a lot of the people 
work in my district. And in visiting them, they had the slow 
return and they were first fingered by Toyota. But in fact, 
none of the parts on the sudden acceleration were actually made 
in the United States, they were all Japanese suppliers.
    I think we need to look comprehensively by model and start 
to look at this unique supplier question because, for example, 
CTS supplies several different companies, whether those 
Japanese suppliers in fact supply other companies as well in 
this supply system.
    Another thing I would appreciate more detail on is one of 
the things that I am worried about happening in the regulation 
is, as was just stated a number of times, was that Toyota was 
looking at this and they were researching this and Europe had 
different standards so they started to do that.
    One of the dangers here with the lawsuits, and particularly 
watching what is happening with Toyota sales right now, is 
around the world they are getting basically, in my opinion, 
smeared. Possibly justly. I don't know all of the details yet. 
But they are getting attacked before all of the evidence is in, 
as I just suggested, with the suppliers.
    Part of the question here is, will we in fact have a 
discouraging impact on companies doing--checking out every 
concern if it is going to be drug into the public eye, that 
documents are going to be released--and I am not accusing you, 
but this committee may be responsible for that--before all of 
the evidence is in?
    One of the challenges here, we ran into this with the 
trailer controversy in FEMA, which clearly now has not been 
established, but had this big bubble. We said zero toxins, and 
then we find out that this room had more toxins in it than the 
trailers. We are finding this in orthopedic devices. We are 
finding this in all kinds of things that we kind of react, and 
then the companies are afraid even to do the research. The 
bureaucrats and the organizations require more and more 
paperwork. We drive prices up because all vehicles and all 
parts are a combination of what is convenience, what is price, 
what is the tolerance when you go to 99.9 versus 99.7. There's 
cost to the consumers. If we all drove 20 miles an hour, we 
would have fewer deaths. In this process, are you at all 
concerned that we are going to silence research by the 
manufacturers and increase risks or increase costs or other 
types of things?
    Secretary LaHood. Not at all. I think what we will do is 
sensitize manufacturers to the idea that safety has to be their 
No. 1 priority, and until they get to that point, they should 
manufacture cars where they can tell the driving public they 
are going to be safe.
    Mr. Souder. Won't lowering the speed limit to 30 save a lot 
more lives?
    Secretary LaHood. Well, the research doesn't show that. 
Look it, on an interstate highway, we have minimum speed 
limits. Look, Mr. Souder, that is not a very good illustration. 
Lowering the speed limit on an interstate highway to 30 would 
make it very dangerous.
    Mr. Souder. The reason you have a minimum is because you 
have a maximum. If you lowered the maximum to 30, you wouldn't 
need a minimum. The point being you can save lives with other 
types of things.
    Secretary LaHood. I don't buy your argument, Mr. Souder.
    Mr. Souder. The question is: What is the tradeoff of lives, 
convenience, and so on. We have seen this in horseback riding 
and we have seen it in skateboarding.
    You have a difficult job. Your goal is 100 percent. But we 
have to have some balance here between risk, cost, and benefit.
    Secretary LaHood. Madam Chair, our job is not for people 
who ride horses or skateboards. Our job is for people who ride 
cars. And our goal is that when people get in a car, they want 
to make sure that it is 100 percent safe. We are not going to 
sleep until that happens with Toyota.
    Ms. Norton. Thank you. The time of the gentleman has 
expired.
    Mr. Secretary, I recognize that this problem started 
perhaps as early as 2000. You've only been in office less than 
a year. My question really goes to going forward. You've I 
think been a stand-up Secretary. You haven't cast blame to 
those who came before you. I'm interested in the capacity of 
the agency, and I use the word ``capacity.'' We have talked 
about 66 new people. That sounds good to all of us, 
particularly in this climate. It sounds responsive.
    More troubling to me was news that Toyota's engineers and 
technology experts were simply not there, that NHTSA didn't 
even have people capable of doing the technical work that would 
have been necessary to look closely at what Toyota was doing. 
So when you look at these 66 people going forward, are we going 
to have experts in the agency that can go toe to toe with 
Toyota and anybody else? How are you dividing up these new 
people so we know we have people with the technical capacity to 
do the job, as apparently was not the case, because you have 
engineers from Toyota saying to the press, ``I didn't know how 
to do the work that was necessary in electronics?''
    Secretary LaHood. We will find--the climate we are in today 
with the economy, I have no doubt we are going to find the very 
best experts that we can to fill these positions. And we will 
resource them in areas where we need them, as quickly as the 
Congress passes our budget.
    Ms. Norton. And in division of labor, as experts versus 
other kinds of people, there were missing experts, were there 
not, at NHTSA during the last few years?
    Secretary LaHood. Yes. Yes.
    Ms. Norton. So in filling the gaps, are you focusing on 
these technological experts, these engineers?
    Secretary LaHood. Yes. We will fill the positions with 
people when we see the direction where our investigations are 
going and what we see as the way forward for looking at 
complaints.
    Ms. Norton. Mr. Secretary, I have to ask you about the 
notorious culture of secrecy that even is admitted in Japan and 
whether or not issues of competence and candor came together 
encapsulated in a culture which apparently was not as open as 
some would have it. Have you had difficulty penetrating the 
Toyota culture which teaches that these are things that should 
not be aired in public?
    Secretary LaHood. Yes.
    Ms. Norton. How are you penetrating that?
    Secretary LaHood. Well, we have had some issues, and that's 
the reason when the acting administrator, Ron Medford, came to 
me and said, ``I need to go to Japan and talk to these people 
directly,'' I said, ``Get on a plane tonight.'' And he went and 
he talked directly to the people in Japan.
    And I picked up the phone and I talked personally to Mr. 
Toyoda, and I told him these are serious matters and they need 
to be taken seriously. As I said earlier, I am pleased that he 
accepted the invitation of this committee to appear here. I 
think that begins to build the kind of communication and 
opportunity for people to really talk to one another about how 
we solve these problems in the future.
    Ms. Norton. Well, let's take the sticky pedal issue. We now 
know that Toyota--because Toyota said that it knew of this 
issue as early as 2008, but it didn't decide to make those 
changes in the United States until over a year later, is it 
accurate that they knew about it and, over a year, delayed in 
making the necessary changes, and how do they justify that to 
your agency?
    Secretary LaHood. Madam Chair, I would rather just give you 
the details for the record, if I could, rather than getting 
into the specifics.
    Ms. Norton. Say that again.
    Secretary LaHood. I would like to put that on the record so 
I can be very specific about the chronology of it and how it 
took place.
    Ms. Norton. Mr. Secretary, that really is going to be 
necessary. It is that lag that makes everybody driving a Toyota 
today wonder whether or not a few months from now they will 
hear about another recall that they should have heard about 
prior to that. It is very important to get that on the record 
as soon as you can. I understand the necessity to do so in the 
spirit of accuracy.
    Secretary LaHood. We will do it very quickly.
    Ms. Norton. In meeting with the committee staff, officials 
from your agency said Toyota had been dragging its feet--that's 
in quotes, that's from the staff--when it comes to working with 
your agency to solve the issues.
    Do you believe that Toyota has been slow to respond to 
safety concerns raised by the Department and by NHTSA?
    Secretary LaHood. Yes, I do. That's the reason we went to 
Japan. That's the reason I talked to Mr. Toyoda directly. 
That's the reason we've had these discussions.
    Ms. Norton. Do you believe now that the candor and the 
rapid response that you are demanding you are receiving? In 
other words, this notion that if you take your time, that was 
apparently a part of the culture of Toyota, these things will 
work out? When it comes to these cars, that will not be 
tolerated? That somehow what they say to you, you now can 
trust?
    Secretary LaHood. I said yesterday at the other hearing, 
Madam Chair, that I think the business model for Toyota where 
they have some very, very good people in North America, very 
good people--their issues may not have always been communicated 
or heard in Japan. But I do think that the fact that Mr. Toyoda 
is here, that he is testifying, that he is willing to answer 
questions, things have changed. His visit here has been a game 
changer.
    Ms. Norton. It is very important for Toyota owners to hear 
that the game is really different now, Mr. Secretary. However, 
I am looking at a big ream of paper, and I must congratulate 
your new administrator because it was sent apparently on 
February 16th. He has not been in office very long, as you 
indicated. They contain over 100 questions as of now, seeking 
information about this crisis. It would lead us to believe that 
even now you are somewhat skeptical about what you are hearing 
from Toyota because you have had to send a whole ream of 
entirely new questions to Toyota about what appears to be this 
whole set of issues, even though you have penetrated very 
deeply already and gotten countless recalls and countless 
information anew from Toyota.
    What is the meaning of having to send so big a pile? These 
are three separate letters from different parts of NHTSA. How 
are we to interpret at this date the necessity to get this much 
new information from Toyota? Or is it new information?
    Secretary LaHood. Some of it will be new information. I 
made a judgment and a decision that we would do the most 
comprehensive review, going back as far as we possibly could, 
to get information so we can make a judgment about whether they 
were forthright, whether we had the information, whether we 
were making judgment calls based on everything we had. We need 
to see all of that so we can determine if Toyota was 
forthright, because we have the ability to issue penalties if 
they weren't. But before we decide that, we want to make sure 
that they give it all to us, and did we get it all to begin 
with.
    Ms. Norton. Now, how common is it to have to send such a 
big pile of letters so late in a controversy to get the 
information that is necessary? You've had recalls. What's new 
about this is recurrent, almost rolling recalls.
    Secretary LaHood. We felt it was necessary to do--really do 
the total comprehensive review of this to make sure we got it 
right.
    Ms. Norton. Let me ask you about what you believe happened 
to a company that stole the thunder from other companies--and 
most especially companies in the United States--based, it would 
seem initially, almost primarily on the safety and quality of 
its product, built a reputation of products that were so 
thoroughly, and done with such high quality, were so 
trustworthy on the road. That rising star was Toyota. And we 
have automobile companies in the United States in receivership 
essentially, owned by the United States.
    One of the things that is very hard for Toyota owners to 
understand is how that stellar reputation so quickly--or was it 
quickly--got lost so that you would now perhaps rank Toyotas 
among the worst of automobile companies in terms of safety and 
reliability? What did they do wrong that got them to this low 
point in what had been a very lofty and well-regarded history 
of operation?
    Secretary LaHood. Madam Chair, some of what I would say 
would be conjecture. But certainly on the safety side, I think 
Toyota became a little bit safety deaf.
    Ms. Norton. Was it because they were so big?
    Secretary LaHood. Well, look, I don't want to conjecture on 
these things because it would just be my opinion. But on the 
safety part of it, which I think is something we know about at 
DOT, I do believe that they were safety deaf. I also believe 
their business model for communicating between North America 
and Japan needs some change.
    Ms. Norton. Meaning that Japan calls the shots even in 
North America?
    Secretary LaHood. Just that they need to listen to one 
another and hear what one another are saying.
    Ms. Norton. Let's take the override systems. When we talk 
about quality and the type of quality that one would expect 
from Toyota, even if one didn't expect it from other companies, 
apparently when it came to brakes, other companies did have 
override systems in their vehicles that would have allowed them 
to be easily stopped. Why, and I am sure you have asked Toyota, 
wasn't override, which apparently was common enough to be in 
other makes of cars, why did they not do override in the 
Toyota?
    Secretary LaHood. Mr. Lentz, the CEO of Toyota, announced 
yesterday that they are putting this override capability in a 
number of cars.
    Ms. Norton. You betcha, after loss of life. But this was 
not something they had to discover. What would have led a 
company of such reputation not to include that override when it 
was already included in other makes of cars?
    Secretary LaHood. Well, I would just be conjecturing on 
that. I think Mr. Toyoda may be able to answer that.
    Ms. Norton. Maybe we need to ask him. But Mr. Secretary, 
unless we can discover why Toyota decided to throw overboard 
the kinds of safeguards we understand would have been in early 
Toyotas, we won't be able to make sure that they are not doing 
it. In other words, ultimately brake overrides, we will have to 
say whether everybody should have brake overrides. And we will 
have to know whether those kinds of things get left out of cars 
because people are trying to save money or because people are 
trying to keep up with the competition. We have to know why. 
That is not a small thing, and it is a matter of some genuine, 
I think, skepticism and curiosity on the part of all of us.
    Now, one auto consultant said in a recent report, 
``Regardless of the causes of sudden acceleration in Toyota and 
Lexus vehicles, it is apparent that the automaker's first step 
should be measures aimed at protecting the public. The 
implementation of a brake to idle override feature across all 
model lines and years may be a significant step in that 
direction.''
    Do you think that such features should now be in all 
automobiles, Mr. Secretary?
    Secretary LaHood. You know, I would rather base that kind 
of a judgment on good research and a number of things. I'm not 
going to--we need to really look at that, Madam Chair. I can't 
render a judgment on that at the moment.
    Ms. Norton. Mr. Secretary, I wish you would take a look at 
it, because I think now everybody is going to want to know what 
is the minimum safety equipment that should be in every 
automobile sold in the United States.
    Let me go on to another series of questions.
    The committee has an e-mail between NHTSA investigators and 
Toyota from January of this year. There is a reference to an 
accident that occurred in Texas and NHTSA's request to download 
data from the event recorder in that vehicle.
    From reading this e-mail, it would appear that NHTSA is 
unable to download this data on its own without Toyota's 
presence. Is that correct?
    Secretary LaHood. We have over 7,600 EDR files in our crash 
data. The commercial available tool only reads GM, Ford, 
Chrysler. Toyota has a proprietary EDR which is the system that 
only they can read.
    Ms. Norton. Why is it proprietary? Why can they only read 
it? It is not proprietary for the others. This is what I mean 
by the culture of secrecy. It is ours, even though these kinds 
of things are made known by other automakers, we're not going 
to do it. Would your agency allow that kind of secrecy on that 
kind of important matter to continue?
    Secretary LaHood. No.
    Ms. Norton. I'm pleased to hear that. Should there be a 
Federal standard there, do you think?
    Secretary LaHood. Let me get back to you on that.
    Ms. Norton. It is very important. We need to know what the 
standards are.
    Secretary LaHood. Right.
    Ms. Norton. What the new standards are. And you recognize, 
Mr. Secretary, all of these questions are, yes, based on what 
has happened, but based on going forward, because that was on 
their watch, now you're on your watch?
    Secretary LaHood. Right.
    Ms. Norton. Do you believe that Toyota should make the 
black box data more easily available to law enforcement and 
NHTSA?
    Secretary LaHood. Yes.
    Ms. Norton. Thank you.
    According to testimony that we are going to get later, I 
understand NHTSA has a standard that allows companies to choose 
whether to install black boxes in cars, and requires that any 
installed recorder track certain types of information. Some 
experts have suggested that we need a Federal safety standard, 
and I would like to know your opinion on this matter.
    Secretary LaHood. That's something we are looking at.
    Ms. Norton. Could I ask you, Mr. Secretary, how long you 
think it will take to come up with a basic safety standard for 
all automobiles? We are asking you some questions which you 
certainly cannot answer until the Toyota investigation at the 
very least is over. I am now, I think, speaking for people who 
are driving Lexuses and Toyotas, about whether they can expect 
that the agency, doing its due diligence, will come up with 
something that means I've been driving an unsafe automobile. 
That's why the time factor turns out to be important on this. 
How long do you think that it will take us to know, or NHTSA to 
know?
    Secretary LaHood. Rather than giving you a time, Madam 
Chair, I would rather get back to you so we can figure this 
out.
    Ms. Norton. I wish you would give us an understanding just 
how difficult that is. When I look at this ream of new 
material, I'm not asking you not to go through it, but I am 
thinking about how many nervous folks are out there wondering 
if they would be next.
    Secretary LaHood. Would you mind if we take a brief recess? 
Maybe the only advantage of you not having a vote is you can 
continue asking me questions, but I wouldn't mind taking a 
break, if you don't mind.
    Ms. Norton. Mr. Secretary, in light of your great patience 
in being here while I sat alone asking you questions, I could 
hardly refuse you. Ten minute break.
    [Recess.]
    Ms. Norton. We will reconvene with Mr. Duncan of Tennessee 
recognized for 5 minutes.
    Mr. Duncan. Thank you, Madam Chair.
    Mr. Secretary, I don't see how anybody could have done a 
better job during this first year.
    Secretary LaHood. Thank you.
    Mr. Duncan. Rampage, as you describe it, about texting and 
other electronic devices while driving. I hope you will keep 
pushing that just as much as you can.
    Let me ask you, is there anything that Toyota should be 
doing now, that the Department feels that Toyota should be 
doing now, that they are not doing? Are you satisfied with 
their response?
    Secretary LaHood. Well, we have sent them a request for a 
lot of information. I believe they will comply. We want to look 
back and look at a lot of documents to determine what went 
wrong earlier on, if anything went wrong earlier on. So that 
request is pending. We know they will be doing their--gathering 
the information that we have asked for. We want their 
cooperation as we look in depth at this electronics issue 
because we are going into the weeds on this. People have asked 
us to do this. We think that it is important to do it.
    Some people believe that electronics are a part of the 
problem and it is our responsibility to really check that out. 
So we are going to do that. We need their cooperation on that. 
I don't know that they won't cooperate. There have been some 
studies done by some people that they hired, but also by a 
fellow at Southern Illinois University in Carbondale. We want 
to look at that information. We want to know if they have any 
information independent of the people that they have hired. We 
will continue to look into that aspect of their automobiles.
    Mr. Duncan. Let me ask you a couple of other things. I seem 
to recall that I read that NHTSA has approximately 700 
employees; is that correct?
    Secretary LaHood. Round numbers, that is pretty accurate.
    Mr. Duncan. There was some mention of this occurring, some 
of the bad things happening on somebody else's watch, but most 
of those employees are civil service employees, I assume. And 
most of those employees are still there today that were there.
    Secretary LaHood. Some of them are, and they are all career 
people.
    Mr. Duncan. Right. Judging from your earlier testimony, you 
are pretty satisfied with the response that they made at the 
time, or the investigations that were made at the time, and 
what has been done since you came on board?
    Secretary LaHood. One of the reasons that we made this huge 
request to Toyota, we want to make sure when our people put 
eyes on paperwork prior to this, that we had everything. But I 
tell you this, we have some of the most professional career 
people. They take their jobs very seriously when it comes to 
safety because they know the work they do could save lives and 
save inuries. But we want to make sure that they had all of the 
information.
    Mr. Duncan. All right. I have heard on the news, and I 
don't know what the details are, but there apparently was some 
braggadocio, or at least happiness, by some Toyota engineers or 
Toyota employees for getting NHTSA to reduce an earlier recall 
or hold it down to a very small number, and they have claimed 
that they saved Toyota $100 million or some huge amount of 
money. Do you know about that?
    Secretary LaHood. No, I saw the press reports where Toyota 
was talking about that. But I will tell you this, Mr. Dunning: 
We are not going to compromise when it comes to safety, not on 
my watch. We are going to hold Toyota's feet to the fire. We 
are going to get all of this information. We are going to make 
sure that what we looked at before was correct. If there is new 
information, then we will put it out there.
    So Toyota made some statements about saving some money but 
from my point of view it will not be at the expense of safety.
    Mr. Duncan. These earlier reports about NHTSA not having 
electrical engineers or software engineers, you said that was 
untrue and you have plenty of electrical and software 
engineers.
    Secretary LaHood. We have electrical engineers. We have 
over 200 engineers, total about 230, and we have electrical 
engineers.
    Mr. Duncan. Thank you very much.
    Chairman Towns. The time of the gentleman has expired.
    I now yield 5 minutes to the gentleman from Illinois, 
Congressman Quigley.
    Mr. Quigley. Thank you, Mr. Chairman.
    Good afternoon. My colleague, Ms. Norton, raised the issues 
and, again, discussing the black box issue at some point. Is it 
true that NHTSA issued a voluntary standard as it relates to 
black boxes, asking that they be included, that they be used in 
cars?
    Secretary LaHood. Voluntary to have it, mandatory if you do 
have it. For reporting.
    Mr. Quigley. In light of what we have learned so far, and 
perhaps in light of what we don't know because you mentioned 
yourself, we are not sure it's the electronics, or someone is 
not sure it's electronics, does it make sense now, given the 
fact that this information lag is dangerous, that we require 
it?
    Secretary LaHood. That is something that we are looking 
into.
    Mr. Quigley. Is it because of cost?
    Secretary LaHood. The answer, Mr. Quigley, is that we will 
find out if they should be mandatory or not. We are looking 
into it.
    Mr. Quigley. Back to the issue of electronics, then, and 
whether or not that is an issue, do you or do the folks who 
work with you, are they aware that the electronics that are 
used in Toyotas are being--it is the same type of software that 
is being used in all makes of relatively new cars? And if 
that's the case, to act proactively, shouldn't we be looking at 
the sum and substance of that software to see if it can't be an 
issue with all makes as well?
    Secretary LaHood. Of course, and that's what we are going 
to do. I said earlier in my testimony and in response to other 
questions, we are going to do a comprehensive, complete review 
on the electronics because people think that it has caused some 
of these accidents. Members of Congress think that. It is our 
obligation to check it out, whether it is in Toyota or any 
other car.
    Mr. Quigley. Well, have we started talking to other 
automakers about their electronics and the issues they may or 
may not have had?
    Secretary LaHood. We are going to do a comprehensive 
review.
    Mr. Quigley. I know what you're going to do, so I'm just 
asking, have we done that----
    Secretary LaHood. We're starting it. Have we done it 
before? Is that what you're asking me?
    Mr. Quigley. Yes.
    Secretary LaHood. We are just starting, because of all of 
the complaints we have heard.
    Mr. Quigley. We have heard these complaints for how long?
    Secretary LaHood. On the electronics, since really the 
issue of the floor mat. We really started hearing about the 
electronics when we identified what we thought the problem was 
and then we issued the three recalls. So we have made a 
decision to look at the electronics now.
    Mr. Quigley. What would you suggest your timeframe would be 
either to get back to us or to the public in terms of your 
recommendations on the electronics, dealing with other makers 
and the issue of whether or not to make the black boxes 
mandatory?
    Secretary LaHood. I will get back to you. I don't know how 
long this is going to take. It's going to be a complete review. 
And as you've indicated, it should be on other makes of 
automobiles that use the same kind of electronics. It's going 
to be a comprehensive study. I'll get back to you for the 
record when our results will be available.
    Mr. Quigley. Given your answers, I will close with the 
following. It seems like we are flying blind. The makers and 
yourself seem to be saying that we don't know enough. So that 
information lag would seem to at first beg the question that we 
have the black boxes in all these new cars so we don't have to 
go back and say what happened. We know as it happens, 
immediately.
    So I know you want to review it and think about it, but it 
seems the key missing ingredient here is what happened and why. 
If we had the black boxes, perhaps we would have a better 
answer already and we would be acting quicker to solve these 
problems. So it just makes sense to me to start moving quickly. 
You made it mandatory, why not make it mandatory now so we go 
forward with more information?
    Secretary LaHood. I take your point.
    Mr. Quigley. I yield back the balance of my time.
    Chairman Towns. I thank the gentleman from Illinois. Thank 
you very much for your comments.
    The gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you.
    Mr. Secretary, does the government treat Toyota the same as 
it does all of the other automakers?
    Secretary LaHood. In the last 3 years, we have had 23 
million recalls. The vast majority have not been Toyota. The 
answer is absolutely correct. Yes.
    Mr. Chaffetz. My understanding is the GM Cobalt, which I 
happen to own--I was surprised after learning this information. 
In February NHTSA opened an investigation into the steering 
mechanism in the GM Cobalt based on 1,157 complaints. My 
understanding is that based on 84 complaints, the model year 
2009 Corollas were also opened up.
    Two questions: Why did it take NHTSA so long, when we are 
talking about model year 2005 and 2006 Cobalts, to jump into 
this fray? And why is there such an apparent discrepancy 
between the number of Cobalts versus the number of Corollas?
    Secretary LaHood. You mean the number of complaints?
    Mr. Chaffetz. Yes.
    Secretary LaHood. There are 30,000 complaints a year. Every 
one is taken seriously. We look at every one. We review every 
one, and we make a judgment call about when to start an 
investigation.
    Mr. Chaffetz. Why did it take so long? A thousand 
complaints.
    Secretary LaHood. I will have to get back to you. I don't 
know the specifics on that. But I want you to know this----
    Mr. Chaffetz. Well, 1 out of every 30 complaints is about 
this Cobalt, according to your stats. Why did it take so long?
    Secretary LaHood. I will get back to you for the record.
    Mr. Chaffetz. And what is the current status of this?
    Secretary LaHood. It is under investigation.
    Mr. Chaffetz. Do you honestly believe that Toyota is being 
held to exactly the same standard as General Motors and 
everybody else?
    Secretary LaHood. Absolutely, 100 percent.
    Mr. Chaffetz. Is there any sort of interaction with the 
United Auto Workers on any part of this whatsoever?
    Secretary LaHood. Absolutely not.
    Mr. Chaffetz. What is the so-called negotiation? I don't 
understand why a regulatory body involved in safety and 
security has to enter into a negotiation with a company. I'm 
not understanding that term and what that really means.
    Secretary LaHood. Well, we want to talk to them. We need to 
get information from them. We need to talk to them about what 
our investigation is about and what we are looking at, what 
kinds of information we need in order to do the good 
investigation that needs to be done.
    Mr. Chaffetz. My understanding is there is a February 5, 
2010, report entitled, ``Toyota's Sudden Unintendend 
Acceleration'' which claimed that NHTSA's incomplete 
investigative findings are ``certainly the result of 
insufficient resources.'' Do you believe it is common for NHTSA 
to not be able to go as fully into these problems and 
challenges because of insufficient resources? Or is it some 
other reason?
    Secretary LaHood. We have resources. As I said, we have 
about 125 engineers. We have electrical engineers. I believe we 
have the resources in the President's budget proposed for 2011; 
66 additional slots would come to NHTSA if that budget were 
approved by Congress.
    Mr. Chaffetz. My understanding is that it is common, 
standard language for NHTSA to say, if a defect petition is 
denied by NHTSA, to use the language, ``In view of the need to 
allocate and prioritize NHTSA's limited resources to best 
accomplish the agency's safety mission, the petition is 
denied.'' Is there a reason that language is routinely used? If 
you are saying that you do have sufficient resources and you 
are using the statement on a regular basis, they seem to 
contradict each other.
    Secretary LaHood. You know, I will have to get back to you 
on that. I don't know the reference that you are making on 
that.
    Mr. Chaffetz. There have been some anecdotal allegations--I 
don't know if they are true, that is why I am asking the 
question--that there seems to be an increase in the number of 
attorneys that are going into NHTSA and a decrease in the 
number of engineers. Can you give me a sense of what is really 
happening in terms of the balance of the employees?
    Secretary LaHood. I will put it on the record, how many 
attorneys versus how many engineers.
    Mr. Chaffetz. I'm sorry, you don't know?
    Secretary LaHood. I want to be accurate because I am under 
oath. If you want to know the exact number of lawyers versus 
the exact number of engineers, I will put it on the record for 
you.
    Mr. Chaffetz. That would be great.
    Are there any other failures that we see within the system, 
or complaints or concerns by citizens, that have been given to 
NHTSA, that are above and beyond the number that we saw with 
Toyota, that have not gone into this category of being recalled 
or gone into some other----
    Secretary LaHood. I would say the one thing that I have 
already talked about is the electronics, and that is something, 
as I said, we are going to review because people have come to 
us, both Toyota drivers and owners and Members of Congress, who 
believe that the electronics are a problem. And we are going to 
look into that.
    Mr. Chaffetz. Do you believe there is too cozy of a 
relationship between NHTSA and the industry? And the second 
part of that question----
    Secretary LaHood. No, absolutely not.
    Mr. Chaffetz. Why would Toyota not hire former NHTSA 
employees if not to just engender a more cozy relationship?
    Secretary LaHood. You'll have to ask the employees. There 
is not a ``cozy relationship.'' In the last 3 years, we have 
recalled 23 million cars.
    Chairman Towns [presiding]. The gentleman's time has 
expired.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Chairman Towns. I now yield 5 minutes to the gentleman from 
Tennessee, Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. You have been on both sides of 
these congressional hearings, so you know what it is like.
    Way back in 2007, an enterprising TV journalist in 
Nashville, TN, for the NBC affiliate, Jeremy Finley, reported 
on a story about the Toyota Tacoma, an unfortunate accident in 
our area, unexplained circumstances. But unlike most reporters, 
he dug deeper. He found 20 cases all over America. He went from 
Phoenix to Boston. He interviewed former NHTSA head, Joan 
Claybrook, who said, ``I think what you've encountered here is 
a safety defect of significant proportions.'' He interviewed 
other experts.
    In 2008, apparently NHTSA took a quick look but rapidly 
closed its investigation, telling folks that ``In view of the 
need to allocate and prioritize NHTSA's limited resources to 
best accomplish the agency's safety mission, the petition is 
denied.'' NHTSA didn't say there wasn't a problem. They 
basically said they had other, more important things to look 
at.
    Now, we all know that we want to get to the truth here. I 
would urge you and NHTSA to make sure that you are asking 
Congress for whatever resources you need, that you are 
prioritizing appropriately, and if you could give us assurances 
that you are looking into all models. I know that you are a 
good person. You inherited a lot of responsibilities, but the 
public is demanding answers.
    Secretary LaHood. May I just read something here, Mr. 
Cooper: The Tacoma 2005 through 2010 is subject to the pedal 
entrapment recall announced in October 2009. The Tacoma is not 
subject to the sticky pedal recall because it applies only to 
vehicles that have a certain pedal manufactured by CTS. And the 
Tacoma was not subject to the floor mat recall in 2007 because 
the evidence available did not indicate the floor mat was a 
problem.
    We have identified 33 relevant complaints and, as I 
indicated, those model years are under a recall.
    Mr. Cooper. You know as well as I do that families who own 
a vehicle may not be expert as to whether it is a pedal 
entrapment problem or a floor mat problem or a sticky pedal 
problem. They just want a safe ride for themselves and their 
families. So we need to be getting about the business of 
offering safe rides to folks.
    Secretary LaHood. I agree with that.
    Mr. Cooper. My concern is this. We need a strong safety 
agency so that they can catch safety problems promptly and save 
lives. We also need a safety agency that is not captured or 
beholdened to industry, so it has the credibility that once 
safety problems have been resolved, that people feel 
comfortable riding in the vehicles again, because there are a 
lot of innocent victims at the front-end when lives are lost 
and at the back-end when livelihoods are lost. So I am hopeful 
we can restore Toyota's credibility, get to the bottom of this 
rapidly, and start encouraging commerce again and safe rides 
all over this country.
    I appreciate your service not only in this body but also in 
the executive branch, and just make sure that you ask us for 
whatever you need to get the job done.
    Secretary LaHood. Thank you.
    Mr. Cooper. I yield back.
    Chairman Towns. Thank you. The gentleman from Arizona, Mr. 
Flake.
    Mr. Flake. I thank the chairman. Welcome back, Mr. 
Secretary. It is good to see you.
    Secretary LaHood. Thank you.
    Mr. Flake. I just want to follow along the lines Mr. 
Chaffetz did, talking about whether all car companies, domestic 
and foreign, will be treated equally. And I know you 
emphatically stated, yes, they are and will be. But he seemed 
to present some statistics that show that at least--and I know 
a body like this shouldn't just accept an emphatic statement, 
``yes, we will,'' you ought to look at the complaints and 
statistics and wonder if that is the case or will be the case. 
This recall is likely to cost Toyota untold billions of 
dollars. A similar recall of a GM product, for example, would 
be similar. That cost, because of our investment of taxpayer 
dollars into this bailout, would reflect on the taxpayers as 
well. So I don't think it is out of line to question and at 
least caution that the Department of Transportation and NHTSA 
be extremely careful in how they accept and deal with 
complaints that come in, to ensure that government isn't taking 
sides in an area where we have a big investment.
    I was just a little bit disturbed by the emphatic 
statement, ``Believe me when I say yes,'' rather than ``Well, 
if there are statistics that may appear to reflect some kind of 
favoritism, we will look into that.''
    Do we have a commitment that is the case and not just 
saying, yes, they will be treated fairly and you should trust 
us, but we will look into the statistics on complaints and how 
they are dealt with by NHTSA?
    Secretary LaHood. Well, Mr. Flake, let me stipulate, when 
it comes to safety, there will be no compromises. There will be 
no cozy relationships. There will be no sweetheart deals. You 
have my commitment on that. Not under my watch.
    And as I said earlier, if you look at any speech I gave 
last year, it was on safety. Whether it was on planes, trains, 
or automobiles, it was on safety. That is our obligation to the 
public. I don't buy this argument that because the government 
owns 60 percent of GM that we are going to turn a blind eye to 
that. That is nonsense. We would never do that. It will never 
happen under my watch. I guarantee you that.
    Look, Mr. Flake, you and I have worked on a lot of issues 
together.
    Mr. Flake. We have. And I understand your commitment. A lot 
of this was prior to your entrance there. But I guess what I'm 
looking for is a recognition that hey, on the outside, one 
could question whether or not government, the Federal 
Government, with a substantial investment of taxpayer dollars 
into a couple of domestic automakers might be under a pretty 
high standard here, and we ought to look at complaints and make 
sure that we are treating them fairly rather than just saying 
yes, we will treat them fairly, trust me. I trust you. I may 
not trust everybody that I don't know, that I haven't seen. It 
goes a lot further, I think, with a lot of us to hear yes, that 
is something that we need to guard against. That is something 
that we need to be absolutely sure of.
    I can tell you in other areas government does favor areas, 
individuals, and others with whom investments are made. That's 
just the bottom line, that is how governments work, and that is 
human nature. I am asking for a little recognition that that is 
something we ought to be concerned about, and we are.
    Secretary LaHood. I recognize that.
    Mr. Flake. Thank you.
    Mr. Issa. Would the gentleman yield?
    Mr. Flake. I would yield.
    Mr. Issa. Thank you.
    Mr. Secretary, you earlier noted the investigation of the 
Cobalt, that it has been open. In your opening remarks, first 
set of remarks, you talked about the members of NHTSA who went 
to Japan and shortcutted an investigation by saving time and 
money and getting a voluntary cooperation early on, based on 
the end of a 2009 trip to Tokyo; is that right?
    Secretary LaHood. Yes.
    Mr. Issa. So we own 60 percent of General Motors. The 
Cobalt has had far more complaints on a reminiscently similar 
problem to where you have a recall on the Corolla. Are we doing 
this investigation in the slow road because General Motors is 
not willing to do what Toyota was willing to do when your 
people went to them last year?
    Secretary LaHood. Repeat the question.
    Mr. Issa. Wouldn't it save us money if General Motors would 
do what Toyota did and not make you go through the long 
investigation process on a car that has had far greater 
complaints and should be under the same scrutiny?
    Secretary LaHood. Our job is to do an investigation. If we 
can get cooperation, we get it. If we can't, we use every tool 
in our tool box to get to the bottom line, which is the safety 
of these cars.
    Mr. Issa. How about our majority interest in General 
Motors? We own 60 percent of them.
    Secretary LaHood. Ask me a question about it.
    Mr. Issa. Are you willing to ask General Motors to 
cooperate as fully as Toyota did with the Corolla on a car 
which has had more complaints for a longer period of time?
    Secretary LaHood. Yes.
    Mr. Issa. Thank you.
    Chairman Towns. The gentleman's time has expired.
    I now yield 5 minutes to the gentleman from Illinois, 
Congressman Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Secretary, it is good to see you and it is good to see 
you in this role. I want to commend you on the stellar job you 
have been doing since having been appointed and confirmed.
    Let me ask you, some believe that the uncontrollable sudden 
acceleration problems are not being caused by pedal entrapment 
or sticky pedals but by an electrical malfunction, either a 
software problem or electrical interference with some component 
of Toyota's computer systems. It is my understanding that the 
Department of Transportation has now launched an investigation 
into possible electrical interference as a possible cause; is 
that correct?
    Secretary LaHood. I would call it more of a very 
comprehensive review, and at some point we may get into an 
investigation. But we are going to do a thorough review and 
look at everything. And by that, I mean we know now as a result 
of testimony given yesterday, there is a fellow at Southern 
Illinois University who did a study, and we want to look at 
that and we want to look at what Toyota has done and look at 
all of the facts and then determine if, in fact, there is a 
problem.
    Mr. Davis. Can I ask you what precipitated or caused you to 
look at this particular area?
    Secretary LaHood. Complaints by people who own these cars 
and also Members of Congress who believe there is an 
electronics problem.
    Mr. Davis. It is my understanding that both Toyota and 
NHTSA have examined this issue before. What would be different 
now about the examination?
    Secretary LaHood. I think testimony that was given 
yesterday before the Commerce Committee, where a gentleman from 
SIU has done a study and he found that there were some 
problems. If there is fresh information, new information, we 
know Toyota hired some people to do a study, we want to look at 
that. We want our own engineers to look back. Look it, if 
people think there is a problem, we should look at that. That 
is our job to look at it.
    Mr. Davis. So you are not relying on past examinations and 
past experiences. You are really starting now?
    Secretary LaHood. Yes. We want to put eyes on the fresh 
information, the new information.
    Mr. Davis. Thank you very much. That gives me some 
assurance that we are going to do a thorough investigation. I 
commend you again for the work that you have done. Thank you.
    Secretary LaHood. Thank you, sir.
    Chairman Towns. I thank the gentleman from Illinois.
    I now yield 5 minutes to the gentleman from Missouri, Mr. 
Luetkemeyer.
    Mr. Luetkemeyer. Mr. Secretary, thank you for the frankness 
of your answers today. Compared to some of the recent witnesses 
we have had, it is very refreshing. Thank you.
    I am kind of curious. To me the question here is the 
protocol or process that you have in place with regard to 
reviewing 30,000 complaints a year and what raises it to a 
level that you would start to investigate the floor mat 
problem, for instance.
    Can you give me a little overview of your process or 
protocol that you have in place with regard to how many 
complaints do you have to have, how serious they have to be, 
before they are raised to the level of requesting a recall from 
the manufacturer, and kind of walk us through the process?
    Secretary LaHood. I can't give you a number where you say, 
you know, once you get 25 complaints, that's it. That's the 
benchmark. It depends. The gentleman from Utah was questioning 
why it took 1,300 one place and a lesser number in another 
place. It is the seriousness of the complaint. It is our people 
who are experts really looking at these, driving, looking at 
the research, talking to the people who owned the automobile, 
talking to the car manufacturer, and really trying to discover 
if there is a serious flaw or defect or something wrong. It's a 
judgment call.
    Mr. Luetkemeyer. It is more individualized based on the 
particular incident that you are investigating.
    Secretary LaHood. That's right. And if there is a 
commonality. If there are 100 complaints and they are all about 
the same thing, obviously that is probably an issue that we 
need to look at.
    Mr. Luetkemeyer. I know a couple of Members were talking 
about trying to bring into the investigation information from 
other parts of the world. Have you done that at all with any 
recent investigation?
    Secretary LaHood. We do that. We try and get information 
from the foreign car manufacturers and other places in the 
world. We get, try to get, we look at it and see what it says.
    Mr. Luetkemeyer. I know that you mentioned that you are 
looking to try and get some more engineers on your watch here. 
And one of the things that the folks at Toyota have made a 
comment about is that they believe and the comment was ``the 
new team has less understanding of engineering issues and are 
more focused on primary legal issues.''
    Do you think that is a fair statement? Is that the 
necessity for more engineers?
    Secretary LaHood. Is the statement that engineers are 
working on legal issues? Is that what that said?
    Mr. Luetkemeyer. What they are trying to say is that your 
focus is more on the legal part of it versus the actual 
engineering part where the problem really is.
    Secretary LaHood. I don't buy that argument. But, you know, 
if you want me to get you some statistics on it, I can do that 
for the record.
    Mr. Luetkemeyer. They are actually making the argument for 
more engineers for you.
    Secretary LaHood. Well, the President put in our budget 66 
new positions, and we think that will be a good resource for 
us.
    Mr. Luetkemeyer. I think, quite frankly, a point needs to 
be made as well that, a lot of the problems we are dealing with 
today is their engineering versus the quality of the vehicle 
itself. I think that the manufacturing and the quality of the 
parts on the vehicle are not in question here; it is the 
engineering of these parts that cause some of the problems to 
happen.
    So I guess one more question I have with regards to all of 
this when you are starting to investigate, do you bring in 
outside experts as well to try and work on these issues? In 
other words, if you have an issue you are not--your engineers 
are not capable of doing, or actuarially you are not sure?
    Secretary LaHood. Absolutely.
    Mr. Luetkemeyer. Where do you go to get that information? 
What experts do you go to?
    Secretary LaHood. We go to people on the outside who are 
expert, electrical engineers, or mechanical engineers. We 
find--look at, there are a lot of good people around America 
who can provide expertise. And we are not bashful about doing 
that if we don't think we have it in-house.
    Mr. Luetkemeyer. Do you make recommendations to 
manufacturers on how to rectify a situation? Or do you leave it 
up to them?
    Secretary LaHood. We leave it up to them and we don't sign 
off on it. They come to us and say: We think this is the fix. 
But we don't put our stamp on it, but we make sure that they 
really believe this is the fix.
    Mr. Luetkemeyer. Mr. Secretary, I appreciate your comments 
today. I yield back the balance of my time.
    Secretary LaHood. Thank you.
    Chairman Towns. I now yield 5 minutes to the gentleman from 
Virginia, Congressman Connolly.
    Mr. Connolly. With the consent of the chairman and the 
committee, I would like to yield my time to Mr. Lynch who has a 
pressing engagement, and reclaim my time at the appropriate 
point.
    Chairman Towns. Without objection.
    Mr. Lynch. I thank Congressman Connolly. I appreciate the 
courtesy.
    Thank you, Mr. Secretary. Good to see you. We have the 
advantage in Congress of being able to look at things 
forensically after they happen, and you have the unfortunate 
disability that you have to make decisions as they occur. And I 
understand that difficulty. But I do want to say that, looking 
at this forensically, first, we had Toyota come out with the 
recall regarding the floor mats. All right. So I just think 
that is a red herring, and I am not sure that all of these 
problems are from somebody's floor mat. I think it is easily 
understood; it is somewhat user controlled.
    The second excuse was this very simplistic sounding 
``sticky gas pedal,'' trying to make it sound very innocent. 
And now we have electronic interference, somewhat external, I 
guess, as the nature of the problem. And it just sounds like 
the problems are getting--or at least the solutions are getting 
more complicated as we go forward, more expensive, more 
pernicious. And I happened to read something by Steve Wozniak, 
the co-founder of Apple and he has a bunch of Priuses, but his 
most recent one is not one of the ones that was subject to any 
of the recalls.
    And he says, ``I have many models of the Prius that got 
recalled, but I have a new model that didn't get recalled.'' 
And this is a fellow who says a lot of things don't bother him 
in life except for computers that don't work and don't work 
right.
    And he says, ``This new model has an accelerator that goes 
wild, but only under certain conditions of cruise control. And 
I can repeat this over and over again safely.'' He said, ``This 
is software. It is not a bad accelerator pedal. It is very 
scary, but luckily for me'' he says, ``I can hit the brakes.''
    Now, here is my problem, Mr. Secretary. My dealers are 
working night and day right now, my Toyota dealers, to fix the 
mats, the floor mats, the sticky pedal. They are going through 
these fixes. One of my dealers I talked to yesterday doing 175 
fixes per day. He has all of his people working. And I 
appreciate that there is a real effort. But I am one of these 
Members of Congress who thinks that this is a software problem. 
And if we are bringing people in and fixing their sticky pedal, 
or fixing their floor mat and sending them back out on the road 
with the assurance that their car is fixed, we are sort of 
creating a moral hazard here, a situation that we are telling 
people that they have the reassurance now, because we have 
``fixed it.''
    But if this is still a problem that you are investigating 
and beginning to investigate, then we are making the problem 
more dangerous. And I am just concerned that is the phenomenon 
we have here, that this is at root, a software problem, 
something much more complex, something much more pernicious, 
something much tougher to get rid of. And we are playing with 
this by telling people, well, we are going to change your floor 
mat or we are going to oil your sticky pedal here and you will 
be OK. So how do we get at that?
    Secretary LaHood. Well, as you can imagine, Mr. Lynch, I 
mean, we have to base our judgments on research and on good 
data and making sure we know what we are talking about. When we 
say something, people listen to us.
    Mr. Lynch. Hopefully.
    Secretary LaHood. And until we do the complete review, the 
comprehensive review, look at all these things, we are not 
about to say something where it is just not accurate, you know, 
just for the point of----
    Mr. Lynch. Well, you might be doing that already, is what I 
am getting at. If you are telling people there's a problem with 
the floor mat and it is not, or if you are telling people it's 
a sticky pedal and it's not.
    Secretary LaHood. Look, I don't agree with you. I mean, we 
wouldn't have told people to change out these floor mats if we 
didn't think our research showed that was a problem. We can 
prove that. We can prove the sticky pedal was a problem. We can 
prove it. Now, so, to say that is not accurate belies all the 
facts that we have. And we wouldn't be saying these things if 
it weren't true.
    Mr. Lynch. Well, I just think that we have to consider the 
fact that there very well could be a serious software problem 
here. And, again, I think we are in a very awkward position if 
we are telling people that changing out your floor mat is going 
to fix this or the sticky pedal solution is going to fix this, 
and yet we are sending people out in dangerous automobiles. I 
am just saying you have to weigh that in with the course of 
your investigation and the urgency with which you're 
investigating these more complicated or complex problems.
    Secretary LaHood. I take your point.
    Chairman Towns. The gentleman's time has expired. I now 
recognize the gentleman from Nebraska, Mr. Fortenberry.
    Mr. Fortenberry. Mr. Secretary, welcome. It is always my 
hope that congressional hearings have some sort of constructive 
outcome. And in that regard, it was discussed earlier, I 
believe, by Mr. Issa that a more transparent international 
marketplace for safety data sharing would be appropriate.
    In that regard as well, given that today's hearing is about 
Toyota's safety problems, and particularly this unintended 
acceleration problem which you have committed to continuing to 
research and work through, this has happened, though, across 
other car manufacturers, two other car manufacturers, from the 
data that I see.
    Has there been any discussion about developing some type of 
consortium and perhaps in partnership with NHTSA that would 
actually work toward a comprehensive evaluation of this so that 
there could be even broader safety outcomes for the public?
    Secretary LaHood. Well, we try and do these things based on 
the complaints that we hear from people. We do conduct these 
investigations.
    Mr. Fortenberry. This is out of our box, though. This is a 
policy consideration.
    Secretary LaHood. Pardon me?
    Mr. Fortenberry. This is a policy consideration. A 
potential change in policy.
    Secretary LaHood. I will be willing to look at it. But, I 
mean, it doesn't fit into what we are doing now.
    Mr. Fortenberry. Should it?
    Secretary LaHood. I think it is something we can look at. 
Look, I get lots of good ideas from coming to these hearings, 
and it is something that I would be happy to visit with you 
about and see. I mean, I am not going to sit here and tell you 
that it is something we are going to do because I don't know 
enough about what you are trying to purport here. But I'm 
willing to talk to you about it.
    Mr. Fortenberry. Again, what I said in the beginning, 
looking for constructive outcomes. That is the purity of my 
intention is to maybe think creatively about this, because 
right now, our attention has shifted to Toyota, and 
appropriately, trying to get to the bottom of these safety 
issues. But, again, given that this has happened across the 
industry, is there an opportunity to think more creatively 
policywise about a common fix using resources that we have or 
creating some type of consortium, again, that could look at 
this in partnership with the government to again improve or 
make the safety outcomes of this hearing and what you are doing 
even broader applicably.
    Secretary LaHood. Sure. I got you.
    Mr. Fortenberry. That is just a policy idea I put out to 
you.
    Secretary LaHood. Got you.
    Mr. Fortenberry. I yield the additional time that I have to 
Mr. Issa.
    Mr. Issa. I will be quick, and then Mr. Burton would like 
to ask a quick question.
    Mr. Secretary, you said that it depends on when you 
evaluate something how significant it is. But under the current 
system, the manufacturer doesn't give you every single 
complaint that occurs; so you are evaluating some and missing 
others. If there's a sticky pedal like this one in Great 
Britain and there's some reports, unless there is a recall you 
don't see it at all. Do you think that should change?
    Secretary LaHood. Look, when we go to the manufacturer and 
we ask them for information about complaints they have had 
about their vehicles, we hope they are going to be forthright 
with this. I mean, part of the process----
    Mr. Issa. I appreciate that, Mr. Secretary. But the current 
law, they only have to tell you if there is a recall.
    Do you believe that it should change to where all 
information on like models worldwide be available?
    Secretary LaHood. I think the more information, the better.
    Mr. Issa. Do you have the authority to ask for that and 
receive it from the manufacturers, or do you need authority 
from Congress?
    Secretary LaHood. We ask the manufacturers when we get 
complaints about certain aspects, mechanical aspects, and we 
assume they are being forthright with us.
    Mr. Issa. Thank you.
    Mr. Fortenberry. Mr. Chairman, I will yield the remaining 
time to Mr. Burton.
    Mr. Burton. Let me just--Mr. Secretary, this floor 
mechanism was made in Japan and there hasn't been any problem 
with it. And this one was made in the United States. They both 
work on the same car. And this one is the one that they have 
had all the problems with, and they had to put a shim in so 
that there was proper clearance so it wouldn't stick. And my 
question is, why is it in the same car you have two different 
mechanisms, and one is causing the problem and one isn't? It 
seems to me that Toyota evidently knew that there was a problem 
maybe with one and not the other. And this one was used in 
Japan and Europe and this one was used in the United States, 
and this is the one that has caused the problem?
    Now, he just asked you a question about whether you have 
the authority. It seems, if there is a problem any place in the 
world, your agency ought to be able to get that information or 
demand that information so that you can look at a recall here 
in the United States even if it happened over in Europe 
someplace. And I would like for you maybe to ask--and I'm going 
to ask the president of Toyota about this today--why they have 
this difference.
    Mr. Souder. Would the gentleman yield?
    Chairman Towns. Mr. Fortenberry controls the time.
    Mr. Souder. Will the gentleman yield?
    Mr. Fortenberry. I yield the remaining time to Mr. Souder.
    Chairman Towns. Actually, the gentleman's time has expired.
    Mr. Souder. Point of order. The gentleman made a somewhat 
factual misstatement about a manufacturer in Indiana, and I 
think it is important to clarify the record because we went 
through this once earlier.
    The sticky pedal, which you said correctly, the one that 
had a slow return. But the Secretary testified that the slow 
return didn't have any of the deaths with it. It was the 
Japanese part that had the deaths. They did have to put that 
thing in. But there are two distinct things that happen with 
that pedal, and it's important that the record show that the 
American part, as we already established, did not cause the 
deaths.
    Chairman Towns. Let the gentleman know that Mr. Toyoda will 
be testifying later on. So I think that is an appropriate 
question that can be raised with him.
    Now I recognize the gentleman from Texas, Congressman 
Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    And, Mr. Secretary, it is good seeing you again. I think 
the last time we saw each other was in San Antonio. It is a 
pleasure.
    I have an overhead that I would ask the staff to put on and 
I am going to ask your thoughts on this particular. It has to 
do with the percentage of vehicles affected by safety recalls 
from 2001 to 2010. I would ask you to take a look at that, Mr. 
Secretary, and just give me your thoughts on that, once they 
make it big enough so you can go ahead and look at that.
    Mr. Secretary--and I guess what I am looking at, I do have 
around my area, I do have the San Antonio plant there where 
2,600 employees depend on the work that you do with the 
enforcement and regulator, and of course, what Toyota is going 
to do. That doesn't even include the onsite hires where you add 
another amount and it adds about 5,500 local jobs in our area. 
It doesn't include the dealer, it doesn't include that. So 
there's a lot of folks there depending on what we're doing, 
what you all are doing, and of course, jobs and of course, 
making sure that the drivers are safe.
    And if you can look at that, I think you see Toyota--if you 
can read that, Mr. Secretary, about 11 percent. And my question 
is, and I know you just got in a little over a year ago. But 
from the understanding over the past decade, what are we doing 
to respond to the recalls of other car makers in this 
particular graph? I mean, anything different than we are doing 
now?
    Secretary LaHood. When we believe that there needs to be a 
recall, we notify the manufacturer and then the recall takes 
place. And, as I said, over the last 3 years, 23 million cars 
have been recalled and the vast majority of them have not been 
Toyota. I can't read that chart, Mr. Cuellar, but if you want 
to----
    Mr. Cuellar. Well, there is a company at 32 percent. This 
is from percentage of vehicles affected by safety recalls from 
2001 to 2010, the last 10 years.
    Secretary LaHood. OK.
    Mr. Cuellar. You have one company at 32 percent, another 
company at 17 percent, another company at 15 percent, and then 
you have others, a combination of other companies. And then you 
have Toyota at 11 percent.
    Secretary LaHood. OK.
    Mr. Cuellar. This is, again, using NHTSA's recall data base 
from you all.
    Secretary LaHood. Right.
    Mr. Cuellar. I say that, Members, just so we can look at 
the overall picture of what we are looking at, No. 1.
    No. 2, I'm looking at your budget, Mr. Secretary, the 
fiscal year 2011. And you have been a legislator, and I guess I 
am asking your thoughts. Anything you think we ought to do in 
the budget to improve--I know it's your budget. I think I know 
what your answer is going to be. And, of course, any 
legislative responses that we ought to look at? And if you say 
budgets should stay that amount, no legislative changes, then 
what should we do differently to make sure that we protect our 
drivers and make sure we provide that safety and to make sure 
that car companies, in this case, Toyota, make sure that they 
respond as quickly as possible?
    Secretary LaHood. Well, I think some of the things that Mr. 
Issa mentioned as far as information, we may want to work with 
all of you on our ability to get information worldwide. And, 
you know, we may have some thoughts on that.
    With respect to our budget, we are grateful to the 
President for including 66 new positions. We can use those 
human resources and experts to help us do our work.
    Mr. Cuellar. Now, let me ask you this, Mr. Secretary. I 
understand that NHTSA took a trip to Japan to meet with top 
officials to press the seriousness of the safety issues. You 
noted that it was because of that trip that the actions were 
made because of the recalls. And I guess I have two questions.
    What measures did you take before NHTSA made the trip to 
Japan to discuss the seriousness of these issues? No. 1. And 
then I have a followup question.
    Secretary LaHood. We had several meetings with North 
America Toyota. And I want to stipulate that these are very 
professional, good people who take their jobs very seriously. 
And we met with them and talked with them several times about 
the issues that we felt were causing their vehicles to 
malfunction.
    Mr. Cuellar. Mr. Secretary, why travel to Japan? I mean, I 
know that there's a different hierarchy in the company, I 
understand that. But talking to Toyota USA, wouldn't that be 
sufficient? Or was there a necessity? Apparently it looked like 
there was a necessity to travel to Japan.
    Secretary LaHood. Mr. Lentz, the CEO of Toyota North 
America, stipulated yesterday at the hearing that he testified 
at that a lot of decisions are made in Japan. And when we 
determined that we needed to go to the people who were making 
the decisions so they understood that these are serious safety 
concerns and that we were going to take some pretty significant 
action, we wanted to go to the people that were making the 
decisions.
    Mr. Cuellar. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Chairman Towns. Thank you very much. The gentleman yields 
back. Mr. Jordan of Ohio.
    Mr. Jordan. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for joining us today. I think there's three quick 
questions. Let me go first to this concern, I think, was raised 
earlier by my colleagues from Utah and Arizona about this idea 
that government majority owner in General Motors and Chrysler 
and yet also the regulator, the competitors of those two 
companies, are there or have you or has NHTSA put any specific 
safeguards, any specific protocols in place, again, just to 
ensure impartial treatment when you are evaluating recalls and 
complaints you receive from any car manufacturer? Do you know 
of, like, specific things you have done, specific protocols, 
specific safeguards that have been enacted?
    Secretary LaHood. Have we put any safeguards in our 
relationship with companies other than Toyota? Is that what you 
are asking me?
    Mr. Jordan. I am just saying, just this perception that 
here we have the taxpayers, the majority owner of General 
Motors and--the government, the majority owner.
    Secretary LaHood. So you are asking me just about those two 
companies then, any safeguards, GM or Chrysler. Right?
    Mr. Jordan. Exactly.
    Secretary LaHood. We put no safeguards in. We don't have 
to. Safety is our No. 1 priority. When safety is our No. 1 
priority, it's not going to be compromised by any kind of 
relationship we have with anybody. Never has been, never will 
be.
    Mr. Jordan. OK. Let me ask you along those same lines. In 
regarding specifically the Toyota recall situation, has anyone 
from General Motors contacted you about the Toyota recall 
situation?
    Secretary LaHood. You know, I will have to check, but not 
that I know of. But, you know, since I am--I want to be 
accurate on these things and I know this information is 
important to you, and I will personally let you know. But I 
don't think so.
    Mr. Jordan. How about anyone from Chrysler?
    Secretary LaHood. Not that I know of.
    Mr. Jordan. Anyone from the United Auto Workers?
    Secretary LaHood. No, sir.
    Mr. Jordan. Has anyone, specifically Ron Bloom or anyone 
else from the Auto Task Force, contacted you regarding the 
Toyota recall situation?
    Secretary LaHood. No, sir.
    Mr. Jordan. Last question then, Mr. Chairman. Earlier you 
said, Mr. Secretary, every Toyota car listed on the NHTSA 
recall Web site is unsafe. Is that just--is that statement 
accurate only about Toyota? Or does that mean any car listed 
from any company on a recall Web site list?
    Secretary LaHood. Any car, any company on our Web site that 
is listed for recall should be taken to the dealer so it can be 
made safe.
    Mr. Jordan. OK. Let me go back, if I could, Mr. Chairman. 
Back to any contact. Do you know of anyone--I asked you if you 
have been contacted. Do you know if anyone from NHTSA has been 
contacted by General Motors, Chrysler?
    Secretary LaHood. You know what, I'll have to get back to 
you for the record. We have lots of employees at NHTSA. There's 
no way I'd know that, but I will check it out and I will let 
you know.
    Mr. Jordan. I yield the remaining time to Mr. Issa.
    Mr. Issa. Mr. Secretary, this is within your scope even 
though it clearly is not something that anyone is going to say 
you could have taken care of immediately. But are you aware of 
any studies that show us, out of these 23 million recalls 
during that decade, how many cars got fixed? How many cars----
    Secretary LaHood. I'll have to put that on the record for 
you. The 23 million is the last 3 years, not the decade.
    Mr. Issa. Of these 23 million, if you have or can get or 
can have a study done to let this committee know, out of 23 
million cars that are unsafe--as Ralph Nader said, unsafe at 
any speed. But unsafe on the highway, there are 23 million 
cars. If, let's say, only 20 percent of them had their recalls 
applied--I don't think that's going to happen with Toyota, but 
it may happen with other less publicized recalls--then we have 
90 percent of those 23 million unsafe and on the highway.
    Would you commit to us to find out how effective recalls 
are, what percentage actually get applied, and, as a result, 
how many cars are unsafe, in your opinion, my opinion, I 
suspect the chairman's opinion, so that we can evaluate whether 
or not better advertising or better compliance needs to occur?
    Secretary LaHood. Of course we will get you the 
information, Mr. Issa. But we are a little bit busy right now, 
too, so I hope you are not going to stipulate we do it within 
the next 24 or 48 hours.
    Mr. Issa. Of course not, Mr. Secretary. Although, if you 
need more resources, just ask.
    Secretary LaHood. Our people are very busy. But of course, 
we will provide you the information.
    Mr. Issa. And, Mr. Chairman, just one piece of patience. I 
am presuming that all it takes to get this information would be 
to contact the top 11 manufacturers and ask them to provide it, 
since they have it and you said they give you what you ask for.
    With that, I yield back to the gentleman.
    Chairman Towns. The gentleman's time has expired. I now 
recognize the gentlewoman from California, Congresswoman Chu.
    Ms. Chu. Secretary LaHood, congratulations on being 
confirmed as Secretary----
    Secretary LaHood. Thank you.
    Ms. Chu [continuing]. Of Transportation. I have a question 
about the pattern of behavior at NHTSA that may have occurred 
before you got there, and it leads one to wonder, NHTSA is 
supposed to be a watchdog, but has it instead become a lap dog. 
And, in fact, some people believe that NHTSA has become too 
dependent on the manufacturers that it regulates to cooperate 
with the agency and volunteer information about what might be 
going wrong with a particular vehicle. While NHTSA sends 
letters asking for this information, it rarely uses a subpoena, 
which would be far superior in that it would require a full and 
complete response under threat of criminal penalties.
    Do you believe that NHTSA is aggressive enough in seeking 
information that it needs to keep the public safe?
    Secretary LaHood. I believe that we have been very 
aggressive. And if we need to use subpoena, we will use it, but 
we have lots of enforcement mechanisms. And I would also 
stipulate that on my watch, we have been a lapdog for nobody. 
We have been a lapdog for the people who drive cars and want to 
do them safely. That's who we have been a lapdog for. Safety is 
our No. 1 priority.
    I have been in this job since January 23, 2009. I am not a 
lapdog for anybody and none of our employees are, either. But 
we have good enforcement mechanisms, and we use them. And if we 
can't get the information, we have the opportunity to subpoena.
    Ms. Chu. If I could followup. According to the testimony 
that is going to be provided later by former NHTSA 
administrator, the Agency imposed no penalties from 2004 to 
2008, and the largest penalty that the agency has ever imposed 
is $1 million. The TREAD Act of 2000 now authorizes much higher 
penalties.
    What would explain the lack of penalties that NHTSA has 
imposed in the last several years?
    Secretary LaHood. I will have to get back to you for the 
record on that. That was prior to my stewardship of this 
agency. But I will put that on the record for you.
    Ms. Chu. Thank you.
    Secretary LaHood. Thank you.
    Chairman Towns. Does the gentlewoman yield back?
    Ms. Chu. Yes. I yield back.
    Chairman Towns. I now recognize the gentleman from 
California for 5 minutes, Congressman Bilbray.
    Mr. Bilbray. Thank you. Mr. Secretary, first of all, 
congratulations. I am glad to see a fellow classmate serving 
the Nation in a different set. But I can't think of a better 
choice that the President could have made, and so I am glad to 
see you there.
    Secretary LaHood. Thank you.
    Mr. Bilbray. I happen to drive one of these vehicles, 
hopefully, safely, and will correct whatever we need to. But in 
San Diego, we ended up having this incident where a Highway 
Patrolman driving his wife, his child, and his brother-in-law 
ended up basically dying because of the mat issue. When I look 
down those lists, I am wondering, though, from an observation 
from a distance, that could have the reputation of Toyota 
actually been a contributing factor in how this process was 
handled? Some may not know, but Toyota is ranked absolute top, 
second only maybe to Mercedes and Porsche, for satisfaction for 
reputation.
    And I guess if you drive a Porsche you had darned well be 
happy for the vehicle if you paid for it. But is it possible 
that in this process the great reputation of dependability and 
safety that Toyota has created over the last 30 years created 
an inadvertent prejudice against more strict review because 
everybody always assumed in the last 20 years--and let me just 
stop and say 10 years from now--10 years ago, if you and I 
would have said we would be here talking about Toyota, most of 
us would have said you are crazy. Yugo maybe. You might have 
been talking about General Motors. But never would have thought 
talking about Toyota. Couldn't that inherent institutional 
prejudice--and I am not saying to the agency but to society as 
a whole. Could have we created a situation where maybe there 
wasn't as critical review up front on Toyota that might have 
been done if it was a Yugo or if it was General Motors?
    Secretary LaHood. Well, not in my opinion, Mr. Bilbray. I 
have been in this job 13 months. I have worked with the people 
at NHTSA. They are a lot, almost all of them are career people. 
They take their jobs very seriously because it does involve 
safety. And I don't think that is the case.
    Mr. Bilbray. I appreciate that. In 2007, there was an 
investigation conducted about the mats. It appeared that 
investigation or the outcome of that investigation didn't 
reflect what we now believe should have been the proper 
observation. It wasn't until the deaths in my county and 
Darrell Issa's county that it really raised it, the concern 
last year when we had the crash, again, with the all--with the 
mats again showing up.
    How do we have this investigation in 2007, review all of 
these models, pull back on a lot of models, and then still end 
up with a situation where, by 2009, people are dying on the 
streets of San Diego County?
    Secretary LaHood. Well, it's obvious to us that, when that 
crash occurred, that highlighted again the floor mat problem 
that was determined to be what caused the accident and that was 
the issue. And we also looking back realize that people really 
weren't taking their cars in that had floor mat problems, and 
so we reengaged Toyota to ask for another mailing to their 
customers so that they could bring them in and have the floor 
mats replaced. And then that led to the investigation of the 
sticky pedal and the result of the determination that needed to 
be fixed also.
    Mr. Bilbray. In all fairness, Mr. Secretary, when we talk 
about the format issue, we're talking about the all-weather mat 
and we are talking about in this case, in San Diego's deaths, 
it was not an owner who didn't bring it in. This was actually a 
dealership vehicle that still had the mats in place. And so 
there seems to be a big disconnect between what we said we 
wanted done and what was actually done in the field.
    And I think, in all fairness, this one shows that it wasn't 
just the fact that those of us who drive Toyotas didn't take 
the recall notice seriously. Frankly, it wasn't even--I wasn't 
even aware as a consumer that the all-weather was specifically 
targeted here until I as a member of this committee know that. 
Doesn't that tell you that we have a major gap between the way 
the system ought to work and the way it is actually working?
    Secretary LaHood. I would admit that there is a disconnect 
sometimes between whether people get the information and 
whether they take it seriously and how it's disseminated. I 
think that is an issue. I agree with that.
    Chairman Towns. The gentleman's time has expired. I now 
recognize the gentlewoman from California, Congresswoman 
Watson.
    Ms. Watson. Secretary LaHood, congratulations. I have 
enjoyed your straightforward responses.
    Secretary LaHood. Thank you.
    Ms. Watson. And that's a serious commendation.
    Secretary LaHood. Thank you.
    Ms. Watson. In response to consumer complaints that have 
come in as early as 2003, NHTSA launched the first of eight 
separate investigations into sudden unintended acceleration, 
and three of these investigations concluded that it was the 
floor mat. And I had the people from Toyota in my office 
yesterday and they showed me the floor mats and so on and so 
forth. Easy to fix, just shorten the floor mat and so on. What 
I am hearing through the media, it's really in the computer 
system.
    Can you tell me what you have learned that might be helpful 
to us that we can relate to our constituents who have Toyotas?
    Secretary LaHood. We are going to do a complete review of 
the electronics to determine if that is part of the reason that 
some of these vehicles accelerated or decelerated. We have 
heard from enough Members of Congress about this and we have 
heard from enough drivers of these vehicles that they think 
it's an issue, and we are going to look into it. And we are 
going to look at information that was provided yesterday to the 
Energy and Commerce Committee by people who have done some 
studies. We are going to look at some studies that Toyota has 
done and we are going to talk to experts about this.
    Ms. Watson. Thank you so much for that response, because I 
do think it bears looking into and I shared that with the 
Toyota people when they came. I said, you have to clarify this 
particular flaw that seems to be very prevalent. I have read 
that, in Mrs. Claybrook's prepared testimony, she stated that 
NHTSA statute should be changed to add criminal penalties for 
complaints--for companies who knowingly and willfully refuse to 
initiate a recall to correct safety defects. Do you agree with 
that?
    Secretary LaHood. Ms. Watson, I really haven't thought 
enough about that to render an opinion. I have seen what Joan 
Claybrook has said about that and I'd rather not really venture 
a guess on that at the moment--or an opinion. Excuse me.
    Ms. Watson. So if we find it's necessary, would you work on 
a provision to----
    Secretary LaHood. The information that we have requested 
from Toyota, which is voluminous, is a part of what we are 
trying to determine whether there should be some civil 
penalties.
    Ms. Watson. Thank you. And in your testimony, you described 
a lengthy process that must be undertaken for your agency to 
order recalls. As a result, consumers are offered protection 
and the fastest when manufacturers voluntarily initiate 
recalls. While some of the experiences with Toyota have 
fortunately been voluntary recalls because of the pressure 
applied by NHTSA, do you think the process for NHTSA to order 
recalls could be made more efficient? And I heard you say that 
if you had the employees, the money was there. So do you want 
to elaborate on that?
    Secretary LaHood. I think we should always look at 
efficiencies. I think if there's a better way to do these 
things, I'm not opposed to doing that. And if people around 
here think that there's a better way to do it, we are willing 
to listen to them. But the system as it exists now I think has 
worked pretty well, but I am not opposed to doing something 
more efficiently.
    Ms. Watson. It's been reported that there has been some 
negotiations between Toyota and, I guess, NHTSA on whether or 
not the recall, the numbers of recalls should be capped and so 
on. Can you give us more information?
    Secretary LaHood. Not on my watch, Ms. Watson. We have 
taken this work very seriously, and we do what we think is the 
best interest of the people that own these automobiles, 
particularly as it relates to safety.
    Ms. Watson. Well, I wish you well.
    Secretary LaHood. Thank you.
    Ms. Watson. This is a turbulent time for your agency. I 
understand that.
    I yield back my time, Mr. Chairman.
    Chairman Towns. Thank you very much. I now recognize the 
gentleman from Virginia, Congressman Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And I know it's been 
a long day, Mr. Secretary. And I didn't have the privilege of 
serving with you here in the House, but I am so glad you are 
where you are. And I want to thank you for one of the first 
things you did as our new Secretary of Transportation was sign 
the full funding grant agreement for rail to Dulles. A very 
important project. Thank you so much for your leadership and 
your support on that.
    I am going to ask you a series of questions that are in the 
category of what do we know and when did we know it. And I 
understand that most of those answers are probably going to 
precede your tenure, so I am asking you to the best of your 
knowledge, given your current position, what do we know and 
when did we know it.
    To the best of your knowledge, Mr. Secretary, when did we 
first learn--we, the Federal Government, your agency NHTSA--
first learn there was a problem that merited further 
examination with respect to the acceleration of those Toyota 
vehicles?
    Secretary LaHood. Well, I will get you the exact year but 
it was a few years ago. For the record, I am going to--I want 
to be accurate about these things. You know, I just don't want 
to speculate. I could pour over my papers here and get you the 
answer, but I don't want to waste your time. It's better for me 
to just do it for the record.
    Mr. Connolly. That's fine. Mr. Secretary, do you know how 
many lawsuits have been filed with respect to the accelerator 
problem?
    Secretary LaHood. I do not. But I will find out.
    Mr. Connolly. And when they were first filed. That would be 
very helpful.
    Secretary LaHood. OK.
    Mr. Connolly. In the predecessor administration, NHTSA 
officials flew to Tokyo to meet with Toyota about this problem. 
Is that not correct?
    Secretary LaHood. That was under my watch.
    Mr. Connolly. It was under your watch?
    Secretary LaHood. Yes, it was. That occurred last year.
    Mr. Connolly. And can you describe for us the nature of 
those conversations?
    Secretary LaHood. It was a very, very frank conversation 
about safety matters that we felt they needed to address, and 
they began to address them after that meeting occurred. I also 
had a telephone conversation personally with Mr. Toyoda and 
talked to him about the seriousness of the matter that we were 
addressing.
    Mr. Connolly. And could you characterize a little bit 
Toyoda's reaction to the seriousness?
    Secretary LaHood. I think they realized that it was a 
serious situation, and that we were not going to countenance 
any kind of delay in really addressing it.
    Mr. Connolly. And do you feel that the company, from your 
perch, has, in fact, responded in a timely and effective----
    Secretary LaHood. After our visit to Japan and after my 
phone call with Mr. Toyoda, yes.
    Mr. Connolly. One of the criticisms one has heard from 
consumers was that they were, in fact, lodging complaints with 
the company and were kind of being dismissed. And, in 
retrospect, do you believe Toyota could have or should have 
maybe taken those early warning consumer complaints more 
seriously? And, part two, might it have made a difference in 
terms of where we are today?
    Secretary LaHood. I would really only be speculating on 
that. I just--I can only tell you about our involvement. And I 
think that maybe that is a better question for Mr. Toyoda.
    Mr. Connolly. NHTSA falls in your domain?
    Secretary LaHood. Yes.
    Mr. Connolly. And as you have said multiple times in this 
hearing, safety is our No. 1 priority?
    Secretary LaHood. Yes.
    Mr. Connolly. Presumably, the SOPs, the standard operating 
procedures, for NHTSA are that alarm bells go off when we learn 
about, even anecdotally, the acceleration--the involuntary 
acceleration of a vehicle, let alone anecdotal information that 
would suggest people have actually lost their lives because of 
it. We have to certainly, at least, look into it.
    Secretary LaHood. Absolutely.
    Mr. Connolly. What grades would you give NHTSA in the past 
in responding with alacrity to those anecdotal reports, and 
what have we learned moving forward in the future to improve 
our performance?
    Secretary LaHood. Under my watch, we have taken all of 
these things very seriously. We really have. This is no 
nonsense.
    Mr. Connolly. And the previous watch?
    Secretary LaHood. Pardon me?
    Mr. Connolly. And the previous watch.
    Secretary LaHood. Well, I mean, I will get back to you on 
the record on that. I mean, look, some things have taken place 
that maybe should have been done more expeditiously.
    Chairman Towns. The gentleman's time has expired.
    Mr. Connolly. I thank the Chair and I thank the Secretary.
    Chairman Towns. I now yield to the gentleman from 
Louisiana, Mr. Cao.
    Mr. Cao. Mr. Secretary, actually I don't have any 
questions; I just have a statement.
    Secretary LaHood. OK.
    Mr. Cao. And just to sincerely thank you for everything 
that you have done for Louisiana, especially for the Second 
District. I know that you have worked very hard in your 
capacity as the Secretary to address all of the transportation 
issues of the country. But on behalf of my constituents, I just 
want to thank you for your visit and thank you for everything 
that you have done for us.
    That is all I have. I appreciate that you have been under 
hours of questioning already.
    Secretary LaHood. Thank you very much.
    Chairman Towns. Mr. Secretary, you don't get that too much 
around here.
    Secretary LaHood. I appreciate it.
    Chairman Towns. Want you to know.
    Secretary LaHood. I appreciate it when I hear it, Mr. 
Chairman.
    Chairman Towns. I now yield to the gentlewoman from New 
York, Congresswoman Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. I first would like 
to welcome my colleague and very good friend, and thank him for 
his public service in the House of Representatives and now.
    Secretary LaHood. Thank you.
    Mrs. Maloney. Now at Transportation.
    I would like to ask a broad question: How did we get to 
this place? Toyota had a good reputation. Your department has a 
good reputation. Yet, the field technical reports from the 
company in Europe show that they knew about this problem and 
were reporting that there were problems a year ago. Why didn't 
they bring this to your attention? I am just saying I am 
reading from the field report. This is an internal document 
from Toyota.
    This brings the number of reported cases in the FTR to 38. 
The customer has stated about this sticky deal and the problem 
with the acceleration. And so they knew about it in Europe, and 
yet why is it the communication did not work to get to you that 
this was a problem, to get to American dealers that this was a 
problem? Can you give an overall assessment of what went wrong 
and, therefore, give us a guide to what we need to do in the 
future for the safety of American citizens and all citizens?
    Secretary LaHood. My assessment of this, Mrs. Maloney, is 
this: Two things, really.
    I think the business model that Toyota has used where they 
have some really, really good professional, capable people in 
North America running the company without the kind of 
opportunity for decisionmaking, so then decisions are made in 
Japan. And I think the second part of it is--well, first of 
all, I don't know if that business model--I think it's failed 
them in this instance. And I think the other part of it is some 
people in Toyota--and I have said this before, this is not 
anything new--became a little safety deaf.
    Mrs. Maloney. And specifically how did the business model 
fail? They weren't communicating?
    Secretary LaHood. No, it's not that they--the information 
was being passed, but then the decisions that I think and the 
outcomes that people wanted in North America weren't always 
complied with.
    Mrs. Maloney. Well, getting back to the sudden acceleration 
events. You testified that consumers, if they feel they have a 
problem, they go to their dealer and they correct it. And how 
do you know that it's been corrected? And how do you know that 
was the problem? Did you do any independent analysis or did 
anyone do any independent analysis of the problem and how to 
fix it? And how does a consumer know, once it has gone back to 
the company to be corrected, that it is, in fact, corrected?
    Secretary LaHood. Well, we, as a part of our 
investigations, we asked the companies to fix the problem and 
present that information to us. And, again, we don't sign on 
the dotted line and say we agree or disagree. But if they 
believe, based on all the information we have presented them 
that they think this is the fix, then that process gets carried 
over to the customer. And in, I think, many instances, the fix 
has worked.
    Mrs. Maloney. Well, later on there will be a witness who 
was a former employee of your department or of Transportation, 
and she testifies that--from reading her testimony--that the 
NHTSA administrators did not accurately investigate the many 
problems. Now, this was before you took the helm. So the staff 
has literally shown us in preparing for this hearing that there 
were literally thousands of complaints of sudden unintended 
acceleration. Yet, it doesn't appear that any meaningful action 
was taken until the Saylor family crashed. And my question is, 
why did it take so long? Again, we are talking about complaints 
that, by some reports, started coming in in 2004.
    Secretary LaHood. Well, we did work with Toyota on a fix on 
the floor mat and they put out a recall so that those floor 
mats could be removed. There's a recall on the sticky pedal, 
and those are up on the Web site. And if people take their cars 
in, Toyota will fix those. And so, you know, people have to be 
made aware of it either by notice or looking on the Web site or 
by concern or media reports or whatever. And not everyone has 
taken their car back, but we encourage people, if you are 
having a problem with your car, take it to your Toyota dealer.
    Mrs. Maloney. And since safety is our No. 1 concern, as you 
so properly stated, from your agency, have you considered 
asking your inspector general to audit or examine the prior 
investigations to determine if they were sufficiently robust? 
The staff reported to us that many of the investigations were 
very short, they weren't detailed, it wasn't a thorough 
investigation.
    Secretary LaHood. I have not asked the inspector general to 
do that. He has been asked by Members of Congress to do some 
investigations, but not specifically on that issue.
    Mrs. Maloney. Well, my time has expired. Thank you very 
much for your testimony and your service.
    Secretary LaHood. Thank you.
    Chairman Towns. Thank the gentlewoman from New York. I now 
yield 5 minutes to the gentlewoman from Ohio, Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. You certainly have gotten into a lot of issues in 
your 1-year tenure thus far.
    Let me ask you, can you speak to the level of cooperation 
between Japan's counterpart of NHTSA and NHTSA? Is their safety 
agency open and forthcoming, in your opinion, or does it suffer 
from the same kind of cloaked and opaque character of that 
country's ministry of trade? Are they working with you and 
sharing data on this recall issue?
    Secretary LaHood. I think, in some instances, yes.
    Ms. Kaptur. So you are saying they have been cooperative, 
in your tenure?
    Secretary LaHood. Oh, during my tenure they have been 
cooperative. In some instances they have.
    Ms. Kaptur. But information regarding this acceleration 
pattern obviously wasn't shared by their ministry if they knew 
about it in Japan versus our country. Our country, according to 
the data we have gotten from the Energy and Commerce Committee, 
first got a time line in March 2004 that on the Camry, Solara, 
and Lexus 300 models, that NHTSA found no pattern. And then 
there seems to be a gap between 2004 and 2007 in our country, 
but in March 2007, NHTSA opened an investigation on the Lexus 
ES350 in which NHTSA then found entrapment of the accelerator 
pedal by floor mat as the sole cause of what happened. And then 
through 2007, 2008, there were more and more Toyota vehicles, 
until the point in January when Toyota suspended sales of eight 
different models.
    And my question is, when all this was occurring in our 
country, was Japan's ministry sharing information with you 
about recalls prior to your tenure?
    Secretary LaHood. I will have to check, Ms. Kaptur, and put 
it on the record and get back to you on that. I don't know the 
answer to that.
    Ms. Kaptur. One of the pieces of data I would like to place 
up on the boards here is the trade deficit the United States 
has amassed with Japan over the last 24 years in the area of 
automotive manufacturing, autos and auto parts. And one of the 
reasons that Toyota and some of the other companies have been 
able to gain a beachhead in global auto markets is that it 
operates from a very tightly protected home market even while 
it is the second largest marketplace in the world.
    There's a chart that shows the trade deficits our country 
has amassed with Japan, totaling over $1 trillion, which 
translates into lost jobs in this country. Less than 3 percent 
of Japan's marketplace is open to cars from anywhere else in 
the world. They didn't even take Yugos and they certainly don't 
take our auto parts in any appreciable numbers. Yet, we have 
welcomed their cars here. Our dealers sell their cars, and that 
doesn't occur in that country. Imagine, the second largest 
marketplace in the world having less than 3 percent of their 
cars from anyplace else other than Japan, while our market over 
half the cars come from elsewhere or from transplants here.
    And one of my questions of Mr. Toyoda, and I have a hunch 
he is listening, is, does this sort of predicament that the 
company now faces result from a rather attitude of market 
superiority resulting from the false confidence of a closed 
home market? In other words, you can afford to ignore some of 
what has happening because of this false confidence that comes 
from that kind of a very imbalanced situation? And I am quite 
concerned about this. I have been for a long, long time.
    And my question to you, and I would appreciate for the 
record going back and seeing what kind of cooperation Japan's 
counterpart agency actually had with NHTSA? Were there sudden 
acceleration difficulties inside of Japan, to your knowledge, 
during this period?
    Secretary LaHood. I will get you that for the record.
    Ms. Kaptur. Because I think that's really important, 
whether it's Canada, United States, what is happening inside 
Japan's market versus what is happening inside our marketplace, 
the European marketplace. This is a very, very unlevel playing 
field, and I am quite concerned about the fact--oh, and I 
wanted to ask you for one other piece of information for the 
record.
    Inside of NHTSA, how many people from March 2004, which 
appears to be the first year in which some of these complaints 
started to come to NHTSA, how many people actually were 
involved in the assessment of what was happening inside of 
NHTSA? A staff of 10, 20, 50? What were their backgrounds? How 
long had they worked for NHTSA? And whom had they worked for 
before coming to NHTSA? Are you able to provide that 
information for the record?
    Secretary LaHood. We will do the best we can.
    Ms. Kaptur. From your sense, how many people? Is there 
anybody from NHTSA there now that can tell us how large was the 
unit that assessed these recalls? How many people are we 
talking about?
    Secretary LaHood. We want to be accurate about our 
information. We will get it for the record.
    Chairman Towns. We will hold the record open for that 
information. The gentlewoman's time has expired.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Chairman Towns. I now recognize the gentleman from 
Missouri, Congressman Clay.
    Mr. Clay. Mr. Chairman, my staff has advised me that all of 
the questions that I wanted to ask have been asked, we have 
exhausted this issue with this witness, and I have no 
questions.
    Chairman Towns. Thank you very much. According to the 
record, I think that everyone--has everyone had an opportunity?
    Mr. Tierney. I would just yield to Mr. Cummings for one 
question.
    Chairman Towns. Sure.
    Mr. Cummings. Just one thing. You said something that 
really--I am so glad I had a chance to ask this. Who was safety 
deaf? You said somebody was ``safety deaf.''
    Secretary LaHood. Toyota.
    Mr. Cummings. Toyota was safety deaf. And then you said 
there was some kind of disconnect.
    Secretary LaHood. Let me go back and tell you what I said.
    Mr. Cummings. Yeah, because I want to be clear about that; 
because when Mr. Toyoda--I'm going to ask him about what you 
are saying.
    Secretary LaHood. Mrs. Maloney asked me to assess what I 
think went wrong here. And, two things: Toyota has an 
organization called North America Toyota. They have some great 
people there. They are very professional. They are good people. 
We work with them. They make recommendations to Japan. The 
decisions are made in Japan.
    The reason that our acting administrator went to Japan was 
because he didn't think his message was getting to Japan, so he 
flew over there and met with the Toyota people and said, ``look 
at, this is serious.'' ``Lives are being lost.''
    Mr. Cummings. And when was that?
    Secretary LaHood. November, December last year.
    Mr. Cummings. OK.
    Secretary LaHood. And right after that, they started taking 
action. So then I get on the phone with Mr. Toyoda and I said, 
this is a serious matter. This involves safety, it involves 
lives.
    So my point is this: Their business model is they have a 
lot of good people in North America Toyota, but the decisions 
are made in Japan.
    Mr. Cummings. Got you. All right. Thank you.
    Secretary LaHood. Is that it, Mr. Chairman? I was going to 
say what a joy. No. The gentlelady from California. Of course.
    Chairman Towns. The gentlewoman from California, 
Congresswoman Speier.
    Ms. Speier. Thank you, Mr. Secretary, for being here these 
many hours. I am going to try and be quick and to the point. I 
want to talk about the black boxes. If 80 percent of the cars 
already have black boxes and they help piece together what 
happens during the last 5 seconds of an accident, why not make 
them mandatory in all cars?
    Secretary LaHood. It's a good point and it has been raised 
here earlier, and we are going to look at that. We really are. 
It's a good point. And if it is a way for us to really measure 
what happens, it's something we are going to look at.
    Ms. Speier. Now, as I understand it, you can read the black 
boxes from some of our domestic manufacturers.
    Secretary LaHood. That is correct.
    Ms. Speier. But you cannot read the black boxes from Toyota 
because they are encrypted.
    Secretary LaHood. That is correct.
    Ms. Speier. So shouldn't we require that all black boxes be 
readable by NHTSA?
    Secretary LaHood. Yes.
    Ms. Speier. In order to--so you would support that?
    Secretary LaHood. Yes.
    Ms. Speier. All right. Have you had a chance to look at 
Joan Claybrook's EDL recommendations? And, if so, would you 
provide written responses?
    Secretary LaHood. You mean her testimony here?
    Ms. Speier. Yes.
    Secretary LaHood. I have not read her testimony.
    Ms. Speier. She also suggested your office needs about $100 
million more in terms of support. Would you support that 
recommendation?
    Secretary LaHood. We are very grateful that the President 
included 66 new positions in our budget for 2011.
    Ms. Speier. How many software engineers do you have working 
within the Department?
    Secretary LaHood. Software engineers? I would have to get--
we have like--we have between 125, 130 engineers. I will get 
you the figure on the software.
    Ms. Speier. And you will provide it to the committee?
    Secretary LaHood. Of course.
    Ms. Speier. Because what I have been told is while you do 
have many engineers, you don't have software engineers.
    Secretary LaHood. We have electrical engineers. I know that 
was a point that people were a little confused about.
    Ms. Speier. And if this has already been asked, I 
apologize. But it appears that the chip you need in the 
computer system in these vehicles to have a brake override is 
really the solution. Do you concur?
    Secretary LaHood. Mr. Lentz said yesterday at the Energy 
and Commerce Committee that they were installing brake override 
in many of their vehicles.
    Ms. Speier. I guess my question to you is, irrespective of 
what Toyota is doing, would you look at it to determine whether 
or not the requirement that the brake override be actually 
implemented and installed in more vehicles than Toyota?
    Secretary LaHood. We will be happy to look at it.
    Ms. Speier. And you will let the committee know as well?
    Secretary LaHood. Yes.
    Ms. Speier. Thank you. And I will yield back.
    Chairman Towns. Thank you. And let me thank the Secretary 
for his time.
    Secretary LaHood. What a joy, Mr. Chairman. Great to be 
back.
    Chairman Towns. Thank you.
    We are now going to have a 10-minute recess, and then come 
back for the second panel.
    [Recess.]
    Chairman Towns. I would like to introduce our second panel. 
Testifying on this panel is Mr. Akio Toyoda, president and CEO 
of Toyota Motor Corp.; and Mr. Yoshimi Inaba, president and CEO 
of Toyota Motor North America.
    Gentlemen, it is the committee's longstanding policy that 
all witnesses are sworn in. Please stand and raise your right 
hands as I administer the oath.
    [Witnesses sworn.]
    Chairman Towns. Let the record reflect that the witnesses 
answered in the affirmative.
    You may be seated.
    Let me begin by first welcoming you. And I really 
appreciate the fact that you have come to testify and that, Mr. 
Toyoda, you actually volunteered to come and to testify. I want 
you to know we are very impressed by that. That shows your 
commitment, and of course to safety, as well. And we want you 
to know we appreciate the fact that you volunteered to come.
    Mr. Inaba, we welcome you here, as well. And we have had 
conversations with you, you know, over the past few weeks and 
months.
    So, at this time, we would ask you to--actually, we will 
give you additional time. We generally give 5 minutes, but, you 
know, being he is all the way from Japan, we will give him more 
time.
    So, Mr. Toyoda, you may begin.

  STATEMENTS OF AKIO TOYODA, PRESIDENT AND CEO, TOYOTA MOTOR 
CORP.; AND YOSHIMI INABA, PRESIDENT AND CEO, TOYOTA MOTOR NORTH 
                         AMERICA, INC.

                    STATEMENT OF AKIO TOYODA

    Mr. Toyoda. Thank you, Chairman Towns. I am Akio Toyoda of 
Toyota Motor Corp.
    I would first like to state that I love cars as much as 
anyone, and I love Toyota as much as anyone. I am here with my 
Toyota family of dealers, proud team members, and friends. I 
take the utmost pleasure in offering vehicles that our 
customers love, and I know that Toyota's 200,000 team members, 
dealers, and suppliers across America feel the same way.
    However, in the past few months, our customers have started 
to feel uncertain about the safety of Toyota's vehicles, and I 
take full responsibility for that.
    Today, I would like to explain to the American people, as 
well as our customers in the United States and around the 
world, how seriously Toyota takes the quality and safety of its 
vehicles. I would like to express my appreciation to Chairman 
Towns and Ranking Member Issa, as well as the members of the 
House Oversight and Government Reform Committee, for giving me 
this opportunity to express my thoughts today.
    I would like to focus my comments on three topics: Toyota's 
basic philosophy regarding quality control, the cause of the 
recalls, and how we will manage quality control going forward.
    First, I want to discuss the philosophy of Toyota's quality 
control. I, myself, as well as Toyota, am not perfect. At 
times, we do find defects. But in such situations, we always 
stop, strive to understand the problem, and make changes to 
improve further.
    In the name of the company, its longstanding tradition and 
pride, we never run away from our problems or pretend we don't 
notice them. By making continuous improvements, we aim to 
continue offering even better products for society. That is the 
core value we have kept closest to our hearts since the 
founding days of the company.
    At Toyota, we believe the key to making quality products is 
to develop quality people. Each employee thinks about what he 
or she should do, continuously making improvements, and by 
doing so, makes even better cars. We have been actively engaged 
in developing people who share and can execute on this core 
value.
    It has been over 50 years since we began selling in this 
great country and over 25 years since we started production 
here. And in the process, we have been able to share this core 
value with the 200,000 people at Toyota operations, dealers, 
and suppliers in this country. That is what I am most proud of.
    Second, I would like to discuss what caused the recall 
issues we are facing now. Toyota has, for the past few years, 
been expanding its business rapidly. Quite frankly, I fear the 
pace at which we have grown may have been too quick.
    I would like to point out here that Toyota's priorities 
have traditionally been the following: first, safety; second, 
quality; third, volume. These priorities became confused. And 
we were not able to stop, think, and make improvements as much 
as we were able to before, and our basic stance to listen to 
our customers' voices to make better products has weakened 
somewhat.
    We pursued growth over the speed at which we were able to 
develop our people and our organization, and we should 
sincerely be mindful of that. I regret that this has resulted 
in the safety issues described in the recalls we face today, 
and I am deeply sorry for any accidents that Toyota drivers 
have experienced.
    Especially, I would like to extend my condolences to the 
members of the Saylor family for the accident in San Diego. I 
would like to send my prayers again, and I will do everything 
in my power to ensure that such a tragedy never happens again.
    Since last June, when I first took office, I have 
personally placed the highest priority on improving quality 
over quantity, and I have shared that direction with our 
stakeholders. As you well know, I am the grandson of the 
founder, and all the Toyota vehicles bear my name. For me, when 
the cars are damaged, it is as though I am, as well.
    I, more than anyone, wish for Toyota's cars to be safe and 
for our customers to feel safe when they use our vehicles. 
Under my leadership, I would like to reaffirm our values of 
placing safety and quality the highest on our list of 
priorities, which we have held to firmly from the time we were 
founded. I will also strive to devise a system in which we can 
surely execute what we value.
    Third, I would like to discuss how we plan to manage 
quality control as we go forward. Up to now, any decisions on 
conducting recalls have been made by the Customer Quality 
Engineering Division at Toyota Motor Corp. in Japan. This 
division confirms whether there are technical problems and 
makes a decision on the necessity of a recall. However, 
reflecting on the issues today, what we lacked was the customer 
perspective.
    To make improvements on this, we will make the following 
changes to the recall decisionmaking process. When recall 
decisions are made, a step will be added in the process to 
ensure that management will make a responsible decision from 
the perspective of ``customer safety first.'' To do that, we 
will devise a system in which customers' voices around the 
world will reach our management in a timely manner and also a 
system in which each region will be able to make a decision as 
necessary.
    Further, we will form a quality advisory group composed of 
respected outside experts from North America and around the 
world to ensure that we do not make a misguided decision. 
Finally, we will invest heavily in quality in the United States 
through the establishment of an automotive center of quality 
excellence; the introduction of a new position, product safety 
executive; and the sharing of more information and 
responsibility within the company for product quality 
decisions, including defects and recalls.
    Even more importantly, I will ensure that members of the 
management team actually drive the cars and that they check for 
themselves where the problem lies, as well as its severity. I, 
myself, am a trained test driver. As a professional, I am able 
to check a problem in a car and can then understand how severe 
the safety concern is in a car.
    I drove the vehicles in the accelerator pedal recall as 
well as the Prius, comparing the vehicles before and after the 
remedy in various environmental settings. I believe that only 
by examining the problems onsite can one make decisions from 
the customer perspective. One cannot rely on reports or data in 
a meeting room.
    Through the measures I have just discussed and with 
whatever results we obtain from the investigation we are 
conducting in cooperation with NHTSA, I intend to further 
improve on the quality of Toyota vehicles and fulfill our 
principle of putting the customer first.
    My name is on every car. You have my personal commitment 
that Toyota will work vigorously and unceasingly to restore the 
trust of our customers.
    Thank you.
    [The prepared statement of Mr. Toyoda follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.017
    
    [GRAPHIC] [TIFF OMITTED] T8346.018
    
    [GRAPHIC] [TIFF OMITTED] T8346.019
    
    Chairman Towns. Thank you very much, Mr. Toyoda.
    Mr. Inaba.

                   STATEMENT OF YOSHIMI INABA

    Mr. Inaba. Chairman Towns, Ranking Member Issa, members of 
the committee, thank you for inviting me to testify today. My 
name is Yoshimi Inaba, and I am the president and COO of Toyota 
Motor North America and chairman and CEO of Toyota Motor Sales 
USA.
    As you heard today from the Toyota president, Akio Toyoda, 
and as the Subcommittee on Oversight and Investigations heard 
yesterday from Jim Lentz, president and chief operating officer 
of Toyota Motor Sales USA, Toyota is taking decisive steps to 
restore the trust of the tens of millions of Americans who 
purchase and drive our vehicles.
    Our 172,000 team members and dealers across America are 
making extraordinary efforts to complete our current recalls as 
quickly and conveniently as possible. We have rigorously tested 
our solutions and are confident that, with these repairs, 
Toyota vehicles will remain among the safest on the road today.
    We are also going further, by installing advanced brake 
override systems in all of our new North American vehicles 
before the end of 2010 and in an expanded range of existing 
models as a customer confidence measure, and taking 
comprehensive steps to ensure strict quality control and 
increased responsiveness to our customers and regulators in the 
future.
    As you have heard, Mr. Toyoda is leading a top-to-bottom 
review of our global quality control processes and will seek 
input from independent safety experts to ensure that our 
processes meet or exceed industry standards.
    As head of Toyota's North American operations, I will be 
closely involved in this review. Working with our new chief 
quality officer for North America, I also will take 
responsibility for ensuring that we improve our dialog with 
U.S. safety regulators and that we take prompt action on any 
issues we identify to ensure the safety of American drivers.
    In inviting me to testify today, the committee asked me to 
address several issues with regard to our recent recalls. Let 
me summarize my answers here: Our recent recalls address five 
separate issues that we have identified with certain Toyota 
vehicles. In total, some 5.3 million vehicles across 14 models 
are affected by one or more of these recalls in the United 
States.
    The biggest recalls are for solutions our engineers have 
developed with regard to two specific mechanical causes of 
unintended acceleration. One involves all-weather or 
inappropriate accessory floor mats that, when loose or 
improperly fitted, can entrap the accelerator pedal. The other 
concerns accelerator pedals that can, over time, grow sticky 
with wear in rare instances. The solutions we have developed 
for both of these issues are effective and durable.
    With respect to possible accelerator pedal entrapment by 
the floor mats, Toyota recently designed a vehicle-based change 
that directly addresses the problem and announced the solution 
to the public in November 2009 as part of the safety campaign 
announced on September 29, 2009. Owners of affected vehicles 
can, in the meantime, drive safely by ensuring that they use 
only properly secured, appropriate floor mats.
    With respect to sticking accelerator pedals, Toyota 
announced a safety recall in the United States in January to 
address this issue. The sticking condition does not occur 
suddenly, and if it does, the vehicle can be controlled with 
firm and steady application of the brakes.
    We are confident that vehicles whose drivers are not 
experiencing any issues with their accelerator pedal are safe 
to drive, and Toyota dealers are rapidly completing the repairs 
on our customers' vehicles.
    In both these cases, Toyota thoroughly and carefully 
evaluated the technical aspect of these issues. However, we now 
understand that we must think more from a customer-first 
perspective rather than a technical perspective in 
investigating complaints and that we must communicate faster, 
better, and more effectively with our customers and our 
regulators.
    Our recent, smaller, voluntary recalls of certain 2010 
Prius and Lexus HS hybrids for a software update to the braking 
system, certain 2010 Camry cars to inspect a power-steering 
hose, and certain 2010 Tacoma trucks to inspect the front drive 
shaft all illustrate this new approach.
    Chairman Towns, Ranking Member Issa, and members of the 
committee, I assure you that nothing matters more to Toyota 
than the safety and reliability of the vehicles our customers 
drive. We are committed not only to fixing vehicles on the road 
and ensuring they are safe, but to making our new vehicles 
better and even more reliable through a redoubled focus on 
putting our customers first.
    Thank you.
    [The prepared statement of Mr. Inaba follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.020
    
    [GRAPHIC] [TIFF OMITTED] T8346.021
    
    [GRAPHIC] [TIFF OMITTED] T8346.022
    
    Chairman Towns. Thank you very much.
    And let me thank both of you for your testimony.
    Let me begin by saying, have you told NHTSA everything you 
know about sudden acceleration problems? Have you told NHTSA?
    [Note.--Mr. Toyoda's replies were delivered through an 
interpreter.]
    Mr. Toyoda. According to my understanding, we fully shared 
the information we have with the authorities.
    Mr. Inaba. Our Washington office has been always in touch 
with NHTSA, and we are fully cooperating with NHTSA in any 
information they require.
    Chairman Towns. Has Toyota disclosed all information about 
other potential safety defects with your vehicles to the 
regulators? Have you done that?
    Mr. Toyoda. I do not know the specifics. However, as I 
mentioned earlier, I do understand that all the information we 
have are shared with the authorities.
    Chairman Towns. Let me ask this question. Today, Attorney 
General Andrew Cuomo of New York announced an agreement with 
Toyota, and this agreement provides that if a customer might be 
afraid to drive his or her car subject to a recall, the dealer 
will pick up their cars, fix them, and return them to the 
customers. Now, the customer will then be reimbursed for any 
taxi or rental car expenses that they might incur.
    Will you commit to doing this for customers nationwide?
    If you want me to repeat it, I would be delighted to do so.
    Mr. Inaba. Mr. Chairman, let me address that question 
because I am local here.
    Chairman Towns. I would be delighted.
    Mr. Inaba. Yes. I heard a number of instances that when 
this recall news came out, I think a number of customers were 
very afraid. And our dealers are fully behind it, and dealers 
took care of customers very well. In many instances, dealers 
went to pick up their cars and then also gave them a Toyota 
rental car for the time they were out.
    And this recall process is rigorously going on. I think 
there is a good understanding now on the part of the customers 
that the cars are being fixed well, and they are confident 
about that.
    Chairman Towns. But I guess my question is, are you just 
doing this in New York, or is this something that you are going 
to do nationwide?
    Mr. Inaba. No, this is happening all over the world--I 
mean, all over the Nation, nationwide, yes.
    Chairman Towns. OK. So I just wanted to make certain, you 
know, we have that understanding, because I understand it is 
going on in New York.
    And the last question that I have for you is, Mr. Toyoda, 
you have offered a brake override feature for some recalled 
vehicles. Why haven't you offered that feature for all Toyota 
vehicles?
    Mr. Toyoda. Allow me to explain the situation a little bit.
    The factors contributing to the unexpected acceleration I 
believe can be roughly classified into four categories: first, 
problem with electronic throttle system; second, the way in 
which a car is used or misusage of the car; third, the 
structural aspect of the vehicle; and fourth, the structural 
aspect of the parts used in the vehicle. So these, I 
understand, are four major factors contributing to unexpected 
acceleration.
    And of that, the electronic throttle control system is 
designed based upon the concept of safety first. And, 
therefore, whenever there is any abnormality or anomaly there 
in the system, the fuel supply to the system is cutoff. And 
even under very rigorous testing conducted internally or by 
NHTSA, no problem and malfunction was identified. And, 
therefore, I am absolutely confident that there is no problem 
with the design of the ETC system.
    However, placing emphasis upon the fact that customers do 
have concern as to the possibility of unexpected acceleration 
which may result from the remaining three reasons, in order to 
offer extra measure of confidence, as the chairman has just 
mentioned, we decided to add the brake override system.
    Chairman Towns. Is that a yes or no? I mean, that is what I 
am trying to get to. Is it a yes or a no? Because I am on 
Congressman Issa's time.
    I yield to Congressman Issa, but I am trying to find out, 
is that a yes or a no?
    Mr. Inaba. Let me address in a different perspective.
    Just for the record, we are putting a brake override system 
on all the models for North America coming off the line by the 
end of this year.
    And now probably your question is retroactively, what about 
the existing models? We have already announced Camry, Avalon, 
and then ES 300, and then IS; those are already included as an 
additional measure when we do recalls.
    And now we have recently announced Tacoma, which has a very 
high complaint rate, and then added to Venza and Sequoia. This 
covers probably, if my recollection is correct, 72 percent of 
the recall population. And any older one, technically it is not 
possible. And, therefore, we think we have covered.
    But we do not, you know, stop it there. We carefully 
monitor the situation. By the next year, with this new model, 
with BOS coming in, with these retroactive actions, I think we 
will be quite sure that it will be very much lower than the 
industry average.
    Chairman Towns. I yield to the gentleman from California.
    Mr. Issa. Thank you, Mr. Chairman.
    And the chairman has proven that he can ask a question so 
complex as to even be difficult for people of your great 
knowledge, and it doesn't surprise me.
    Let me ask in a different way the same question, so that we 
all on the dais have clarity. And, Mr. Inaba, I will put this 
one to you.
    Isn't it true, in order to use an advanced brake override 
system like this, your cars depend on electronic systems? They 
depend on microprocessors, and they depend on engine control 
modules that can actually simultaneously reduce fuel when 
sensing through the data bus that the brake has been pushed. 
Isn't that correct?
    Mr. Inaba. You are much better technically savvy than I am. 
I believe so.
    Mr. Issa. So I think, for all of us here who are concerned, 
of course, about fail safe and acceleration caused by 
electronics, I think--I am asking you, isn't it fair to say 
that, although electronics could at times be a problem--and 
your people have not eliminated that--the solution is, in fact, 
electronics, in this case, and that is what is going to give 
the higher level of safety?
    Mr. Inaba. Well, I can only say that this is an added 
measure to customer confidence. And, of course, I do not mean 
to say it solves all the problems.
    Mr. Issa. Yes. And I understand that in the earlier 
testimony there were some discrepancies, perhaps, between how 
Secretary LaHood would explain certain technical occurrences 
and how you would. Is that correct, that you would like to be 
able to correct the record on some areas of Secretary LaHood's 
testimony?
    Mr. Inaba. I am not quite understanding what specific 
comments you are referring to.
    Mr. Issa. Well, I guess I would welcome that, if you would 
like to, we would offer you the opportunity to submit for the 
record any technical corrections in what Secretary LaHood's 
questions and answers were during the earlier testimony.
    Mr. Inaba. Well, we would be glad to for the record.
    Mr. Issa. Thank you.
    And then I would ask that we put up the unintended 
acceleration exhibit that I showed earlier.
    And I put this up for both of you because, in your current 
advertisement on TV, you said something which I thought was 
extremely profound and a high goal. You said that good 
companies fix their mistakes and great companies learn from 
them.
    In the case of the unintended acceleration, in 2007 there 
was a problem in the United States for which the floor mats 
were changed. There was a problem in Japan with a different 
model but similar in floor pedal in which the Toyota pedal 
itself was shortened. And now, in the case of all of these 
models, there is an electronic upgrade, additionally, to 
prevent an accident like we had in 2009.
    Would that be the outcome today, the outcome of the recall, 
including the electronics upgrade to advanced brake override, 
is that the type of ``learn from your mistake'' that we can 
expect in the future on any problem that develops?
    Mr. Toyoda. I do not know this situation you refer to about 
2007. But, generally speaking, whenever a problem occurs, 
Toyota addresses those problems in the most sincere manner and 
attitude.
    Mr. Inaba. May I make a comment?
    Mr. Issa. Yes, please.
    Mr. Inaba. I came to know Japan's problem, to be shameful, 
only in the previous hearing you mentioned. And that was the 
very first time I ever heard. And, therefore, let me look into 
that, if it is correct or not.
    But at the same time, I think we are the company that we 
learn great lessons, for me, from this instance, and we try to 
do more. So, you know, we are committed that we try to remain a 
great company, not just a good company. So I think we have a 
full commitment of our president, and then he has just said--
and we have many, many measures already taking place. I don't 
want to go----
    Mr. Issa. No, I appreciate that. And I have a copy of the 
documents that you have provided to us concerning the Toyota 
Blade, which is the Japanese-only vehicle. And we will deliver 
that to you for your further update.
    My second and only other question: Secretary LaHood talked 
about wanting to but not necessarily having the transparency of 
worldwide sales and problems. Will you agree, Mr. Toyoda, to be 
the company that leads by providing the U.S. NHTSA with full 
transparency of your worldwide observations and help set a 
model for all the major companies here in the United States?
    Mr. Toyoda. To that question, I clearly say yes.
    In the past cases of recall or problem solutions, in making 
decisions we based our decision on two issues: the technical 
consideration and, also, whether or not the regulations and 
statutes in different parts of the world are complied with. 
And, in that sense, going forward, we intend to exchange and 
share information more timely throughout the world. And we are 
now setting up the system for that purpose.
    And for that specific purpose, we are going to establish 
the special committee on global quality, which I personally 
will be heading. And the very first meeting of that will be 
held on March 30th. And, for that purpose, we are now setting 
up the structure where the United States and other parts of the 
world will be represented in the meeting on that special 
committee for global quality. And we are now introducing this 
system so that we really face up to this problem openly and 
transparently.
    Mr. Issa. Thank you.
    And thank you, Mr. Chairman, for your indulgence.
    Chairman Towns. I recognize the gentleman from 
Pennsylvania, Mr. Kanjorski.
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    Gentlemen, welcome to the United States.
    I have to compliment you, Mr. Toyoda, for deciding to come 
here and testify. Actually, it is quite a unique experience, in 
terms of you will be able to brag about the fact that you 
withstood the interrogation of a congressional committee. That 
is a badge of courage in the United States.
    But if you had heard any of the examiner's questions of the 
Secretary, and I think now of yourselves, we are a little 
disturbed about some things, and I am too, although I am very 
sympathetic to the fact that we want to encourage international 
business and we want to certainly open our markets to your 
manufacturing from Japan or your ownership of manufacturing 
facilities in the United States.
    But I thought I heard this morning the Secretary say that 
you had a problem in Japan that was detected in 2007, and then 
subsequently the same problem was detected in Europe, but there 
was no communication of that problem or the prospect of that 
problem being contained in American-manufactured automobiles or 
your products being sold in the American market.
    If that impression that I have is true, that is very 
troubling to me. I would like you, as best you can--and I 
understand the difference in language--to explain whether or 
not you are giving the American automobile purchaser, your 
customer, and the American market the same level of attention 
that you give to the Japanese market or the European market. 
And if you didn't in the past, what are you going to do to make 
sure that difference doesn't occur in the future?
    We can't afford to have a lag of a year or 2 years of 
finding out something that is defective in an automobile. I 
suspect the stock price is reflecting that to you, that it can 
be very costly. I hope it doesn't destroy a great deal of the 
equity of your company, and I hope you can move on and move 
beyond this question.
    But I want to hear in my own mind that there hasn't been 
this difference between the home market and the American market 
or the home market and the European market or your experiences 
in the home market and the European market and the ignoring of 
the American market and the American customer, if I may.
    Mr. Toyoda. We provide the same services with the same 
degree of care to the customers not only in the United States 
but customers the world over. However, as the Congressman has 
just pointed out, our speed of expansion outpaced our 
development and training of our people working for us. And 
right now I am fully aware of that.
    In July last year I became president, and since then I 
appointed executive vice presidents responsible for each region 
of the world. And by doing so, we established a system where 
information on different regions can come into the head office 
and be captured in a more timely manner.
    And, on top of that, specifically about this quality issue 
that we are faced with at the moment, with respect to concerns 
of the customers or customers' voices before they are expressed 
in terms of a complaint, we are going to capture those, so that 
information be conveyed to the head office in a timely manner. 
And we are putting in place a system to enable us to do that.
    Mr. Inaba. Let me address, if I may, specific issues of 
defect information sharing, which was also Ranking Member 
Issa's question.
    I think we should have done a better job in sharing those 
cross-regional defect information----
    Mr. Kanjorski. What have you determined was the cause that 
you didn't? Was it a culture? Is it psychology? Was it 
something that happened in the communications breakdown? It 
just seems absolutely----
    Mr. Inaba. When you go into a certain data base, you can 
find it. But it is not--I must say, I don't know very well, but 
positively shared.
    Now, going forward, what we are going to do is, one of the 
things I would like to report to you is we are making now one 
American, we call, product safety executive. It is a part of 
recall decisionmaking as part of the global committee headed by 
one Japanese, one American, and maybe later added from other 
regions like Europe and China. And then, in that, all the 
information is shared there so we can evaluate and know what is 
going on in other parts of the world in more transparent ways. 
So this is the change that we are making, you know, now.
    Mr. Kanjorski. Let me ask you just a side question. Does 
Japan have a tort system similar to the United States, where a 
suit can be brought for damages by these injuries and loss of 
life?
    Mr. Toyoda. I believe we do.
    Mr. Kanjorski. All right. We have a little bit of a 
contest, sometimes, going on in the United States; we call it 
tort reform. And it is an argument that my friends on the other 
side very often use in the medical argument field. If you had 
tort reform and you just allowed some people to die or get 
severely injured without recovery, that would correct things.
    I think you are making the best argument in the world that 
I have ever heard of why we should have the present tort 
system. And I hope you recognize what kind of payment for the 
injuries and the damages suffered by innocent American citizens 
who, like myself, have grown up in an atmosphere that we had a 
great deal of faith in something that was stamped ``Made in 
Japan,'' that it was of the highest reliability. And you have 
injured that thought process in the American public. And you 
will be called upon, under our system, to pay compensation for 
that.
    I yield back.
    Chairman Towns. I now yield to the gentleman from Indiana 
on that note.
    Mr. Burton. Let me just preface my remarks by saying we 
really need tort reform.
    Mr. Kanjorski. We should just forgive these companies and 
let them kill our people, right?
    Mr. Burton. Never mind. We just have a difference of 
opinion.
    First of all, let me thank you both for being here. I think 
it is very good that you came. It shows real concern on the 
part of Toyota.
    And I also want to compliment Toyota dealers around the 
country. I went to a couple of Toyota dealers this last week to 
take a look at what is going on. And they are working day and 
night to correct these mistakes. And so, to your Toyota 
dealers, I want to say thank you for working so hard to correct 
these problems.
    Now, having said that, first of all, I have a case here 
that took place in 1997. I don't want to go into all the 
details on it, but a woman was injured in an automobile 
accident involving a Toyota. She lost both legs. And I would 
like for you to review that, and if you wouldn't mind giving me 
a response. Would you do that for me?
    Mr. Inaba. Yes, sir.
    Mr. Burton. OK. I will have my staff give this to you so 
that we can talk about that.
    The second thing I want to do is--I don't understand this. 
I went to the Toyota dealer, and this is the floor pedal 
mechanism that is used in Japan and in some cars here in 
America. This is one that is manufactured by CTS here in the 
United States, and they have done a good job on this. This 
pedal here has been involved in the accidents, I believe, that 
have caused the fatalities. This one here, there has been 
sticking and they have been putting a shim in there, a little 
metal piece in, to correct that.
    And my question is, why the difference? These are going in 
the same model car, and why do they have different 
specifications? Because this one here has caused the problems 
that has created the deaths, and this one here has some 
sticking problems which have been corrected, but it is 
different.
    And so, when you are manufacturing the same car, why is it 
that they don't meet the same exact specifications? It seems to 
me that would be easier to correct than having one that is made 
one way and one that is made another way.
    Mr. Toyoda. As the Congressman already knows, a car 
consists of some 20,000 to 30,000 parts. And I would like you 
to, first of all, know that we work together with the suppliers 
in designing those parts.
    Mr. Burton. If I might interrupt, I understand that you 
work with the suppliers, but the designs are different. This 
one here has a different mechanism here on the bottom than this 
one. And I am just wondering why, if it is the same model car, 
there is a difference?
    Mr. Toyoda. Some parts are designed by our suppliers, with 
Toyota approving that. And, in other cases, Toyota's own 
engineers design those parts. So there are two approaches used.
    In the case of this specific pedal, the suppliers designed 
the pedal and Toyota approved that. And, in both cases, we were 
able to identify two excellent suppliers whose parts were 
worthy of us to use in the United States and Japan. And, 
therefore, those two parts designed by our suppliers were used 
in this pedal.
    And, on top of that, it is our philosophy to grow together 
with our suppliers. And, in that sense, rather than placing 
orders with one single supplier, we source the same parts from 
multiple suppliers. That is to say, when there are suppliers 
that can supply parts that perform the same function, we do 
that. And this is another point I would appreciate your 
understanding.
    Mr. Burton. No, if I might real quickly just say I 
understand, but when there is a problem of this magnitude, 
where people have been killed because of a part, and there is 
another part that didn't result in fatalities but there was a 
sticking, it seems to me it would be easier to correct the 
problem if there was more consistency in the two parts.
    Chairman Towns. Thank you very much. And the gentleman's 
time has expired.
    I now recognize the gentleman from Maryland, Congressman 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to thank both of you for being with us this 
afternoon.
    And to Mr. Toyoda, I have read your testimony and I have 
listened to it, and I can appreciate you saying and meaning 
that you are sorry.
    The problem is that it is one thing to say you are sorry; 
it is another thing when it seems as if, time after time, there 
are pronouncements that problems are being addressed and, over 
and over again, they seem like they are not being addressed: 
2007, a fatal crash involving a Camry because, allegedly, of 
floor mats, a person was killed. And we can't get away from 
these facts. September 2007, you then--55,000 cars were 
recalled. And I know this was before your presidency. August 
2009, California fatal crash, four people were killed, the 
Saylor family. September 2009, 4.2 million cars recalled. And 
we can go on and on.
    And then just yesterday, Mr. James Lentz III said something 
that was very interesting. And basically what he said was that, 
even with the sticky pedal and the floor mat problem, that this 
may not account for all of the problems. And he implied that 
maybe there were some electronic problems taking place.
    The question becomes, at what point do--and I know also you 
want to regain the trust of your customer base, but that trust 
is hard to establish, or re-establish, when they see over and 
over again these kinds of situations, and they say, ``Well, why 
should we believe that things are going to get better?''
    And I know that there have been Members on this dais who 
have said that they have some good things that Toyota has done, 
but I have people in my district who, by the way, are saying 
that they call and they have to wait to get their cars 
repaired, but at the same time they have to take the children 
to the babysitter, they have to go and do their marketing. I 
mean, these are just practical things that are happening.
    So I am just asking you, how do you say to your customers, 
the people who take their hard-earned dollars in a tough 
economic time and spend them on a Toyota vehicle, how do you 
say to them that we can trust you now, when--and I say this 
most respectfully--when it seems as if there is no end to this 
series of promises, promises that seem to come short of 
reaching the goal of safety?
    Mr. Toyoda. I sincerely regret that some people actually 
encountered accidents in Toyota vehicles. As I mentioned 
earlier, with respect to the electronic throttle control 
system, the system itself has been designed based upon the 
philosophy of safety first. And, therefore, whenever any 
abnormality or anomaly is detected, fuel supply is instantly 
cutoff.
    That notwithstanding, accidents actually happened. And, 
therefore, I instructed that every effort be made thoroughly to 
reproduce and duplicate the accidents. And up until yesterday, 
those duplication tests have been repeated and conducted. 
However, no malfunction or problems were identified based upon 
the tests conducted internally within Toyota.
    And, therefore, based upon such thorough examination and 
testing conducted within Toyota, I have been saying that I have 
no question with respect to the integrity of our ETC system.
    And, therefore, in cooperation with the authorities' 
consent, we already announced that we are going to thoroughly 
examine and investigate the outcome and data, recording event, 
data recorder. And the findings will be made public and 
disclosed in a prompt and timely manner, and changes will be 
made in a very transparent manner so that be assured going 
forward.
    Chairman Towns. Thank you very much.
    And I yield 5 minutes to the gentleman from Florida, Mr. 
Mica.
    Mr. Mica. First of all, Mr. Chairman, I would like to 
request unanimous consent to include in the record the specific 
information on the administration's proposed 2011 budget 
request which cut National Highway Transportation Safety 
Administration's Vehicle Research Program and also further 
reduced the amount for vehicle safety research in the budget. I 
didn't have this further. If that could be inserted also in--
the budget information in the record appropriate to my previous 
questioning of the Secretary. Without objection?
    Chairman Towns. I will review it, and we will reserve the 
right to reject.
    Mr. Mica. Again. OK. I will proceed.
    This is indeed a very embarrassing day for the U.S. 
National Highway Safety Transportation Administration. It is 
equally a very embarrassing day for Toyota, to have the son of 
the founder of Toyota here as the chief officer to come before 
the U.S. Congress.
    I am embarrassed for you, sir. I am embarrassed for my 
dealers that I have talked to. I am embarrassed for thousands 
of people, hardworking Americans who work in I guess over 10 
plants across the United States. I thought, actually, I thought 
we were doing pretty good because Toyota was taking quite a 
hit. And I will put in the record later on your safety record 
and some of the things you have done positively, information 
that I got, until I was shaving the other day and heard the 
news of the memo that was prepared by a gentleman, whom I 
didn't even know his name, bring over a copy of the July 6th 
Inaba memo. I hadn't read this actually, the details of it 
today.
    Mr. Inaba, this is one of the most embarrassing documents I 
have ever seen. In your preparation of this, you embarrassed 
all the people I represent, those hardworking people across 
this country.
    This is absolutely appalling, sir, that you would 
identify--and I know you were on the job only a few days--but 
key safety issues, and identify as one of them, on page 14 of 
the document you prepared, you identified the problem of the 
safety issue with regard to these pedals. Then, on page 16, 
``Wins for Toyota Safety Group?'' How could you possibly put in 
writing this and list as wins for Toyota? Particularly under 
the defects entry, and negotiated equipment recall on Camry ES, 
SA saved a hundred million with no defects found? I think you 
have done a great injustice, sir, in this. I don't know if it 
was--it is not a rookie mistake. Obviously you have been with 
the company.
    But to prepare this document, to undermine the good working 
people and the reputation. Toyota has an outstanding reputation 
and actually has had a great safety record. But this discredits 
everyone.
    How would you respond, sir?
    Mr. Inaba. Yes, sir. First, let me get the facts straight. 
This is the only few days after my arrival to the company. And 
then----
    Mr. Mica. Had you been with Toyota before?
    Mr. Inaba. Yes, sir.
    Mr. Mica. How long?
    Mr. Inaba. Forty years in total, sir.
    But this is after 3 years away from Toyota. I also first 
became the president of Toyota Motor North America, and then I 
visited one of a few days to Washington office. I had no idea 
what the company was. And that's why our staff wanted to give 
me an orientation material.
    Mr. Mica. I was stunned to find your name on the front 
page.
    Mr. Inaba. Addressed to me.
    Mr. Mica. I did not know that until today.
    Mr. Inaba. And the point is that I was in the middle of 
orientation tour.
    Yes. I didn't make it really clear. My name is on it. It is 
presented to me; not me made it. That is all I want----
    Mr. Mica. But you were aware of this. Again, this is 
information you had and your company prepared. If, in the 
future, any company prepared a document like this and presented 
it to anyone in the company, to me, it would be one of the most 
dangerous things that you could do to anyone's reputation. I 
know it says on the side ``confidential'' and all of that. But 
do you realize the people that have been let down, me, the 
people in my district who go to work every day in those Toyota 
operations, the sales? And already, the reputation has been 
severely damaged by what has been done here.
    Mr. Inaba. I honestly, with my honesty, I do not recall the 
meeting in any depth. But, at the same time, now I see that. I 
think I must say to you that it is so inconsistent with the 
guiding principles of Toyota, and my feeling is and therefore--
--
    Mr. Mica. It is just to me unbelievable.
    Mr. Inaba. I feel the same.
    Mr. Mica. Mr. Toyoda, you are in charge of the company and 
have that responsibility. Can you assure the committee that 
this is not the approach, this will not be the approach of 
Toyota now or in the future?
    Mr. Inaba. Because now I am getting more familiar. I am the 
president of that company. I am going to rectify that.
    Chairman Towns. The gentleman's time has expired.
    Let me just make an announcement before we move any 
further. There is a vote on the floor, actually there are three 
votes. We plan to continue with the gentlewoman from 
Washington, DC, assuming the Chair. But, I also want to let the 
gentleman from Florida know that his time has long expired.
    Mr. Mica. Yes, sir.
    And if Mr. Toyoda could just answer.
    Mr. Toyoda. I do not know about that specific document you 
referred to, and I do not know the comment.
    However, generally speaking, when a new person takes office 
as president, it is customarily done in any division to make 
presentations on various contents or substances going on in the 
company. However, generally speaking, the substance and 
contents of such documents does not affect the entire company 
in no way to cause drifting of the company itself.
    Ms. Norton [presiding]. The gentleman from Ohio, Mr. 
Kucinich, has 5 minutes.
    Mr. Kucinich. Madam Speaker, I am going to vote, and I 
would like to ask the questions when I come back.
    Ms. Norton. You can. I am calling on people who are left.
    Mr. Kucinich. I will----
    Ms. Norton. I am going to go to Mr. Connolly then.
    Mr. Kucinich. We are coming back?
    Ms. Norton. We are.
    Mr. Connolly, you have 5 minutes.
    Mr. Connolly. Thank you, Madam Chair.
    Mr. Toyoda, welcome to the committee. When did it first 
come to your attention that there was a problem with 
acceleration of your vehicles?
    Mr. Toyoda. I was appointed president in July. And there is 
a major difference between the sort of information I had 
received prior to assuming the position of president and the 
information I get to receive after becoming president. And, 
therefore, there may be some difference between the information 
that company may have had as a company and the information I 
personally had as president.
    However, I will clearly state whatever I know, and even in 
those cases where I do not know or I do not have any notice of, 
I will look into the matter and supply the report to you.
    So, responding specifically to your question of when, I 
would say sometime toward the end of last year.
    Mr. Connolly. Toward the end of 2009?
    Mr. Toyoda. That is correct.
    Mr. Connolly. OK. Were you aware of the fact that there had 
been complaints by consumers long prior to that time?
    Mr. Toyoda. Right now, I am aware of that. However, did I 
have that sort of information before I became president? I 
didn't have that sort of information with the same degree of 
accuracy that I do now.
    Mr. Connolly. But you had some awareness. We just heard 
from Secretary LaHood prior to your testimony, and he talked 
about the fact that NHTSA sent a team to Tokyo to meet with the 
top leadership of Toyota to bring to their attention as 
forcefully as they could the fact that there was a problem and 
that it needed to be attended to. That meeting was prior to 
your testimony just now that you only learned about this 
problem in December of last year.
    Were you not aware of the fact that NHTSA had sent a team 
to Tokyo headquarters?
    Mr. Toyoda. On that specific point, that was a matter 
handled by the division in charge of quality assurance. And 
certain person in that division I understand received the visit 
from NHTSA representatives and had discussions with them. I 
know that. However, I do not know the specific content of the 
discussion nor the timing of that meeting.
    Mr. Connolly. Well, there seems to be some discrepancy. 
Again, we are trying to get at what did we know and when did we 
know it to sort of gauge the company's--the quality of the 
company's response to the serious problem on behalf of its 
customers. And obviously, we have an interest as American 
Congressmen and women to protect our constituents who are your 
customers. And we know that the company certainly was made 
aware by U.S. officials through NHTSA who flew to Tokyo for 
this express purpose, and you are telling us in your testimony 
you didn't know about it.
    You were aware of that trip and that meeting, but you 
weren't aware of the fact that there was a serious acceleration 
problem with your vehicles until just a few months ago, 
December 2009. Is that correct? Because if it is correct, given 
your position in the company and your family's association with 
the company, that would constitute extraordinary 
compartmentalization.
    Mr. Toyoda. I personally know that there was a meeting with 
NHTSA representatives, but I do not know the content of that 
meeting.
    Mr. Connolly. OK. I am just going to ask one more question, 
and that is of Mr. Inaba. I am looking at this confidential 
document that was made available to this committee that my 
colleague was just referring to.
    Mr. Inaba. Yes.
    Mr. Connolly. And on one of the pages, it has just a series 
of ticks like this. And the bottom tick in your briefing, if I 
understand what you said, it says, ``Secured safety rulemaking 
favorable to Toyota.'' And I am going to run out of time, but 
could you at least answer, what was your understanding of what 
that meant?
    Mr. Inaba. As I said, I don't recall the meeting in any 
depth, and I had no idea about this recall process back then. 
Therefore, I have very little knowledge about it. And funny 
enough that I only recall quiet cars in that whole list of 
that. Of course, now I am made aware of this, there was an 
execution of that. But I don't recall it.
    Mr. Connolly. Madam Chair, I know my time is up.
    Ms. Norton. The gentleman's time has expired.
    Mr. Connolly. But I would just note for the record that 
this document is dated July 6, 2009.
    Ms. Norton. The gentleman's time has expired.
    Mr. Davis.
    Mr. Davis of Kentucky. Thank you, Madam Chair.
    And I would like to thank you and also Ranking Member Issa 
and members of the committee for allowing me to join from my 
position on the Ways and Means Committee on this Oversight 
hearing on Toyota's recall.
    I have the honor of representing Toyota's North American 
headquarters in Erlanger, KY, and wanted to voice some 
perspective from our region.
    Toyota directly employs more than 172,000 in plants and 
dealerships in the United States, and Toyota has an integral 
part in our economy in Kentucky and investment in the United 
States of America. They maintained operations and a world-class 
level of quality in the Commonwealth for nearly 25 years. The 
Georgetown facility now manufactures engines in addition to 
automobiles, all part of a $5.4 billion investment in our 
State.
    Toyota has been an exceptional corporate citizen in 
Kentucky. They have given more than $37 million to local 
charitable groups with missions ranging from education to 
social services. And not only has Toyota supported local 
charitable needs, but Toyota has also been one of the 
Commonwealth's strongest job creators. Toyota North American 
headquarters in Erlanger, KY, in the Hebron's Park Center, 
supplies distributors across the continent in my hometown of 
Hebron, KY.
    In all, more than 8,000 Kentuckians work for Toyota, and 
almost 1,500 are in Kentucky's Fourth Congressional District. 
Additionally, 90 Toyota suppliers are located in Kentucky, 
creating more than 10,000 additional jobs.
    Toyota's decade-long reputation for quality, safety, and 
service is based on their high standards of quality and 
innovation, and based on their corporate ethic of discipline, 
honor, and humility. They have had a positive and 
transformational effect on virtually every aspect of American 
manufacturing, and I can speak to this as one of the few 
manufacturing professionals who serves in the Congress.
    Toyota is--as Congress conducts these hearings related to 
Toyota's recall, we need to keep in mind Toyota's willingness 
to do something unusual in American business politics in the 
Congress, and that is to actually take responsibility and 
ownership for the problem and continue their longstanding 
commitment to quality and, more importantly, for the well being 
of their customers.
    Careless words and unfounded allegations by those who may 
have other agendas can do irreparable harm to job creation in 
Kentucky and in the United States. At a time when quality jobs 
are in short supply and unemployment in Kentucky and the Ohio 
Valley remains above 10 percent, the jobs created by Toyota are 
more important than ever.
    Echoing the concerns voiced by Kentucky Governor Steve 
Beshear and other Governors across the United States in a 
recent letter to Congress, I urge the members of this committee 
and my other colleagues to be thorough in their investigations 
of these issues and to arrive at conclusions based on evidence 
that is uncovered, rather than circumstantial speculation or 
sensationalism. Let's focus on the facts, rather than giving 
way to the temptation to engage in political theater.
    Congress must exercise appropriate oversight in determining 
its National Highway Transportation Safety Administration is 
able to effectively identify and comprehensively investigate 
automobile safety issues facing Americans. And, moreover, 
America needs clear and consistent automotive safety standards 
applied to all manufacturers in this country, not simply one, 
to ensure the safety of the entire American public.
    I appreciate your willingness to come and participate in 
this today, and the contribution of your business to our 
country's economic strength and wealth.
    And with that, Madam Chair, I thank you. And I yield back.
    Mr. Inaba. Thank you for your comment.
    Ms. Norton. The gentleman's time has expired.
    Mrs. Maloney of New York.
    Mrs. Maloney. Thank you.
    And thank you for coming to testify today.
    Earlier in response to the chairman's question, you said 
the dealers in America are responding to any of the problems 
and making the customer whole, assuming all costs for repair, 
and trying to subsidize for their time and so forth.
    My question is, what about the American families or 
individuals who died or were injured? Since the company knew 
about the problem, will you assume their medical costs, their 
funeral costs?
    Mr. Toyoda. Truly speaking, truly I feel very sorry for the 
members of the Saylor family who ended their life with Toyota 
vehicle, and I extend the condolences from the deepest part of 
my heart. Working closely together with engineers, Toyota team 
members, and suppliers in making maximum efforts so that such a 
tragedy be never, ever again repeated.
    Mrs. Maloney. But you did not answer my question of whether 
or not you would assume the cost of the hospital, repair of the 
body, the expenses of the individuals.
    Mr. Inaba. Well, many of those cases are pending legal 
issues, and so we will leave it to our legal counsel for its 
information.
    Mrs. Maloney. Earlier, when this came forward, you had this 
report examination done. And I would like to know if you think 
this report on the problems and the solutions was sufficient.
    Earlier, Commissioner LaHood testified he was depending on 
the research of Toyota. So I am asking whether you feel that 
this is sufficient.
    And, second, I would like to go back to a field technical 
report that came in from Europe. And in it, the mechanics are 
really very clearly stating that there is a problem. And I want 
to know why this information was not gotten out to people, to 
America, to the dealers, to everyone immediately. And, 
specifically, how many complaints trigger an investigation? Is 
there a standard? When someone complains and says there is a 
problem, what happens? How many complaints have to come in 
before you start reaching out?
    Mr. Inaba. First of all, let me address this cross-regional 
information sharing.
    As I stated before, we could have done a much better job, 
and we are now taking steps to improve it, as I said before.
    And to the specific question of how many, the number of 
reports do you need to initiate that investigation, I think for 
the UA issues, unintended acceleration issues, that we are 
committed to take actions in investigating those issues one by 
one. In other words, once we get the complaints of reports of 
that UA issue going forward, we will--the goal is to start the 
investigation within 24 hours of the information that we 
receive. And we are creating many, many SWAT teams to really go 
into that area.
    Mrs. Maloney. I have been called for a vote, but I would 
like to get on the record, if I could, your response, Mr. 
Toyoda. What have you learned from this personally, and what 
lessons has the company taken from the events leading to 
today's hearing? And how will you change Toyota in the future 
to protect people and to provide an excellent product? And I am 
going to go vote. If you can answer.
    Ms. Norton. You may answer, Mr. Inaba or Mr. Toyoda, what 
you learned, etc.
    Mr. Toyoda. With respect to the recall, thus far, we have 
been too much focused on two perspectives: One is technical 
perspective, and the other is compliance with laws and 
regulations.
    The most important lesson that I learned from this 
experience relates to the following. With respect to customer-
first philosophy, we have been placing the highest priority on 
the safety thus far, and we will continue doing so. But on top 
of that, from the perspective of customer-first, we will place 
greater emphasis upon the customer's viewpoint and 
perspectives. So that is the first lesson that I would like to 
mention here.
    In addition to that, we will make sure that we get 
information from various regions of the world in a more timely 
manner so that the time lag be minimized between different 
parts of the world and the global head office in Japan. We will 
make efforts in that direction.
    Ms. Norton. Thank you.
    If I may say so, the reason that you have seen such 
emphasis on what you call the technical matters and the law is 
precisely that customers did in fact apparently over and over 
again complain about these issues, but had no way to know the 
cause, and expected Toyota to in fact look at the technical 
details. The technical details are beyond a family that reports 
unintended acceleration. And the family expects that, having 
reported that, there will be an immediate remedy.
    The matter of law goes to transparency itself. The law 
requires automobile operators in this country to--manufacturers 
in this country to operate in a certain way. Therefore, the 
first thing we do is to look and see if they are operating 
according to law. And law here meant of course the regulatory 
agency.
    I don't know if you want to respond, but I do want to make 
it clear, and I was pleased to hear that apparently the route 
from customer complaint to those who can do something about it 
is one of the reforms you have suggested in your testimony 
already. Apparently, these went astray because they didn't get 
straight up to the fix-it person. And, as I understand it, one 
of the most important reforms is not that the customer 
complaint you listened to--I suppose you heard them--but the 
right people in the structure did not hear these complaints. Is 
that so? At the right level, the level to bring an immediate 
remedy. Those people didn't hear it soon enough, and so the 
customers weren't heard soon enough. Is that correct?
    Mr. Toyoda. It is not that customers were not heard, in my 
view. Whenever complaints were reported, we try very hard to 
reproduce and duplicate those complaints to identify what it 
was that was actually taking place which led to the complaints 
coming from the customers. We investigated them very hard. And, 
at the same time, whether the similar phenomenon is likely to 
continue into the future, how much possibility there is for the 
same phenomenon to spread to other areas or other cars is 
another aspect that is investigated. So I will say that I will 
accelerate that process of following these three steps further 
into the future.
    But with respect to the reproducing--reproducibility or 
duplication of those phenomenon, we have been working very 
hard, being Toyota, to do exactly that. But even with the best 
efforts made, there are cases that cannot be or that have not 
been reproduced. So, going forward, we will enhance the 
transparency of the process of us working very hard to 
reproduce and try to identify those causes, sometimes seeking 
cooperation from the authorities concerned. And we intend to 
lead our efforts in this area in a manner that our efforts 
itself will lead to the improvement of the vehicles of the 
entire industry.
    Ms. Norton. I am going to go on with my questions. I just 
want to make sure you are not blaming the victims. The 
customers reported. The customers reported. Let's not say they 
didn't want to hear our customers. The fault does not lie with 
the customers. You can bet your bottom dollar that the first 
time there was unintended acceleration, that is about 
everybody's horror. You can bet your bottom dollar that 
customer reported that.
    Your answer, which goes to we will see if this is 
duplicated, is in some ways very troublesome, because that is 
such a serious problem that once it is reported one time, it 
seems to me you have a huge problem on your hands. And you seem 
to be saying, well, if we hear it enough, then we will know we 
ought to do something about it. That is very troublesome.
    Mr. Inaba. Well, what we said in our testimony and have 
many other times, customer first is the thing that we have been 
doing. But we would have to make more focus on the customer 
concerns and complaints. And, for that matter, I think we also 
work closer with the NHTSA so that when we receive the customer 
complaints, we would like to know more about it. And then, 
also, some of the information has been or will be sort of open 
to us, including VIN numbers, so that we can trace back each 
one of the customers. As I said, this SWAT team could do that. 
So we are trying very hard to really put that word, customer 
first.
    Ms. Norton. First, let me say to you, I am going to ask you 
a question that I think every American who has a Toyota would 
want me to ask. And I can ask this because it is personal as 
well as congressional. I drive a Camry Hybrid. I switched to 
Toyota very reluctantly, because I wanted to buy an American 
car, and the Americans were not making hybrids almost at all or 
were so few that I went straight away to Toyota. Why? I didn't 
ask how much it cost. I was relying on this extraordinary 
reputation for quality and safety that had been built over 
generations.
    So I ask you, Mr. Toyoda, is there any chance that the 
Camry Hybrid will be recalled for any reason?
    Mr. Inaba. First of all, let me step in. First of all, 
Madam Chair, you are driving an American car. It is produced in 
America.
    Ms. Norton. It has Mr. Toyoda's name on it. You don't want 
to claim it anymore? You are disclaiming the car?
    Mr. Inaba. No, no.
    Ms. Norton. It was the Americans' fault?
    Mr. Inaba. No, no. Please. First of all, and also, now 
Camry Hybrid is not on the recall list.
    Ms. Norton. No, and I just want to find out if you expect 
it ever to be on the recall list for any reason.
    Mr. Inaba. I think you will be very safe driving the car. 
So that is all I wanted just before Mr. Toyoda.
    Ms. Norton. You stand behind the Camry Hybrid, Mr. Toyoda?
    Mr. Toyoda. Right now, it is completely safe. And every 
day, as customers continue to use those vehicles, they may come 
up with the new findings, but as I said, it is 100 percent safe 
at the moment. And for the customers to be able to feel safe in 
the car and so that ourselves be able to sincerely receive any 
voices of the customers anywhere in the world, we are now 
putting in place the structure worldwide to capture customers' 
voices wherever in the world. And we will listen to those 
customers' voices very humbly and modestly so that they will 
continue to be safe in our vehicles.
    Ms. Norton. Thank you.
    Mr. Inaba. Madam Chair, can I have one more? Because it 
was, I am afraid, misunderstanding. The Camry Hybrid is 
produced here, and a vast majority of the parts are coming from 
the United States. So that is what I meant as an American car.
    Ms. Norton. I just don't know what difference that makes. 
You need to explain that to me. Were the cars that have been 
recalled produced elsewhere, and that is the problem? Mine is 
safer because American workers did it and produced it? I don't 
understand the distinction. The cars that have the problem were 
from Japan?
    Mr. Inaba. No. The reason why I said why Camry Hybrid is an 
American car, because you did--bought an American car. That is 
what I meant, which is produced here, supplied here. And then 
so that is all I wanted to say.
    Ms. Norton. Many Toyotas are produced here and supplied 
here. Aren't they? We are pleased to have you produced and 
supplied here. But the worldwide reputation begins in Japan and 
stands behind wherever they were produced. Sometimes produced 
in Europe.
    Mr. Toyoda, I was impressed with your opening remarks. In 
fact, I am impressed with your being here, and I am impressed 
with some of what you have said you intend to do, because we 
are really going forward. I am trying in my own questions to 
get some sense of where we need to have confidence in Toyota 
and where there is still some questions.
    But in your testimony, you say, I would like to point out 
here, this is page 1 of your testimony--that Toyota's priority 
has traditionally been the following: ``First, safety; second, 
quality; and third, volume.''
    Now, I am going to ask you a question about what seems to 
be a fourth priority that is, for me, the most troubling aspect 
of this controversy, and that fourth quality is secrecy.
    To get to the heart of my concern about secrecy and the 
culture of secrecy, I would go to the data recorder, otherwise 
known as black box. Now, people in the United States are very 
familiar with airline black boxes because they know that in 
that black box is critical information. And if you get to it, 
get to it fast; you can find the cause. You can put--you cannot 
only respond to those who have been hurt, but you can put to 
rest some of the concerns as people begin to speculate what 
indeed caused this and they come up with sometimes wild 
conclusions. But that black box is critical.
    Now, other manufacturers, understanding just how important 
it is to get to the cause of the accident for all concerned, 
make the black box data available to download. I have had a 
hard time understanding, therefore, given the fact that your 
competitors make this data downloadable easily, I have had 
difficulty understanding Toyota invoking proprietary technology 
that allows only you, Toyota, on the spot to download. Why 
should we respect your proprietary technology any more than we 
respect the proprietary technology of other automakers, 
particularly given the safety aspects of this matter and the 
fact that an accident has already occurred? Why do you not want 
to clear the air as quickly as possible? On what basis do you 
invoke some proprietary technology interest when your 
competitors do not in the downloading area?
    Mr. Inaba. Let me respond to that question first that, yes, 
we know that the three manufacturers have this information, and 
then the reader is commercially available. Toyota is also 
making this----
    Ms. Norton. Wait a minute. What is commercially available 
and when?
    Mr. Inaba. The three. General Motors, Ford, Chrysler have 
this commercially available reader that is what you----
    Ms. Norton. Why don't you have such a reader?
    Mr. Inaba. We are in the process of making it available, 
commercially available, by probably the middle of next year, 
which is ahead of the law requirement, A; B, that this year, by 
April, in 2 months time, in less than 2 months time, we are 
going to make hundreds of units of readers available at any 
region, any area.
    The point is that, with the authority, also in the past 
request, we made it always open. Now, this is the information, 
the ETR information is the owner's information that, with their 
consent, we can make that information available.
    Ms. Norton. It was available if you were on the spot.
    Mr. Inaba. We did not hide it at the request of 
authorities, like police request or NHTSA request, or some 
other government and authorities request. We have made it 
openly.
    Ms. Norton. One, you came as if there was something that 
was so secret that even you had to be there in order for law 
enforcement and regulators to read it. I just don't understand 
the difference. Indeed, let me make sure I understand what your 
testimony is.
    Are you saying that the company is redesigning the black 
box so that it can be readable by law enforcement, by safety 
investigators, and consumers?
    Mr. Inaba. And owners of that. It is not--it should not be 
made available to anybody else unless there is a consent, to my 
knowledge, of the owners of the vehicle.
    Ms. Norton. You would not have to be--Toyota would not have 
to be present in order for the black box to be read. Is that 
true? Just like other manufacturers, you don't have to come to 
unlock the black box personally?
    Mr. Inaba. I don't know that technical detail to answer.
    Ms. Norton. Well, that is the whole point, sir.
    Mr. Chaffetz from Utah, you have 5 minutes.
    Mr. Chaffetz. Thank you.
    Mr. Toyoda, Mr. Inaba, thank you for being here. I very 
much appreciate it.
    Mr. Toyoda, do you believe you are being treated the same 
as other manufacturers in the United States of America?
    Mr. Toyoda. Yes, I believe so.
    Mr. Chaffetz. Do you have any reason to believe that other 
automakers are treated any differently by NHTSA?
    Mr. Toyoda. No, I don't think so.
    Mr. Chaffetz. If you could hand the document, please, to 
them. There is a document dated July 6, 2009. If you could take 
a look at this, please. This is an internal Toyota document 
dated July 6, 2009.
    Mr. Inaba, it has your name on it. My apologies if I 
pronounced it wrong.
    On page 7, which should be the second page, it says under 
the first bullet point: Changing political environment. Massive 
government support for Detroit automakers.
    Is that concerning? Why was that brought up?
    Mr. Inaba. This is one of--I explained already once part of 
it. This is one of my orientation, because I was a few days 
into this position, and this is prepared by Washington office 
to give me sort of a first look of it.
    I do not honestly recall all these notions. The only thing 
I said, also, recall, is the quiet car regulation, which struck 
me with a very strange feeling. But that was the only thing. 
But looking at all these papers, this suddenly does not 
represent the Toyota's overall guiding principle or belief.
    Mr. Chaffetz. On the second page, it is under key safety 
issues, and the first point it says: U.S. DOT NHTSA under Obama 
administration not industry friendly.
    Is that a compliment, or is that a criticism?
    Mr. Inaba. I can't comment on that.
    Mr. Chaffetz. What does it mean to you?
    Let me go to the last point, Mr.--perhaps both of you could 
take this. ``The new team has less understanding of engineering 
issues and are primarily focused on legal issues.''
    Can you explain what Toyota meant by that?
    Mr. Inaba. I still don't understand what the big difference 
between the two, engineer, legal. Both are involved anyhow.
    Mr. Chaffetz. Both what?
    Mr. Inaba. Both sides have been--will be involved in a 
discussion anyhow.
    Mr. Chaffetz. This is an internal Toyota document.
    Mr. Toyoda, how would you read this?
    Mr. Toyoda. I can't understand it.
    Mr. Chaffetz. My understanding is that both Toyota and 
NHTSA knew about this problem back as early as 2007, and yet it 
took so long to get it taken care of. Is there a regulatory 
component here that was slowing this down?
    Mr. Toyoda. Today I came to understand that this particular 
document was prepared as a part of the presentation material 
addressed to the new president. However, I do not know the 
background of this writing nor do I know how this document was 
prepared. And, therefore, I apologize, but I simply do not know 
the answer to your question.
    Mr. Chaffetz. Do you believe it is true? Do you stand by 
it, or do you want to distance yourself from it?
    Mr. Toyoda. Well, I need to understand this further. That 
is to say, I cannot understand the English written here.
    Mr. Inaba. Now 8 months into this position, I am beginning 
to learn myself and form my own opinion. So that is not 
consistent, or I am learning this does not represent my feeling 
today. And of course, I will learn more. I would like to build 
a very good relationship with NHTSA, and so that we can work 
together very good.
    Mr. Chaffetz. Do you--explain to me the negotiation that 
happens between an auto manufacturer and NHTSA. Often the word 
``negotiation'' is used. How does that work? What is negotiated 
in your----
    Mr. Inaba. I have met NHTSA officials twice. So I am not 
able to explain what the negotiation means. So it is still a 
little bit too premature for me to say anything. But, I don't 
know. Certainly negotiation doesn't sound like a good word. 
There is a discussion, yes. But also exchange of information, 
yes. And we oftentimes get the good guidance from NHTSA, from 
an official. We listen to it. We respect him. They ask us 
information. We provide them. So this is sort of like the 
nature of the relationship, as I understand. Whether it falls 
into negotiate or not, I can't--I don't know.
    Mr. Chaffetz. Do you believe, Mr. Toyoda, that American 
unions have an undue influence in this process?
    Mr. Toyoda. Since I haven't understood the content of this, 
I do not know how I should answer that question. I apologize 
for that.
    Mr. Chaffetz. Toyota hired some former NHTSA employees. Why 
would it be appealing to hire former NHTSA employees?
    Mr. Inaba. Well, first of all, those two gentlemen who came 
from NHTSA I know personally. So, of course, having----
    Mr. Chaffetz. How did you know them?
    Mr. Inaba. I just started meeting him more often because I 
am a president of that company and meet them.
    Mr. Chaffetz. Did you know them before they were hired?
    Mr. Inaba. No, I did not. So I am beginning to know their 
personality so their professional standard. So I have a very 
high respect for both gentlemen's professionalism and also 
ethical standard. So it doesn't matter whether they are coming 
from NHTSA or not. To me, it does not.
    Mr. Chaffetz. Do you believe that the relationship between 
NHTSA and Toyota or other manufacturers is too close, too cozy?
    Mr. Inaba. I don't believe so.
    Ms. Norton. The gentleman's time has expired.
    Mr. Kucinich of Ohio, 5 minutes.
    Mr. Kucinich. I thank the gentlelady.
    We have heard Mr. Toyoda say that Toyota grew too fast. It 
is interesting that is being told to us as we are investigating 
cars that are accelerating out of control. It is ironic, but I 
would submit perhaps a misleading parallel, because the problem 
is not that you were moving too fast but that you were moving 
too slow, too slow to recognize the material defects that put 
people's lives at risk, and too slow to have some internal 
questioning about the effectiveness of your own value 
innovation program, which in the mid-decade began slashing 
production costs so that you could reach a 10 percent operating 
profit. And then, when China came on into full competition and 
began dropping their price for parts, you began to cut your 
costs even more.
    And this committee hasn't really looked at the economic 
backdrop of the change--what appears to be a change in Toyota's 
culture but which may be, in fact, a kind of a cut-throat, 
corporate, competitive environment which caused Toyota to drive 
its costs down. And, as we know, everywhere, when costs are 
driven down, safety is also put at risk. There are 180 
different parts that you look at where you cut the cost by at 
least 30 percent, according to all industry reports.
    Now, Mr. Toyoda, to your knowledge, were there ever any 
discussions at Toyota that certain design or engineering flaws 
would create system failures that would result in unintended 
acceleration?
    Mr. Toyoda. You pointed out that, before I became 
president, the speed of growth may have been too fast. And I 
was referring to the fact that the growth may have outpaced our 
ability to develop and train human resources.
    And you also pointed out that the company may have become a 
finance-driven manufacturing company. And----
    Mr. Kucinich. You know, I understand your answer, but it is 
not responsive to the question that I am asking. Now, I want to 
be polite, but I also hope that you will answer the question 
that I asked, which is: Were there ever any discussions at 
Toyota that certain design or engineering flaws would create 
system failures that would result in unintended acceleration?
    That was my question, and I would appreciate the courtesy 
of a direct response.
    Mr. Toyoda. Whenever those issues of recall came about 
within Toyota, we had very serious discussion as to at which 
stage so-called unintended acceleration takes place.
    Mr. Kucinich. Well, let me ask a followup question, Mr. 
Toyoda. Have you ever been advised by your attorneys or 
business associates not to discuss any defects in the 
electronic throttle control system because such an admission 
would create such liability which would be financially 
devastating to Toyota?
    Mr. Toyoda. That has never happened.
    Mr. Kucinich. Mr. Inaba.
    Mr. Inaba. Never happened.
    Mr. Kucinich. You have had no discussions with your 
attorneys about matters of material defect in your products?
    Mr. Inaba. Nothing costs Toyota more than the loss of a 
customer's trust in our vehicles. From that perspective, we are 
as eager as anybody else to know if there is any problem on our 
ETC system.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Chairman Towns. The gentlemen from Indiana, Mr. Souder.
    Mr. Souder. I would like to make a couple of comments at 
the very beginning.
    First, I want to thank Mr. Inaba for visiting Warsaw, IN, 
to the new Toyota dealership there. That was a big thing for a 
small town. Dave Illingworth is running that, and that is in my 
district. And people were very excited to have you in.
    Second, I have some concerns about the way the hearing has 
been conducted. To some degree, it seems like we are having a 
hanging before the trial. Now, I am not saying that you are not 
guilty; I am just saying it seems by hauling you in here and 
the way we have handled this and by going through a lot of 
internal memos, there is a lot yet to be decided. And I am 
trying to get to the truth.
    I represent an auto area. We make parts through my whole 
district. Fort Wayne, IN, is the proud home of the Silverado 
and Sierra, who is in competition with you every day. So my 
goal is to sell GM products and Ford and Chrysler, but also I 
have suppliers to you. One in this district is CTS. It is right 
at the edge of my district.
    These two pedals have distinctly different problems. This 
longer one was having a slightly slow release, which means 
that, when you take your foot off, it comes up just a fraction 
of a second too slow. And it also, because it was longer, was 
sticking in floor mats. But nobody was killed from that. That 
was a standard recall problem where you say, OK, we are going 
to fix the part.
    This one, however, for whatever, whether it is electronic 
or whatever, the one from Densol, had acceleration. In other 
words, it wasn't that when you let go it went up; it was 
actually causing the car to go faster. And all of the death 
cases came from the Densol model, not the CTS.
    Because when you go through the models--and this is 
important for several things. Like Mr. Kanjorski, one of our 
concerns as American Congressmen is that you treat America like 
the rest of the world. And we are very concerned about memos 
that suggest you were addressing the problem in Europe and 
Japan before in the United States.
    The other thing is, in part suppliers, what is amazing in 
this story is that the American part supplier was actually 
delivering the safer model and that your subsidiary--and I 
don't know whether you are aware. A little after 3 o'clock, the 
FBI raided three Toyota suppliers, and one is this one that 
made the pedal that is causing it. And there is clearly going 
to be an investigation as to that.
    I also want to thank you, if you are going to be an 
American company, for working with our parts suppliers. I 
understand that you need multiple suppliers. And it is good to 
have the competition; that is how we get better things. I 
understand even why, as a corporation, you need to have legal 
protection, although you need to be honest about what is 
happening here. And partly, when we have hearings like this, 
more people file lawsuits, and you have to protect yourself and 
your stockholders, and I understand that.
    But in looking for safety, I encourage you to continue to 
look at the American suppliers, because, in this case, I don't 
know whether it was because you were trying to do cost controls 
internally on your historic system, but what I see happening--
and it is interesting when you match up these two models. What 
happened is, it isn't true that the American company was 
supplying your American-made vehicles, that you have been 
transitioning over, and where the problems were occurring were 
in the Densol model, and that you have moved 50 percent over to 
Camry starting in 2007, but the problems were pre-2007. You 
have now been moving Lexus over. And I am praising you, I am 
not criticizing you, for moving over. But it is more or less an 
acknowledgment that, while you had problems in this one, they 
weren't as great as this one.
    And I would encourage you, like others have, to look at 
whether there was some interaction in the type of pedal, 
whether it was the cruise control that did it or the 
electronic, or whether there is something inside here. Because 
you are addressing the snap-back. That is just a fraction, 
unless you catch your mat, which is partly--we have people 
sticking carpet under. You know, you can have any kind of 
pencil get under that affects that. But that is still different 
than this sudden acceleration.
    And I encourage you to continue. You have multiple 
manufacturing plants in the State of Indiana, which aren't in 
my area. Like I say, we are more the big three.
    I also want to encourage you, in addition to not treating 
us differently compared to Europe and Japan in safety questions 
and continuing to use American suppliers and doing your 
standards--I mean, the companies in my district are saying, 
when you come in, you are very aggressive in making sure that 
they have good standards, but to continue to do that.
    And I also encourage you--I am very discouraged that, a 
number of years ago, you said your goal was to be the No. 1 
auto supplier to Iran. Now, we have rules in the United States 
about supplying Iran, and I hope Toyota also reverses that 
position, because, as Americans, we are very concerned about 
that.
    I would welcome any comments.
    Mr. Inaba. Thank you for all of the suggestions and the 
advice.
    I must only say that we do not treat American customers any 
differently from Europe or Japan. And just a matter of timing, 
that there may be a difference in acting and reacting or 
resolving the problem. But there is no way that we can 
differentiate any American drivers from the rest.
    Chairman Towns. All right. The gentleman's time has 
expired.
    The gentleman from Illinois, Congressman Quigley.
    Mr. Quigley. Thank you, Mr. Chairman.
    My colleague from Ohio stressed that he raised a point to 
get a more specific answer, and I will briefly try to do the 
same thing as it relates to black boxes.
    Clearly, other manufacturers make this black box data 
available to download. At this point, Toyota has proprietary 
technology that allows only Toyota to download this data. Now, 
beyond adding more, the specific question is: Will your company 
redesign the black box so they can be readable by law 
enforcement, safety investigators, and consumers?
    Mr. Inaba. It is true that we have one dealer in the United 
States which can read EDR. And we have made a decision that we 
will have a hundred units of them made available by the end of 
April.
    Mr. Quigley. How will they be made available? To whom?
    Mr. Inaba. This is made by our supplier, so it is a Toyota 
technology. But let me carry on.
    By the middle of 2011, prior to the law requirement, we 
will make this reader commercially available in this market. So 
there are steps that we have to take, maybe because of 
technical reasons, but we are making it. Because for us, also, 
it is very important to know the reasons of any accident and, 
you know, getting into more technical detail of that. And, of 
course, we have been always open with all information to the 
authority's requests.
    Mr. Quigley. But the other manufacturers don't make these 
entities hurdle to get this. It is not proprietary, I mean, so 
they can do it themselves. You are still making it difficult, 
even if you add more readers.
    As you say, information is so important. And, as we talked 
about before, one of our big concerns here is we don't know 
exactly what is happening. Mr. Lentz yesterday said he is not 
certain that a recall would fully solve the safety problem. So, 
again, we are flying blind.
    And, with respect, I don't see that what you are talking 
about is a dramatic leap forward to improve how much 
information we are getting with these incidents as they take 
place.
    Mr. Inaba. The other manufacturers you are referring to is, 
to my understanding, to the best of my knowledge, it is only 
General Motors, Ford, and Chrysler, and no other makes are 
ready yet, I don't think. So I think we are still among 
earliest wave of that information available.
    Mr. Quigley. With respect, I think that it would behoove 
you and everyone who drives your vehicles, including my family, 
if you rethought that and advanced the efforts to make this 
information available far more quickly than it allows and even 
in the redress attempts that you are talking about now.
    Mr. Inaba. Yes, we are trying to, sir.
    Mr. Quigley. Getting to the main point that was made by Mr. 
Lentz, that he wasn't certain that a recall would solve these 
problems, it came down to the issue of electronics, and there 
is still a question there. What is your level of certainty as 
to whether electronics is a main cause of this problem?
    Mr. Inaba. Well, let me try my way.
    Mr. Quigley. OK.
    Mr. Inaba. My level of confidence is 100 percent. I think I 
have full trust in Toyota's engineers. Over 50 years, I think 
they have done a great job to bring the Toyota name up to here, 
and I have no doubt they are still doing it.
    So, of course, all the exhaustive testing done at Toyota, 
it is exhaustive, you know, in their mind. That is why we went 
outside. And if that is not enough, we are willing to stand--we 
are just in the process, just very close to announce what Mr. 
Toyoda referred to as an outside advisory board. This is going 
to be two very prominent--I can't name it as of now, maybe in a 
couple of days--two prominent safety experts leading the panel 
to investigate this ETCS of Toyota, you know, whether it is any 
problem or it is robust.
    And they can choose any outside laboratory to test it. So 
we are now hoping that we can answer fully so that you would 
understand. But we are willing to take that, sort of, test 
through this advisory. And they can also be an advisory board 
to our overall quality improvement. So this is what I wanted to 
say.
    Chairman Towns. The gentleman's time has expired.
    Mr. Quigley. Thank you.
    Chairman Towns. Congressman Fortenberry from Nebraska.
    Mr. Fortenberry. Thank you, Mr. Chairman, and thank you for 
coming today.
    Frankly, it is refreshing to see corporate executives show 
remorse in what is a very serious issue and to try to unpack 
the way to move forward to resolve safety concerns with your 
product.
    With that said, I would like to ask one question and then 
perhaps propose a creative opportunity for you to consider.
    Is your corporate culture in America different than your 
corporate culture in Japan, so that the corporate culture in 
America is impeded from responding more quickly to safety 
concerns?
    Mr. Inaba. If I understand your question correctly, is 
corporate America culture different from Japan at Toyota; is 
that the question?
    Mr. Fortenberry. It would be helpful to have an 
understanding if your corporate culture in America is fully 
free and independent to be able to respond quickly to the 
safety problems that are presented to them here?
    Mr. Inaba. Well, of course, there is a difference because 
our corporate culture in America is very much composed of so 
many Americans. The vast majority is of Americans, so there may 
be a difference. But at the same time, it is amazing that we 
see a lot of camaraderie. I personally see a lot of camaraderie 
because I have worked in this country for 9 years. So I have 
seen many of the Toyota associates here, including our leaders, 
and the corporate culture is very, very similar to my surprise 
to that of Toyota in Japan.
    But there is also a difference in communication, I have to 
admit. And there is sometimes a lack of communication because 
of the language differences, because of the cultural 
differences, too.
    So here I am being a head of this North American operation. 
I am called half American, half Japanese, so I think I can 
bridge that gap very easily so our corporate culture of 
customer first, and then honest and transparency should be kept 
intact.
    Mr. Fortenberry. So there is nothing in the American Toyota 
corporate system that is not free or is impeded by the dominant 
corporate culture in Japan to quickly address safety issues?
    Mr. Inaba. It would be fair to say that there are none, but 
there are always differences. I think my job is to sort of even 
it.
    Mr. Fortenberry. One of the significant issues here is the 
unintended sudden acceleration. Your executive yesterday 
suggested what you are doing may not totally fix the problem. 
Now, in that regard, unintended acceleration has affected other 
car manufacturers, so I would suggest to you that you have a 
potential opportunity here as the dominant player in worldwide 
manufacturing, certainly one of them, to perhaps lead on a new 
way of thinking about this safety problem, working perhaps in a 
consortium with other manufacturers, your very competitors, 
working with the U.S. Government, to think more creatively and 
perhaps do the research and collaboration that shows that it is 
this mechanical problem that we were demonstrating earlier; or 
is there some electrical issue that has not been discovered yet 
that more collective minds working together could actually 
discover and broaden the impact of the safety changes for the 
entire car industry?
    Mr. Toyoda. As the Congressman has just pointed out, 
throughout the world, Toyota has been deploying business and 
pursuing business in the world. I believe the corporate culture 
for things that we treasure very much are commonly shared 
anywhere in the world.
    However, different regions do have its own culture, its own 
customs, and local people of a specific country work for a 
company, and we deliver our products to customers in the local 
markets. In that sense, I have been thinking since April that 
we will give greater initiative to different regions of the 
world, for example, by emphasizing more the culture of the 
United States or the customs here.
    Chairman Towns. The gentleman's time has expired.
    I recognize the gentleman from Illinois, Congressman Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    And I thank you gentlemen for appearing before the 
committee.
    Mr. Toyoda, for years, there have been complaints pouring 
into your company about unintended acceleration problems in 
your vehicles. Your own field technicians in Europe were 
alerting you that something in the accelerator pedal was 
causing cars to speed up uncontrollably more than a year ago.
    When did Toyota first learn it had a problem with sudden 
unintended acceleration? And why did it take you almost a year 
to bring this to the attention of regulators and even more time 
to tell the public about the problem? Is there some policy in 
your company that prevents you from alerting regulators as 
quickly as possible about a problem or the public so that we 
all become aware?
    Mr. Toyoda. In the name of our company's tradition and 
pride, I can clearly say that whenever a problem arises, Toyota 
pursues the facts thoroughly and rigorously and looks into 
those matters in great deal. In doing so, our fundamental 
approach and stance is to give the highest priority to 
customers' safety and convenience. And in relation to that, 
once that is accomplished, we provide and create products that 
also satisfies the mandate of the times, for example, in 
conserving environment or existing in harmony with nature.
    Now, with respect to your specific question of when we 
learned of this problem, I do not know when we learned of this 
problem, but I do hope that you would understand the basic 
stance and attitude of the company which I described.
    Mr. Davis of Illinois. Reports were actually surfacing 
several years ago, and yet it appears there was no significant 
effort to deal with it until the accident in California. Do you 
feel that your company acted quickly enough to begin to address 
the issue in a way that regulators and the public would know 
that you were doing so?
    Mr. Toyoda. As it turned out in this particular case, the 
response, according to information, was not quick enough. 
However, going forward, we will establish the framework very 
firmly and diligently so that we will not betray your 
expectations in that regard. I will personally take leadership 
in putting in place the structure that will enable us to 
capture information from the local areas concerned in a more 
timely manner.
    Mr. Davis of Illinois. Media reports suggest that your 
company knew for at least a year about the sticking pedals 
before you shared that information or until you communicated 
that information to the regulators. Do you think that was 
perhaps a lengthy bit of time to tell regulators if the company 
knew?
    Mr. Inaba. Now I know this sticky pedal situation is in 
question. And yes, we knew that probably a year ago in Europe. 
And I say that had not been shared enough well on this side. So 
we did not hide it, but it was not properly shared. We need to 
do a much better job in sharing. Whatever is happening in 
Europe should be known in the United States so we are all 
alert. See if there is any danger to American consumers and 
drivers.
    The other issue is the first information we get to know in 
Europe was all right-hand drive cars, and also different 
models, much smaller models than those models sold here. That 
is why initial judgment, which was wrong, turned out to be 
wrong, but it was limited to a right-hand drive and it was much 
smaller cars. So there is a lack of you may call it 
sensitivity, but there is no deliberate sort of delay in the 
process.
    Mr. Davis of Illinois. Well, let me just say that I 
appreciate your answers, and I thank you for indicating that 
you expect to do a better job. I am always reminded of my 
mother, who told us when I was a kid growing up that what you 
do speaks so loudly until it is hard for me to hear what you 
say. So I hope your actions will be forthcoming, and I thank 
you for your answers.
    Chairman Towns. I thank the gentleman from Illinois.
    Now I call on the gentleman from California, Congressman 
Bilbray.
    Mr. Bilbray. Mr. Inaba, you made a comment that kind of was 
startling to me, and I apologize that you have to testify in a 
second language and in a setting that may not be as comfortable 
for you as you prefer, but you stated that you had 100 percent, 
you were 100 percent sure that the difficulties with the 
pedals, with the acceleration, was not electronic, that it was 
not going to be involved with the data systems, that it was a 
physical problem. Do you stand by that statement?
    Mr. Inaba. Sir, may I clarify what I meant because the 
question I thought was, are you personally, what is my 
confidence level about ETCS, the Electronic Throttle Control 
System. So my feeling is, since I have a trust in our 
engineers, even though it has not been extensively tested by 
outsiders, which I added, but my personal confidence level is 
100 percent. But I am only referring to the ETC system, sir.
    Mr. Bilbray. Because it does concern me when anybody can 
say anything to 100 percent. It is one thing to stand behind 
their vehicles; it is another thing to ask the American people 
to stand in front of them, especially with their children; 100 
percent is a very strong statement. It is fine to say it here 
in these hearings, but out in the real world, we have had some 
terrible tragedies.
    I just want to make sure, being a Representative in San 
Diego, where the tragedy that finally opened up this book 
caused not only Toyota but the American community to be willing 
to ask the tough questions that I don't think have been made.
    Mr. Toyoda, your family has spent decades creating a 
reputation that is second to none, probably only compatible 
with the inventor of the automobile themselves. The big 
question is, do you think there is a possibility that 
reputation being so good might have made those of us who were 
regulators not ask the tough questions that we might have asked 
from General Motors or some other automaker, or that same 
reputation and feeling of success and confidence might have 
left Toyota not to ask the tough questions of yourself? In 
other words, your success created the problem or created the 
atmosphere and the environment that allowed this problem to go 
on from 2007 until just recently?
    Mr. Toyoda. I personally do not believe that we didn't ask 
tough questions because we had very high reputations. Since I 
became president in July, I have been saying internally within 
the company that we need to heed customers, dealers, and we 
need to become a good listener. But because of the inadequacy 
on my part probably, that ability itself may not have spread 
widely within the company. But for the past 70 years, we have 
been supported by customers and by our partners because Toyota 
has been a company that listens to those opinions of outsiders 
very modestly and sincerely. You have my commitment that we 
will continue doing so going forward.
    Mr. Bilbray. Look, the damage done to the Toyota name will 
do more--will impact Toyota more than anything this Congress 
can do. The consumer and the market will demand a very high 
price from Toyota for these mistakes. The question is, how do 
we prevent it in the future for Toyota and everybody else? Do 
you agree that the Federal Government of the United States 
should require all manufacturers, including Toyota, to report 
all incidents of malfunctions no matter where in the world 
those occur, not just here in the United States?
    Mr. Toyoda. I personally believe that realistically there 
are limitations to the current engineering capability. However, 
Toyota has a challenging spirit to make things better or to 
correct inadequacies or troubles wherever that may happen. In 
going forward, we will continue to strive to minimize those 
troubles as close as possible to zero by examining each 
individual reported cases, putting them under scrutiny, and 
making public any findings in that process. And we would like 
to work together in this industry.
    Mr. Bilbray. Mr. Chairman, in all fairness, I would just 
like a yes or no. Should the Federal Government of the United 
States require Toyota and every other manufacturer to report 
total malfunctions, not just those within the jurisdiction of 
the United States; yes or no? Should we require all 
information, or shouldn't we? What is the position of Mr. 
Toyoda?
    Mr. Toyoda. We would like to extend full cooperation.
    Mr. Bilbray. So we will take that as a ``yes.''
    Mr. Toyoda. Yes.
    Chairman Towns. Thank you very much.
    I now yield 5 minutes to the gentleman from Texas, 
Congressman Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    I represent the San Antonio area down to the valley where 
we have a Toyota plant. Currently, right now, there's about 
2,600 hardworking Americans in the San Antonio area plant where 
they are jobs and family livelihood. I see Jay here, which I 
visited, and a couple of other folks here. We are asking you to 
put Toyota back on track so American jobs are not put in 
jeopardy. And American drivers that are at risk we have to 
address.
    It is my hope that you move swiftly and safely to repair 
the safety problems, rebuild the reputation and restore the 
Toyota legacy which employs Americans here at home. American 
drivers and American workers are watching and waiting. Toyota 
has a glowing legacy in this country for decades. For the sake 
of safety and for the sake of jobs, you all need to get that 
back. In this country we have American-made Toyotas made by 
American workers with American drivers behind the wheel. The 
responsibility Toyota has to Americans runs wide and runs deep, 
and this is about safety, and this is about jobs.
    As I mentioned, in my area, 2,600 local jobs, doesn't 
include the onsite local suppliers, which is about 6,500 when 
you put everybody. It doesn't include the Toyota dealers. So 
millions of Americans also drive your vehicles. As I mentioned, 
I met with Jay. I met with a couple of other folks, one of your 
Toyota forklift operators in San Antonio, and she said, even in 
this type of recession, Toyota has not laid anybody off. They 
have spared the employees that are still working. And we 
appreciate that.
    But without a doubt, your ability to repair your reputation 
in this country will affect American workers and drivers who 
depend on Toyota. One of the things that I want you to look at, 
because in fairness to all, when you look at the NHTSA numbers, 
you see--I don't want to go, but you can see there, you know, 
one company was at 32 percent. And I have handed this chart 
out, Mr. Chairman. Another one was at 17 percent, and another 
one was 15, and other, which means combined one, and then 
Toyota was at 11 percent. In the past, you were doing well, 
very well. But, again, we now have to look at, what lessons 
have we learned? So my question, Mr. Toyoda, what lesson has 
your company learned as a result of this recall?
    Mr. Toyoda. This past data clearly places high evaluation 
to our track record. However, currently we are having a series 
of recalls. The brake system or accelerator pedal has caused 
concerns. But we are examining those matters, pursuing the true 
cause of those problems, identifying countermeasures. And going 
forward, we will make sure that we get information more 
swiftly. Therefore, I will clearly say that, going forward, we 
will regain the good reputation as represented here in this 
track record. That's exactly what we are doing at the moment.
    Mr. Cuellar. Mr. Toyoda, in your major editorial that you 
wrote recently, you said that Toyota, paraphrasing your words, 
has not lived up to the high standards it set for itself. How 
has your company not lived up to those high standards?
    Mr. Toyoda. First, above anything else, we will make double 
commitment with new vigor to have safety and customer first 
permeate through every business and through every process 
within Toyota. That I believe would be the best way for us to 
win back the trust that we enjoyed in the past.
    On top of that, as we deploy business globally, we will 
make every effort to enhance the transparency of our business 
in various parts of the world.
    Chairman Towns. The gentleman's time has expired.
    I call on the gentleman from Tennessee, Congressman Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman. Yesterday a 
woman named Rhonda Smith testified at the Energy and Commerce 
Committee. She is from east Tennessee, from just outside my 
district, which is based around Knoxville. She was driving into 
Knoxville in her Lexus automobile on October 12, 2006, 3\1/2\ 
years ago, and she experienced one of these sudden acceleration 
events and that her automobile reached 100 miles an hour. And 
she said that she thought it was her time to die, and she said 
she called her husband and tried to put the car in reverse but 
the computer apparently didn't recognize it. She feels that 
Toyota's response to her complaints was a farce because Toyota 
apparently told her there was nothing wrong with her car.
    Our investigators for the Energy and Commerce Committee and 
this committee found that complaints started coming in about 
these events in 2001, and NHTSA started an investigation 
apparently in 2004 aimed at Toyota. Now 2004, you know, I don't 
know, that is 6 years ago if the investigation started early in 
the year; maybe 5\1/2\ years ago if it started late in the 
year. But Mr. Toyoda has said several times today that he just 
became president last summer, as if that excuses him. Mr. 
Inaba, though, became head, as I understand it, 9 years ago of 
the U.S. Toyota operation.
    Now one of my sons had a Toyota 4Runner several years ago, 
and my wife drove a small Lexus until about 2 years ago, and 
both of those were very good automobiles. And I think you have 
a very good company and put out almost entirely good 
automobiles. I have a good impression of your company.
    But having said that, I don't believe I have heard a good 
answer today, and I have been in and out some, but I don't 
believe that I have heard a good answer or a complete answer as 
to why it took your company so long to respond to these 
complaints, because apparently there were many complaints. I 
have seen it described as several hundred. I have seen it 
described as a few thousand. I don't know which it is, but 
there were many, many complaints. And I appreciate the fact 
that you have expressed remorse and that you say that you are 
going to do better. Why was there not a response before now 
when you had all of these complaints?
    Mr. Toyoda. I listened to the testimony by Ms. Smith 
yesterday, and I feel very sorry and regret for the fact that, 
while she was driving a car, such a huge anxiety was caused to 
her. And at the same time, I apologize for the response by the 
dealer, which is not really up to our standards.
    Now as to why it took us so long, well, in order to 
accelerate our response going forward, I have established the 
Special Committee for Global Quality, and we are now setting up 
the framework so that the first meeting can take place on March 
30th. We have deeply reflected on what has happened thus far. 
We learned a very important lesson from what has happened, and 
to take actions for improvement as quickly as possible I think 
is the job that I really have to attend to at the moment.
    Mr. Duncan. Well, let me just say this. I understand there 
are no Americans in the top leadership of Toyota in Japan. You 
can say there are many Americans in the top leadership here, 
but it might be a good idea to put a couple of Americans in the 
top leadership in Japan.
    Thank you, Mr. Chairman.
    Chairman Towns. The gentleman's time has expired.
    I now recognize Congresswoman Speier from California.
    Ms. Speier. Thank you, Mr. Chairman.
    My question is to both the president and the CEO in the 
States. Have you turned over every document to NHTSA that 
relates to the sticky pedal and the sudden unintended 
acceleration?
    Mr. Toyoda. I believe so. That's my understanding.
    Ms. Speier. So there is not going to be any suppressed 
document or secret document that we are going to hear about a 
year from now?
    Mr. Toyoda. That won't happen.
    Ms. Speier. Now the people of Japan are very hospitable. I 
know that for a fact. This is the No. 2 most important market 
for Toyota in the world. When a U.S. regulator flies to Japan 
to meet with your leadership, I find it hard to believe that, 
one, you didn't know about the meeting; and, two, you never had 
a report about the meeting. Can you respond to that?
    Mr. Toyoda. That's a fact, and I regret that the response 
in that matter was not good.
    Of course, there are things that we reflect upon, but I 
believe that the people in the quality division responded to 
that very adequately. That is my understanding, and I hope your 
understanding.
    Ms. Speier. I would like to ask you to turn over to the 
committee any documentation, any memos that arose out of that 
meeting by the regulators in the United States coming to Japan.
    Mr. Toyoda. I will do that.
    Ms. Speier. Now, I want to read to you an e-mail that I 
received from a constituent who owns a Toyota Tacoma truck that 
they purchased in 2008: ``Soon after we bought the truck, we 
began to notice that the engine would surge when we were 
stopped and had our foot on the brake. We took the truck into 
the dealer as soon as we started to notice these problems. We 
returned at least three more times with the same problem. They 
had a service person test drive it. They told us they were 
unable to duplicate the problem. My wife finally asked to speak 
to the head of the service department, and he told her that the 
truck needed to get used to her driving style and to give it a 
few months to make the adjustment.''
    In exasperation, they went to the Internet. They found 
similar complaints.
    ``We told the service people at the agency about what we 
found on the Internet, and they said that they had contacted 
Toyota, and Toyota told them that they had never had a 
complaint of that nature we described. They continued to blame 
the problem on my wife.''
    Now, I would like for you to review this particular 
complaint and report back to me. But more importantly, I hope 
that, moving forward, you never again use the excuse that it 
was driver error.
    Mr. Toyoda. I didn't know about this Tacoma case, but we 
would like to give due explanation on that through documents or 
other means. And as CEO of the company, I will make sure that 
we will never, ever blame the customers going forward.
    Ms. Speier. Thank you.
    One last question. You said, safety first, Mr. Toyoda. We 
know that the electronic throttle control may be problematic. 
You have already decided to put the override, the brake 
override chip into models moving forward. You are going to do 
it for some models retroactively. Would you be willing for a 
customer who came into your dealership to offer that chip to 
anyone who had concerns about the safety of their vehicle?
    Mr. Toyoda. I do not know the technical details, but if it 
is technically and engineeringly possible, or if we can find a 
good method, we will do that. But other than that, I do not 
know a good answer to that.
    Ms. Speier. All right, thank you.
    Chairman Towns. I now call on the gentlewoman from Ohio--
I'm sorry, California--Congressman Watson.
    Ms. Watson. Thank you so much. May I say to you, kunnichiwa 
and aligato for your testimony. Mine is more a comment. And, 
Mr. Chairman, I'm going to concede my time because we do have 
another panel and there's another committee waiting for this 
room. But currently, about 8 million Toyota vehicles have been 
recalled in this country due to the sudden, unintended 
acceleration events and braking concerns. I hope that the 
interest shown here in America will be taken back so that you 
can fix whatever is causing this. And we hear it's computer-
driven, these causes. So I would hope--and there is a saying 
that Kaiser Permanente uses--I hope we all thrive. I hope you 
thrive. But we are concerned about the victims that are going 
to be the next panel up. And I was hoping that we could get 
both panels together so they can explain what happened to them 
and you can comment.
    But a word to the wise. And that is, listen closely, make a 
commitment to go back and make the decisions at the top so that 
your particular product will be, again, No. 1.
    With that, I will say [speaking in Japanese.]
    I will yield back my time.
    Chairman Towns. I thank the gentlewoman from California for 
yielding back her time. I recognize now the gentlewoman from 
Ohio.
    Ms. Kaptur. I thank you, Mr. Chairman.
    Mr. Toyoda and your associates, thank you for coming today. 
Mr. Toyoda, I am not satisfied with your testimony. I'm being 
very forthcoming. I do not feel it reflects sufficient remorse 
for those who have died, and I do not think you have accurately 
reflected the large number of complaints that have been filed 
with Toyota for nearly a decade. So I, as one member, am 
disappointed.
    I dedicate my testimony in memory of Mrs. Guadalupe 
Alberto, age 76, from Flint, MI, who died when her 2005 Toyota 
Camry sped out of control and crashed into a tree. Business 
Week reports: She blew past an intersection. Witnesses saw her 
with both hands on the wheel. She appeared to be standing on 
the brake while steering.
    Where is the remorse? As far back as 2002, NHTSA--and our 
government is at fault, too--records that two Toyota 
executives, Christopher Tinto and Christopher Santucci, both of 
whom were former NHTSA employees, hired by your company, worked 
with their former coworkers, Scott Yon and Jeffrey Quandt, at 
NHTSA when it decided it wouldn't investigate what they termed 
``longer duration incidents'' involving uncontrollable 
acceleration, I call it ``sudden death'' acceleration, where 
brake pedal applications allegedly had no effect. NHTSA limited 
its investigation to those situations where it was a second, or 
under a second. That was a major decision that affected lives 
all through the decade. So I am disappointed.
    This book, ``The Toyota Way,'' is used in business schools 
across this country. And the author talks about your company's 
principles. Principle No. 5 reads: Build a culture of stopping 
to fix problems to get quality right the first time. The first 
time.
    Mr. Toyoda, how did Toyota lose its way? You say in your 
testimony your company grew too fast. Some smart lawyers gave 
you those words. I think what happened was your company went 
from emphasizing long-term quality values and corporate 
responsibilities to fighting against safety regulations; 
against insider influence inside this city and your own capital 
in Japan; and environmental regulations; and, indeed, worker 
rights and car checks inside your company.
    So is it the Toyota way to use insider dealing to change 
decisions and is it the Toyota way to push a deregulation 
agenda that works against the interest of the people of our 
country and other countries? Do you know how many people in 
Japan died because of what your company did?
    Mr. Toyoda. Not just limiting to those individuals you 
specifically mentioned, I feel deeply sorry for those people 
who lost their lives or who were injured by traffic accidents, 
especially those in our own cars. And I extend my sincerest 
condolences to them from the bottom of my heart.
    I came from Japan to appear at this hearing, but at the 
same time I have been trying to convey my sincere feelings, my 
own true beliefs to the people throughout the world, but the 
fact that you said that was not adequate is something that I 
will seriously reflect upon.
    As we pointed out, the devotement of people, human 
resources at Toyota, may not have kept pace with expansion. I 
will observe that and look at that fact very sincerely. And 
going forward to bring about and effect changes to become a 
better car maker and to become a more transparent car maker, I 
think, is a real admission of myself as president.
    However, some customers of Toyota, as a matter of fact, 
many customers of Toyota around me say that they are willing to 
continue buying Toyota vehicles going forward. And as long is 
there are such customers, feeling and accepting the gravity of 
those victims of traffic accidents, I think it is my 
responsibility to care for those customers and create cars for 
those customers, and I believe that I'm the only person who can 
display the leadership to transform Toyota in that direction.
    Chairman Towns. The gentlewoman's time has expired. I yield 
5 minutes to the gentleman from Missouri, Congressman Clay.
    Mr. Clay. Thank you so much, Mr. Chairman, and I thank the 
witnesses for being here.
    Mr. Toyoda, yesterday David Gilbert, associate professor of 
automative technology at Southern Illinois University, 
testified that Toyota has an electronic problem, a conclusion 
he derived from testing that only took him 3\1/2\ hours. I'd 
note that his credentials are significant. He is very qualified 
to do this testing.
    Toyota has announced that to help solve this problem, 
Toyota will begin to install brake override systems on your 
cars. Isn't it true that if what Dr. Gilbert testified to, that 
Toyota has an electronics problem, you cannot be certain that a 
brake override system would even kick in and work when your 
electronics malfunction?
    Mr. Toyoda. With respect to this problem of electronic 
throttle control system, I gave instruction to conduct thorough 
duplication and reproduction tests. We have conducted, 
actually, numerous reproduction and duplication tests on a 24-
hour basis, but thus far we have not identified any problem 
with our ETC system.
    I know of this testimony given by Professor Gilbert 
yesterday, and I personally do not know the details of what 
sort of testing he conducted. But just the confrontation 
between Toyota and Professor Gilbert will not clarify which 
side is correct, and this means that there are problems that 
have not been resolved for the entire industry. And therefore 
in the open forum, to validate the situation, we are willing to 
conduct testing together so that our customers will be able to 
feel safe in the vehicles as quickly as possible. And Toyota is 
ready to extend cooperation in that regard.
    Mr. Clay. Thank you. Yes, sir.
    Mr. Inaba. Please allow me. I have a little more 
information about that. I will be glad to meet with him or have 
him meet with our engineers and then explain his method, test 
method. And if there's any input that he may have, we are 
willing to listen to any input he has for the UA issue.
    But we have some concerns. As far as we know, and our 
engineers gave us some concerns about it, because he cut into a 
circuitry and then manipulated the system in a way that is very 
unrealistic. And, also, in the meantime, with a very short 
time, we have conducted if some other manufacturers' cars would 
perform the same. We have done three cars done already with a 
very low UA rate. In other words, they are considered to be a 
very safe car. It replicated the same way. So in my very 
amateur term it is not unintended acceleration, it is an 
intended manipulation.
    Mr. Clay. So you have determined it's not electronic. But I 
would hope you would get with Professor Gilbert.
    Mr. Inaba. Absolutely.
    Mr. Clay. And compare your notes, compare your testing, to 
make a determination on whether it is or isn't.
    Mr. Inaba. Yes, sir.
    Mr. Clay. Thank you.
    Chairman Towns. The gentleman's time has expired. Now 
calling on the gentleman from Ohio, Mr. Driehaus.
    Mr. Driehaus. Thank you, Mr. Chairman.
    I want to thank our witnesses for their time today and for 
coming in and testifying before the committee.
    Mr. Inaba, I'm concerned about some of what you say in your 
testimony relative to what we have learned about Toyota 
employees and former NHTSA employees.
    As has been explored by multiple Members here today, there 
seems to be a conflict or there certainly seems to be an effort 
on the part of former NHTSA employees, now employed by Toyota 
or formally employed by Toyota, to put a halt to some of these 
investigations. And I will just refer to the Business Week 
article on February 12th. It said: In one example of Toyota 
aides' role, Mr. Santucci testified in a Michigan lawsuit that 
the company and NHTSA discussed limiting an examination of 
unintended acceleration complaints to incidents lasting less 
than a second.
    That is what Representative Kaptur was referring to.
    It goes on to say that: All four of the probes the Toyota 
aides helped end were into complaints that the unintended 
acceleration was caused by flaws in the vehicle's electronic 
throttle systems.
    Do you believe that had these efforts not been made to 
limit these investigations, that Toyota as a company would have 
reacted more quickly and NHTSA would have reacted earlier to 
some of the problems that we are now addressing today in terms 
of the number of accidents and the severity of these accidents?
    Mr. Inaba. Well, I don't know any of the specific incidents 
or occurrence that you have mentioned. But, as I said, I think 
I believe in two of our associates' very high ethic standard, 
and also their integrity. So I have all good reasons to believe 
in that, rather than just hinting that they may have some 
relationship and favor us. I think they have done--and also the 
NHTSA part. They are very, very professional team of people.
    Mr. Driehaus. Just to followup. So you're suggesting that 
they didn't engage in this behavior to try to limit the 
investigations? Is that what you're saying?
    Mr. Inaba. All I'm saying is that whatever they have done 
is within the very good ethical sort of code.
    Mr. Driehaus. My question, though, is if the investigations 
had not been limited, if the investigations had not been 
limited, would we have addressed the situation earlier than we 
are today?
    Mr. Inaba. I think it is a very issue that, you know, since 
I don't know the conversation or event, I would not make any 
more comment on that.
    Mr. Driehaus. Also, Mr. Inaba, in your testimony earlier 
you suggested that the information in Europe with regard to 
some of these challenges wasn't shared with folks in the United 
States. I personally find that hard to believe; that Toyota 
here in the United States was unfamiliar with what was going on 
in terms of recalls and addressing sudden acceleration problems 
in Europe.
    So I just want to make sure that I have this right. So you 
are saying that Toyota America was not aware of the efforts by 
Toyota to address the sudden acceleration issues in Europe when 
that was going on?
    Mr. Inaba. Well, I must say that it is, we call in our 
term, sticky pedal issues. I think the truth is that Toyota 
American site was not aware of that or was not informed of 
that. That is true. That is all I know.
    Mr. Driehaus. So when that was going on, when those 
complaints were being addressed, when solutions were being 
created and a recall was taking place in Europe, you were 
unaware of that here in the United States?
    Mr. Inaba. I personally got to know that fact in January 
this year.
    Mr. Driehaus. I will just conclude with a case. And I'm 
encouraged by the fact that my folks in Cincinnati, when I went 
to the Toyota dealership and I went to the service department, 
said they hadn't seen any of these complaints. But then when I 
went back and looked at the NHTSA record, it was pretty clear 
there were multiple complaints about sudden acceleration.
    I will just reflect upon this one that I saw, and it's a 
complaint from 2009. The gentleman says: I bought my 2005 
Tacoma about 2 months ago. I've experienced this problem three 
times now, the last time being tonight after picking up my 
daughter at work. The truck was accelerating and I was 
literally standing on the brake and the engine was racing and 
would not stop. I threw it into neutral and it sounded like it 
was going to explode. I have no rugs in the vehicle. It did not 
come with any, and I was going to get all the weather mats but 
have not bought them yet. The cruise control was not engaged. I 
do not consider myself to be an inexperienced driver. I used to 
race, actually.
    And he goes on.
    But, clearly, this isn't a mat problem, this isn't a sticky 
pedal problem. This is a problem with an experienced driver 
experiencing sudden acceleration. And this is in a 2005 Tacoma. 
I think we certainly as a Congress want to know, and I think 
the American people want to know, if their vehicles are safe, 
and if you can stand here today and tell us that they don't 
risk--because of a computer issue or an electronic issue--
sudden acceleration in Toyotas that are on the street today.
    Mr. Toyoda. I do not know of the Tacoma case of 2005 or 
2009, and therefore without knowing those specifics, I cannot 
give you any specific answer.
    But if I might just refer to electronic throttle control 
system. To the extent that we have conducted various tests thus 
far to date, we have not encountered the same phenomenon as a 
result of that test and therefore I believe the vehicle is 
safe. However, going forward we are willing to work together in 
an open forum with the industry partners to validate the 
situation, introducing opinions of other people, including 
Professor Gilbert, for that matter.
    Chairman Towns. The gentleman's time has expired.
    Let me say that, first of all, I really, really appreciate 
your coming to testify. We really appreciate that. We look 
forward to your followup on the safety issue because, as I 
indicated to you, this is what this is all about. It's about 
safety, making certain that people get in their cars, that they 
are safe. I hope that you continue to work on that.
    Let me say to you, Mr. Toyoda, I want you to know that I'm 
impressed with the fact that you came voluntarily before the 
committee to testify. I want you to know that, to me, that 
indicates your commitment, indicates your dedication, and that 
you're serious about making certain that these autos are safe. 
So I want to thank you for that.
    I also want to thank you, Mr. Inaba, for your being in 
touch and understanding the fact that this is a serious issue 
that must be addressed.
    Anything else?
    Mr. Issa. Mr. Chairman, if I could just echo your words and 
say a great many promises were made here today, commitment for 
change. We look forward to seeing that. As somebody who has 
worked with the Society of Automotive Engineers for many years, 
I look forward to that change being spread throughout the 
design industry in QS9000 and other standards, because I 
believe that what we have begun here today is going to be 
critical for all automobile manufacturers, particularly as we 
put more electronic systems in the car. I, again, thank you for 
your great distance and your patience through this long day.
    Mr. Chairman, I would ask unanimous consent that both of 
our booklets of inclusions be put into the record at this time.
    Chairman Towns. Without objection.
    I recognize the gentlewoman from Ohio.
    Ms. Kaptur. Thank you, Mr. Chairman. I just ask unanimous 
consent to include materials in the record attendant to my 
questioning.
    Chairman Towns. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.023
    
    [GRAPHIC] [TIFF OMITTED] T8346.024
    
    [GRAPHIC] [TIFF OMITTED] T8346.025
    
    [GRAPHIC] [TIFF OMITTED] T8346.026
    
    [GRAPHIC] [TIFF OMITTED] T8346.027
    
    Chairman Towns. So thank you very, very much for coming.
    Now we go to our third panel.
    The committee will come to order. I would now like to 
introduce our third panel of witnesses. Mrs. Lastrella, welcome 
to the committee. Mrs. Lastrella lost family members in a car 
accident involving a Toyota vehicle. I want you to know you 
have our deepest sympathy. I know how tough it is when you lose 
a loved one. So thank you so much for coming.
    Mr. Haggerty experienced a sudden unintended acceleration 
in a Toyota vehicle. I can imagine what that's like. So I want 
to thank you, too, for coming today. I imagine that experience 
of all of a sudden your car takes off. I can imagine.
    Mrs. Claybrook, a former Administrator of the National 
Highway Traffic Safety Administration and president emeritus of 
the Public Citizen. Welcome. We're so delighted to have you and 
your experience that you could share with us.
    Mr. Ditlow, the executive director of the Center for Auto 
Safety. We are delighted to have you with us as well.
    So what we will do is just start with you, Mrs. Lastrella, 
and just come right down the line. You have 5 minutes. Of 
course, when you start out, the light is on green, and then it 
turns to yellow, and then of course it becomes red. Red 
everywhere means stop. So we will stop with that.
    Mrs. Lastrella, you start first.
    I have to swear you in, too.
    [Witnesses sworn].
    Chairman Towns. Let the record reflect that all the 
witnesses answered in the affirmative.

STATEMENTS OF FE NIOSCO LASTRELLA, LOST FAMILY MEMBERS IN A CAR 
     ACCIDENT INVOLVING A TOYOTA VEHICLE; KEVIN HAGGERTY, 
EXPERIENCED SUDDEN UNINTENDED ACCELERATION IN A TOYOTA VEHICLE; 
JOAN CLAYBROOK, PRESIDENT EMERITUS OF PUBLIC CITIZEN AND FORMER 
     ADMINISTRATOR OF THE NATIONAL HIGHWAY TRAFFIC SAFETY 
  ADMINISTRATION; AND CLARENCE M. DITLOW, EXECUTIVE DIRECTOR, 
                     CENTER FOR AUTO SAFETY

                STATEMENT OF FE NIOSCO LASTRELLA

    Mrs. Lastrella. Mr. Chairman, Congressman Issa, and the 
members of the congressional committee, thank you for inviting 
me here and giving me the opportunity to speak for my four 
siblings, to testify for the Toyota recall as they relate to my 
beloved family who were taken prematurely away from us.
    I would not discuss or talk about the accident, as we have 
heard enough. We have heard so much from the media anywhere 
throughout the world. I'm here to speak for my four children 
and for the safety of the consumers throughout the world. I 
braved this time myself.
    I would like to introduce myself. I am Fe Lastrella. I am a 
school teacher by profession and I ventured into the real 
estate business when we moved to Vallejo. Nobody knows probably 
where Vallejo is. That is a suburb of San Francisco, CA. We 
moved in 1977 to Vallejo, but we were in Alameda for quite a 
while before coming to California. My husband was stationed in 
Midway Island. So I was married to Cleto Lastrella for 46 
years. He was a retired Command Master Chief, U.S. Navy, for 30 
years, and worked for the Federal Government for another 10 
years. We have five children. The oldest one was Cleofe 
Lastrella Saylor. Chris Lastrella, the middle of the five, who 
was with them, who called and dared to call 911. As I mentioned 
earlier, I will not discuss the accident.
    So let me start with Cleofe. Cleofe, when she graduated 
from the University of California, Davis, she worked for her 
immediate boss for a year in the research department. Then she 
worked for Calgene, in which she has--and I went through her 
experiment. I know I only have 5 minutes, but I'd like to 
mention this because she had that experiment in which we didn't 
mention the cotton. It was presented by the president of 
Calgene on TV. And then she worked for various pharmaceutical 
and technological companies, and the last one was AMBRX in 
LaJolla, CA, in which she received an achievement award for 
significant technological innovations awarded to her in October 
2009.
    Mark Wesley Saylor, her husband, was a highway patrol 
officer, who loved her dearly. He was respected. A very 
respectful person and very caring. He was a person of honor and 
integrity. He was a very religious man, a devout father and 
husband. He gained respect from his colleagues and friends. 
Mark dedicated his time in life to his family and to his job. 
In 1997, he responded to a traffic collision on Interstate 5. 
He saved the life of a man who was strapped in his car, burning 
car, and he was awarded for that, too, for his effort and for 
his superior act. This is ironic; he saved someone, but he was 
not able to save his family from the crash.
    Mahala Manda Saylor, that is my 13-year old granddaughter, 
she was a promising athlete. Her love for soccer made her a 
team captain. Mahala was blessed for a parent like Mark and 
Cleofe. After working hours, her parents would attend to her 
games, to her practice, to school, and to church. The week of 
the tragedy, my daughter Cleofe took off for a week to prepare 
her daughter entering ninth grade at Mater Dei Catholic School 
in Chula Vista. Mahala missed the invitation and the 
opportunity to travel, as she was invited by the Sports 
Ambassador People to People Soccer Cup in Vienna, Austria. 
Knowing Mark and Cleofe, they will make an investment on their 
child's future. That is Mahala.
    Chris Lastrella's passion was basketball. He graduated at 
St. Vincent-St. Patrick High School. He worked for the United 
Parcel Service as loading supervisor. After his graduation in 
college at the University of East Bay--it was University of 
California, Hayward--he went into the financial mortgage 
business, also as we encouraged, because it goes hand-in-hand 
with the real estate business. So he ventured into that. While 
doing that, he worked for Wells Fargo Mortgage Co. While doing 
that, he went to school for voice acting in San Francisco in 
Sausalito. Chris' voice was heard over because of his practice, 
and he was so composed when he said--he was the one that called 
for 911. And everybody heard it. I have not heard it. I stayed 
away from it. I don't want to hear the rest of it. And the 
message was strong. He asked the operator to hold on and pray, 
pray, pray. That was very great of him, the courage that he 
had. I know it was the four of them were on the verge of their 
deathbed and he was able to call 911. And I thank him for that.
    August 28th was the tragic date that triggered this all. 
But we didn't hear about it until the following morning when 
the law enforcement officer came to our door with a note to 
contact the coroner's office. And I said, ``Oh, no.'' How could 
you imagine coroner's office, and what does that tell you?
    So, was it only my daughter? Because I know my daughter 
always checks her cell, her experiments on weekends to see how 
they are doing. That's how dedicated she was. So when we heard 
from the cop that there were three of them, I said, How about 
another person? And I was so glad that there's another person 
somewhere that was not with them. But then when we called the 
coroner's office, there were four. Could you imagine? It's 
unimaginable to lose four people in your siblings.
    So I brave this moment so hopefully, Mr. Chairman, and the 
committee, and the different organizations, the Department of 
Transportation and NHTSA would do something for the safety of 
the world. We don't want another person, another family, to 
suffer like we are suffering.
    We have--at the time we have a 7-month old baby. His name 
is Connor Toyooka. Toyooka. My Japanese son-in-law. We were 
talking to him. I know he is bubbly all the time. But he would 
not even smile. That is how the impact of the tragedy was felt 
in my household. It had a big impact on my friends and family 
and the whole community in San Francisco area, in the San Diego 
area.
    Thank you so much for listening to me. And I know I didn't 
come here to cry on someone else's shoulder. But as I mentioned 
earlier, it is for the safety of the world. Thank you.
    Chairman Towns. Thank you very much, Mrs. Lastrella, for 
your very moving testimony.
    [The prepared statement of Mrs. Lastrella follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.028
    
    [GRAPHIC] [TIFF OMITTED] T8346.029
    
    Chairman Towns. Mr. Haggerty.

                  STATEMENT OF KEVIN HAGGERTY

    Mr. Haggerty. My name is Kevin Haggerty, and I owned a 2007 
Toyota Avalon. For the past 6 months I have experienced five 
events where my car accelerated on its own. The first few times 
I experienced the car accelerating without my foot on the gas 
pedal, I was driving through town. The car would go back to its 
normal RPMs after driving a few miles or after the car was 
stopped, turned off, and restarted. After experiencing the 
sudden acceleration a third time, I took my vehicle to be 
checked by my local auto body shop--or auto shop. They could 
not find anything wrong with my vehicle. After two more 
incidents, I brought my car to a Toyota dealership on November 
11, 2009, to be checked. After keeping my car for 2 days, they 
found no unintended acceleration problems and confirmed that 
the factory mats were installed properly.
    Then on December 28, 2009, I was driving to work on Route 
78 in New Jersey. The car began to accelerate without my foot 
on the gas pedal. As I pushed on the brake, the car continued 
to accelerate. I was not able to stop by pressing on the brake 
pedal. The only way I was able to slow the car down was to put 
the car into neutral. I got off at the next exit, which was the 
exit for the dealership. Determined to get the car to the 
dealership, I showed them firsthand that--I wanted to get it to 
the dealership to show them firsthand that this was happening. 
I drove approximately five miles by alternating from neutral to 
drive and pressing very firmly on the brakes.
    On my way there, I called them and asked for the service 
manager to meet me outside. As I pulled into the front of the 
dealership, I put the car into neutral and exited the car. With 
the brakes smoking from the excessive braking and the car's 
RPMs racing, the manager entered my car. He confirmed that the 
gas pedal was not obstructed, the mats were properly in place, 
and the RPMs were very high.
    They contacted a Toyota tech to come to the dealership and 
look at my car. He arrived within a few hours. The dealership 
had my car for 1\1/2\ weeks. When I was told the car was ready 
to picked up, I asked what problem they had found. I was told 
by the service manager that, per Toyota, they replaced the 
throttle body and accelerator assembly, including one or two of 
the sensors.
    Since they cannot tell me exactly what problem they found 
with these parts and why they were replaced, I started doing 
some research about Toyotas online. I came across Sean Kane's 
name in multiple articles I read, and decided to contact him. 
When I reached him, I explained my situation and expressed my 
fear of driving this car in light of what just happened. I no 
longer felt safe in it, since nobody could explain why the 
acceleration problem occurred. Sean did not have an answer for 
the cause and was surprised that the dealership replaced parts 
and witnessed it firsthand.
    I was then contacted by ABC News and they were interested 
in doing a followup story on accelerator problems. ABC also 
confirmed with Toyota that the parts taken out of my car were 
sent to Toyota's corporate offices to be evaluated. I agreed to 
an interview, mainly because I wanted to help people understand 
how to safely stop a car by putting it into neutral.
    I continued driving my car out of necessity, but refused to 
put my children in it. About 3 weeks ago a local dealership 
owner, after hearing about my story, made me a generous offer 
on a new vehicle as well as offered to pay off the balance of 
the loan on my Avalon. For my safety, as well as the safety of 
my family, I took him up on this offer.
    I just want to confirm one thing on this, my statement. I 
explained the first couple of times it happened I was able to 
apply the brake and slow down the car, but I was going at a 
slower pace. I was going 15, 20 miles an hour through town. On 
December 28th, when I was driving at a faster rate, 60-65 miles 
an hour, I was not able to stop the car just by applying the 
brakes. The only way to stop it was by putting it into neutral.
    Chairman Towns. Thank you very much. Thank you very much 
for your testimony.
    Mr. Haggerty. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Haggerty follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.030
    
    [GRAPHIC] [TIFF OMITTED] T8346.031
    
    Chairman Towns. Ms. Claybrook.

                  STATEMENT OF JOAN CLAYBROOK

    Ms. Claybrook. Thank you so much, Mr. Chairman. I 
appreciate the opportunity to be here. I'd like my whole 
statement in the record because I'm not going to have time to 
read it.
    Chairman Towns. Without objection.
    Ms. Claybrook. I just want to highlight a few things and 
try not to be repetitive of other things that have been said 
today. The first thing I'd like to mention is that I do believe 
that Toyota has harmed its trust and confidence of the American 
people, and particularly with the document that has been 
mentioned at this hearing. One of the things that concerns me 
enormously is that there are no criminal penalties in the NHTSA 
statute. And I'm concerned about that because the Consumer 
Product Safety Commission has them, the Food and Drug 
Administration has them, the FCC has them.
    In an article in the New York Times recently on foreign 
bribes and misleading, a company paid $400 million in penalties 
and has the threat of going to jail. So the penalties at this 
agency, which total $16.4 million maximum at this point, are 
way understated for the size of the companies that this agency 
is regulating. And so I hope that this will be something that 
will be taken up by the committee as a recommendation. I know 
you're not doing the legislative part.
    I'd like to say for the people who have been victims of 
this--and Marcy Kaptur was very articulate about it; really, 
the only remedy they have, other than getting a new car and 
trying to forget the horrible experiences and loss of family 
and friends, is a lawsuit. That is really their only remedy. 
That is the only way that they can individually punish Toyota. 
Even that really isn't a punishment because it's just a 
financial penalty. But it's not really a penalty for the people 
who made the decisions. That's the reason that I'm interested 
in criminal penalties.
    I would like to mention something about NHTSA and the 
revolving door. There are 28 former top officials of this 
agency that have gone to work for the auto companies in one 
capacity or another in the last 25 years. A former NHTSA 
administrator, several of them former chief counsels, former 
deputy administers, top engineers, and lawyers of this agency, 
have become the face and voice of auto manufacturers after they 
have left the agency. And they have left it way before----
    Chairman Towns. Not just Toyota, but different companies.
    Ms. Claybrook. Not Toyota, but all these companies. Toyota 
has had several. But I'm talking about all of the companies. So 
it's not a small issue when people raise it. I just wanted to 
make sure that you saw the scope of that issue.
    There's been a discussion of Toyota's secrecy, and I just 
want to say that I think this has less to do with their culture 
in Japan than it has to do with the fact that they are an auto 
company. All the auto companies are secretive. So it's an issue 
that is really crucial. And so is NHTSA. NHTSA is very 
secretive. Clarence Ditlow has filed probably more Freedom of 
Information Act requests to NHTSA. And Public Citizen, while I 
was the president, has litigated more than you can possibly 
imagine, for no good reason. I do think that is something that 
this committee may want to take a closer look at, is how 
secretive this agency has been.
    One of the things that really got my goat was when I read 
in the October 5th filing by Toyota on the floor mat recall, 
October 5, 2009, is that they claimed they were doing this, but 
it wasn't a safety-related defect. Please. Sudden acceleration 
isn't safety-related? I mean it was so arrogant, what they did, 
and it was so unbecoming of a company that should have much 
more sensitivity than that.
    The other action that they took, which I found very 
disappointing, was that they hired a litigation expert company 
to supposedly evaluate whether or not they have a problem with 
the electronics, and in fact the whole purpose of this company 
is to defend manufacturers.
    In terms of NHTSA, I would just like to ask you to get more 
details about the financial information, because here is their 
budget document filed by the agency in this Congress, and what 
it shows is that, of their total budget, only 15 percent is for 
motor vehicles. Only 15 percent. The vast majority of it, 71 
percent, is for grant and aid to the States, and another 13 
percent is for highway safety research. And only 15 percent is 
for vehicle safety of the total budget of this agency.
    And so when they say they can have 66 new positions coming 
up or that they are going to ask for more money, where are they 
going to ask for this money? Where is it going to be? So I hope 
that there will be a question asked about that.
    The last sort of major point--and, by the way, this agency 
is the poor step-sister in DOT, because 95 percent of the 
deaths in Transportation occur on the highway, and they have 1 
percent of DOT's budget. So it is a very grossly underfunded 
agency. It has been for far too long.
    A lot has been mentioned about the event data recorders. I 
will hope that you followup on that. I don't know whether or 
not Toyota has looked at the event data recorders for the 
crashes that you've been hearing about. Have they looked at 
what the event data recorder said for the crash we just heard 
about or for the other 38 deaths and all those injuries? They 
haven't made it available easily in the United States. I will 
bet that NHTSA doesn't have that data. And that would help to 
elaborate what actually happened in those crashes and it 
wouldn't be ``he said, she said,'', it would be factual data.
    The last thing is that when the Firestone-Ford Explorer 
debacle happened 10 years ago, Congress passed a new law called 
TREAD, and in there it required early warning systems to be 
established by the agency, which it did do. But it keeps it all 
secret. NHTSA is not transparent either. All of the information 
is kept secret. So if you have a problem and you go to see 
whether or not a company has given information to the agency 
about that particular make and model of vehicle and what the 
problem is, that is all you can find. But you can't get the 
number of consumer complaints, you can't get the number of 
warranty claims, you can't get the information about their 
field activities. And they don't even have the number of 
lawsuits filed in that particular case. So you're really 
disabled. And I hope that this transparency issue will become a 
key concern of this committee.
    Last, I'd just like to say that some new safety standards 
do need to be issued. I've got them in my statement.
    Mr. Cummings [presiding]. Thank you very much.
    [The prepared statement of Ms. Claybook follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.032
    
    [GRAPHIC] [TIFF OMITTED] T8346.033
    
    [GRAPHIC] [TIFF OMITTED] T8346.034
    
    [GRAPHIC] [TIFF OMITTED] T8346.035
    
    [GRAPHIC] [TIFF OMITTED] T8346.036
    
    [GRAPHIC] [TIFF OMITTED] T8346.037
    
    [GRAPHIC] [TIFF OMITTED] T8346.038
    
    Mr. Cummings. Mr. Ditlow.

                STATEMENT OF CLARENCE M. DITLOW

    Mr. Ditlow. Thank you, Mr. Chairman. Sudden unintended 
acceleration has always been recognized as a serious safety 
hazard. In 1971, General Motors recalled 6.7 million Chevrolets 
for defective engine mounts that caused sudden acceleration. 
That is the fourth largest recall ever. But the early sudden 
acceleration recalls, they were mechanical in nature. Easy to 
detect, easy to fix.
    With the advent of electronic ignition and cruise controls 
systems in the late seventies and the early eighties, we began 
to see complaints that didn't happen of a mechanical nature. 
They were hard to find. In January 1989--and this is a 
fundamental problem with NHTSA's logic--the Department of 
Transportation's Transportation Systems Center did a major 
study into sudden acceleration and concluded that absent 
finding a defect that could cause the throttle to open, such as 
a failed cruise control, it must have been driver error. And in 
investigation after investigation after investigation after 
1990, the agency took the position that they would close the 
investigation without a defect determination or recall if they 
couldn't find a mechanical problem that caused the throttle to 
open.
    Beginning in 2001, though, the game changed with the 
introduction of electronic throttle controls. Complaints at the 
Center for Auto Safety, NHTSA, and Toyota went up fourfold. 
After that, NHTSA received five defect petitions, they opened 
three preliminary evaluation investigations, and two 
engineering analyses. But none of these investigations resulted 
in a single vehicle safety recall.
    What happened, the investigations as a whole, though, show 
significant weaknesses in NHTSA's enforcement program, which 
Toyota exploited to avoid recalls until the tragic crash in San 
Diego that took the lives of Mrs. Lastrella's family. In the 
defect petitions, most consumer complaints were excluded 
because they were long duration events or where the driver said 
the brakes could not bring the vehicle to a stop. Not a single 
defect petition resulted in any recall. In the most crucial 
investigation, which was engineering analysis 07010, NHTSA 
commissioned a technical study and test at their vehicle 
research test center in Ohio to determine whether it was 
electronic controls or floor mats that caused it.
    We FOIA-ed NHTSA for the results of that test, because 
their conclusion was it's only floor mats; there's no EMI 
interference, there's no electronic control problem. NHTSA 
responded to that FOIA by saying they don't know how they did 
the test, they don't know what they measured, and they had no 
test data. In other words, they had nothing other than a 
conclusion.
    Now as an engineer, which I am, you keep lab books, you 
enter the data, you enter the test procedure. NHTSA had 
nothing. Yet that report was what enabled NHTSA to do an 
equipment recall of the Lexus. But look at that equipment 
recall. It resulted in 55,000 vehicles on floor mats. It was 
designed to fail. The completion rate in the recall, as 
Representative Issa was interested in earlier, was 40 percent; 
60 percent of the mats still had never been replaced.
    The only other investigation that resulted in anything was 
a safety improvement campaign. What's that? That's not even a 
safety recall. It's just something where the manufacturer says, 
There's no safety defect; we're not going to even comply with--
be subject to the part 573 in the Safety Act requirements.
    And so when we look at all this from 2001 to the October 
2009 floor mat recall, which was generated by the San Diego 
crash--not by an investigation, not by anything else. All they 
got was an equipment recall, which Toyota told in its internal 
memo that it saved the country $100 million.
    The other thing that we filed a FOIA for is the early 
warning system. After TREAD, as Joan indicated, Congress 
established an early warning system. It was supposed to prevent 
more tragedies, like Ford-Firestone. It didn't. We have been 
told there are hundreds of investigations under early warning. 
The agency won't even give us a list of the investigations.
    Now, we have a number of recommendations for moving forward 
to improve this process. Here's what needs to be done. For 
NHTSA, it needs to require all responses investigations to be 
sworn. Just simply say the information in here, is truthful 
under penalty of perjury. Not a subpoena, just a statement or 
affidavit that it's true. Make the early warning investigations 
public, make the minutes public, revamp and revise their NAS 
systems so we have more crash investigations to find out what 
happens in crashes.
    Finally, they need to do a comprehensive evaluation of 
electronic controls and adopt safety standards, including the 
requirement that every vehicle have brake override.
    For Toyota, we just have a few recommendations. First of 
all, install the brake override in all the vehicles. Open up 
the public record in these investigations so we can see. 
Finally, for every consumer who files a complaint, and there's 
only been 2,500, give that consumer a report and evaluation on 
what happened in their car and tell them what they did to fix 
it.
    Thank you.
    Mr. Cummings. Thank you very much.
    [The prepared statement of Mr. Ditlow follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.039
    
    [GRAPHIC] [TIFF OMITTED] T8346.040
    
    [GRAPHIC] [TIFF OMITTED] T8346.041
    
    [GRAPHIC] [TIFF OMITTED] T8346.042
    
    Mr. Cummings. Let me just start off the questions. Ms. 
Claybrook, you told the committee staff that all of this seems 
to represent a failure of regulation. What's been wrong with 
NHTSA's approach to the issue of sudden unintended 
acceleration?
    Ms. Claybrook. I think they lack leadership. I don't think 
there was an enforcement mentality. This agency is a cop, it's 
a policeman. It should act like a cop. If it's not popular, 
that is just too bad. They should be a cop. I think that there 
has been great improvement since Secretary LaHood took over, 
and David Strickland, but for the past decade there were one 
investigation after another closed. No real explanations.
    The agency is grossly underfunded. It never used any of its 
subpoena power. It rarely hired an outside consultant to help 
it. It didn't put out public alerts. Thirty thousand complaints 
that Secretary LaHood talked about. When I was there, there 
were 200,000. Why were there? Because I put out consumer alerts 
all the time. I asked the public to come in and tell us about 
things. We had 23,000 complaints on one Ford defect. We valued 
those consumer complaints because that's the richest, freest 
information you'll ever get on what's happening in the highway.
    This agency has just been--I don't know whether its been 
beaten down or just didn't care or whether it didn't have any 
enthusiasm, but it certainly didn't have any leadership. There 
was no caring by the top staff of that agency that says, Tell 
me what's going on with these. Give me a weekly report. I want 
to know every case that's happened. I want to know the number 
of deaths, I want to know the number of industries. And let's 
put out some consumer alerts to alert the public.
    And on the early warning issue, the fact that Public 
Citizen had to sue the agency twice in the mid-2000's in order 
to even get just the vehicle, the make and model of the 
vehicle, and the problem put in the public record. It's 
ridiculous. This whole program was meant to be public. And if 
the public knows what's going on, they're going to tell you. As 
you've heard today, they're going to give you information that 
is rich. And the agency should do its job.
    Mr. Cummings. I'm sure you heard the testimony of Secretary 
LaHood. He said that they were trying to bring on 66 new 
employees, I assume to do the followup on some of these 
complaints. From what you know, do you think that is a 
sufficient number of folks to bring in to do what they need to 
do?
    Ms. Claybrook. Well, no. The agency has always been 
understaffed and underfunded. When I was----
    Mr. Cummings. When were you Administrator?
    Ms. Claybrook. In the Carter administration. And when I was 
the administrator, we had 119 employees in the entire 
Enforcement Office. Today, there are about 30 less than that. 
That is for standard enforcement as well as for defect 
enforcement.
    So there are only 18 investigators in the Defects Office 
for the whole country and all automobile defects. And there's 
only 57 employees just in the Defects Office. So it is not 
enough.
    But the key issue to me is how is it going to be allocated. 
Because, as I mentioned to you, 71 percent of the money this 
agency gets now goes in grants to the States. Only 15 percent 
of that money, which is $132 million a year, that is the total 
budget for the entire Motor Vehicle program at the Department 
of Transportation to do research, to set standards, to do 
litigation cases that they have that come up, to investigate 
defects, to investigate safety standards.
    So I say it needs another hundred million dollars, 
minimally, right now. I also think that it needs to be able to 
impose penalties against companies in that range as well, 
because $16.4 million is chump change to Toyota.
    Mr. Cummings. Mr. Ditlow, you said that NHTSA has relied on 
an outdated sudden acceleration study; is that right?
    Mr. Ditlow. Yes.
    Mr. Cummings. How do you think that's affected them? So 
they are not up to date with regard to that issue?
    Mr. Ditlow. I'm sorry? No, they are definitely not up to 
date on sudden acceleration. They did more in studies in 1975 
and 1976 than they have since then. The only study they did was 
one that was aimed at showing that it was driver error that was 
causing sudden acceleration, not electronics.
    There are twice as many vehicles on the road today and the 
vehicles are five times as complex. The job is enormous, and 
their staffing and resources are down.
    Mr. Cummings. I see. If there's a message that you want to 
deliver, Mr. Haggerty, what would that be to NHTSA? And you, 
Mrs. Lastrella, what would be your message?
    Mrs. Lastrella. I beg your pardon?
    Mr. Cummings. If there was a message that you want to 
deliver to NHTSA, what would that be?
    Mrs. Lastrella. Full capacity of investigation by NHTSA.
    Mr. Cummings. Mr. Haggerty.
    Mr. Haggerty. I think they need to take the investigations 
more seriously. I was contacted by NHTSA from Scott Yon. He 
seemed very interested in my case. He also copied several other 
people in his agency. He also mentioned they may be interested 
in taking a look at my car to see if there was anything else 
that may be contributing to the acceleration problems, with the 
electronics, and they wanted to dig into it. And they seemed 
very interested.
    And I never heard from them after the one conversation we 
had. I sent him an e-mail telling him I was planning on selling 
my car. If you're interested in taking the car and taking a 
look at, please let me know. I never heard anything back.
    I just wish they would take some of the complaints very 
seriously, from the dealership on up, once they get a complaint 
from the dealership, to contact Toyota and take it seriously 
and really dig into it and find out how the problem is and how 
to correct it.
    Mr. Cummings. Mr. Issa.
    Mr. Issa. I'd ask unanimous consent that the prepared 
written statement of John Saylor, the deceased father, be 
placed into the record.
    Mr. Cummings. Without objection.
    [The prepared statement of Mr. Saylor follows:]

    [GRAPHIC] [TIFF OMITTED] T8346.043
    
    [GRAPHIC] [TIFF OMITTED] T8346.044
    
    [GRAPHIC] [TIFF OMITTED] T8346.045
    
    [GRAPHIC] [TIFF OMITTED] T8346.046
    
    Mr. Issa. Mrs. Lastrella, once again, our condolences. I 
had an opportunity also to be asked to pass on again deep 
regret from Bob Baker, the elderly 50-year car dealer, who 
simply was the unfortunate owner of the dealership that 
provided the loaner car to your daughter and son-in-law.
    There are many victims that we are dealing with in this 
tragedy, in this group of tragedies, but none touches us in San 
Diego more closely than the loss of your family.
    We are here today I think trying to get to the bottom of an 
agency's failures.
    And, Ms. Claybrook, I am deeply concerned that the agency 
that you administered back in the 1970's has become complacent. 
And I would like to be fair to them and I would like to run 
just a line of questioning and then talk about some of the 
things that should be done to revitalize it.
    In 1975, a study was done just before you became the 
administrator that estimated that about 50 percent of all auto 
accidents were alcohol related; 93 percent of all crashes were 
directly or indirectly related to the individual drivers; and 
approximately 13 percent were mechanical or vehicle related. 
And in those days, as you and I recall, a lot of cars were 
driving without automatic self-adjusting brakes and most had 
drums. So no surprise that vehicles were more a part of it. And 
there were 51,000 deaths in 1980, the last year of your 
administration, and that was 3.35 per thousand.
    Now, the good news. Today, about one-third of all 
fatalities are estimated to be alcohol related. In 2008, there 
were 37,261 fatalities, even though our population has grown 
greatly, and that is about 1 per, 1.27, I should say, per 
thousand. Or actually so call it. And about 2 percent of 
automobile fatalities are estimated to be directly related to 
the vehicle failures, meaning we have gone from 13 percent 
where the car is at fault to 2 percent.
    Ms. Claybrook, I believe that probably a lot of what NHTSA 
is dealing with is the fact that cars are simply a lot better 
and less likely to fail. And, what Mr. Ditlow has said is, they 
are also harder to find those failures when they occur.
    You heard Secretary LaHood earlier today answering 
questions about transparency of the agency, looking around the 
world so that this problem or problems that had been detected 
and changed differently in Japan, detected and dealt with in 
Great Britain sooner than in this country. And had they been 
done, no doubt in my mind, your family would still be alive.
    Do you believe, first of all, that the Secretary is going 
to be able to make those changes within the budget and the 
present constraints, if you will, of the law; and, if not, what 
we need to do to help him make those changes?
    Ms. Claybrook. Thank you so much for your question, Mr. 
Issa. There is a lot of information in what you said.
    Mr. Issa. I don't want to mislead people. Cars are safer, 
but they are not as safe as, obviously, they could be if the 
agency you once shepherded was doing a better job.
    Ms. Claybrook. And there's also different things. For 
example, there's 10,000 rollover deaths a year that virtually 
didn't exist when I was the administrator because we didn't 
have SUVs.
    Mr. Issa. And we had long gas lines then, too.
    Ms. Claybrook. Well, I issued the toughest fuel economy 
standards you'll ever see, and Lee Iacocca can tell you that.
    But, yes, there has been a reduction in deaths and 
injuries, and it is actually a little bit lower right now 
because of the recession. If you look at the economy and deaths 
on the highway, they sort of track each other.
    But I think that the vehicle safety standards that we have, 
particularly air bags and safety seat belts, now that are used 
by the vast, vast majority of public have made a huge 
difference in the safety, and the campaigns that have been 
launched and the laws that have been passed on drunk driving 
have made a huge difference in that area. And those are big, 
big issues.
    I still think that there are a lot of issues that haven't 
been addressed in terms of safety standards.
    And then we have, in the defects area, for example, in the 
Ford Firestone case, there were over 200 deaths. And I believe 
that the 34, 39 deaths we know about now in the Toyota case is 
probably going to triple by the time all the information comes 
in, because it--a lot of people don't tell you that it 
happened.
    In terms of big changes, I think that the agency needs a 
lot more money. It has, I think, a meager budget for the work 
it is required to do, and as I said I think it needs $100 
million more. And I know that's maybe pie in the sky, but I 
think that ought to be the goal fairly soon.
    Second, the agency collects data in a very old-fashioned 
way. It collects data by doing accident investigations, SWAT 
teams as Mr. Toyoda said. But they were supposed to collect 
huge numbers of crash data, maybe 20,000 crashes a year. They 
are now only under the funding able to collect 4,000.
    The reason I focus so hard on the data recorder, the black 
box, is because the black box could be not only the liberator 
of information about what happened in particular crashes; it 
could become the data source for the agency and very 
inexpensively, because it is quite accurate. And so it should 
be mandatory. It should collect a lot more data. And that data 
should automatically go to the agency. And if it did, then they 
could take that $20 million they now spend on crash 
investigations and do analyses and fill in, in little gaps.
    So there's some very special things that this agency should 
do right now, and I believe that my testimony also elaborates 
on that.
    Mr. Issa. Thank you.
    And, Mr. Chairman, I would ask just to be able to ask a 
question for the record very briefly.
    Secretary LaHood was, let's just say, not completely 
prepared to answer the questions related to, when we do a 
recall, how few actually in the ordinary course get implemented 
versus people get the letters, they don't see the significance, 
and they get lost. Would you answer for the record your view of 
obviously, then, now, and how we could change that?
    Ms. Claybrook. Well, it's about 75 percent, 74 percent. 
That is the best. We never have 100 percent. The newer the car, 
the cheaper the fix, the more likely there is to be a recall 
and the higher the returns are, except in examples like this, 
which are so unusual where people are scared to death, so they 
bring the car in to get it fixed.
    The agency does get quarterly reports--I mean, quarterly 
reports for six quarters after a recall is announced, so it 
knows what the progress is of the company in getting these cars 
fixed. And it can extend that. It can also require the company 
to send out a second letter. It can also require them to do 
advertisements and other things like that to publicize it if it 
is particularly needed.
    I think that one of the key issues is how the letter is 
written to the consumer. When I was administrator, I reviewed 
all those letters and they had to say ``alert,'' ``safety.'' 
You know, now they are sort of smudged down so that they don't, 
as some people say, they don't scare the consumer. I want to 
scare the consumer. I want them to bring that car in to get it 
fixed.
    And it is also how the dealer reacts to it. Sometimes the 
dealers are underpaid, and when they are underpaid, then they 
make that the last thing that they do. Sometimes the 
manufacturers don't make the parts on time, so the letter goes 
out, and you can't get your car fixed for 6 months or 4 months, 
and so people then don't do it.
    So there are a lot of factors. And I think that there was 
an investigation by the Inspector General of DOT in 2004, I 
would commend that to you to look at, in which he talked about 
this process, the early warning system and getting the defects 
office activated. And I think that maybe another IG report on 
what NHTSAis doing and could do to enhance the repairs of these 
vehicles would be very worthwhile.
    Mr. Issa. Thank you.
    Chairman Towns. Thank you very much.
    And let me also again thank you so much for your testimony.
    Let me begin by asking you, Ms. Claybrook, and also Mr. 
Ditlow, NHTSA missed many warning signs regarding sudden 
unintended acceleration. Further, it appears that the agency 
was caught completely by surprise when Toyota began a series of 
recalls. I thought these problems were solved after the Ford 
Firestone fiasco, but clearly they were not, according to this.
    What specific changes must be made at NHTSA so we don't see 
this again? Is it a resource issue, or is it a lack of 
commitment? Or it is they just hope that things will just sort 
of go away and they won't have to deal with it?
    Ms. Claybrook. I think there is a wonderful phrase that you 
can lead a horse to water, but you can't make them drink. And I 
think there are some changes that could be made. But I think it 
is a leadership issue. I think it is whether or not there is an 
interest by the administrator and the Secretary, and an 
insistence that this part of the agency be well-funded and that 
there be weekly reports on exactly what is going on with all 
the defect cases they have, so that the administrator knows 
that some cases have been pending for 2 or 3years, or they have 
been closed without a really good explanation for why they were 
closed.
    So I think that part of it is administrative. Part of it is 
transparency. If this stuff was all up on the Internet, if it 
was easy to find--their Web page is disastrously difficult to 
use. The early warning system doesn't even summarize things for 
you, so you have to spend hours digging through it to try to 
find anything out. If the agency helped with the transparency 
so that a person, like Mr. Haggerty, who has a problem could go 
easily to their Web page and find out if other people had that 
problem, and then there would be the ability of the citizens to 
push harder as well. And also the Congress would know. You 
know, your staff could check it every week: What is the 
progress of this agency in doing its job?
    So I think transparency is a huge issue. I think criminal 
penalties are a big issue, because that puts an incentive to 
the manufacturer not to get caught and have to go to jail. And 
when executives know there are criminal penalties in the 
statutes, they behave differently. And I think there needs to 
be a heavier penalty, and there needs to be better funding.
    Mr. Ditlow. In addition, the agency used to publish monthly 
press releases on all the pending investigations that went out 
to the media with a summary of each one. They need to redo that 
again. The agency used to make public the names and addresses 
of consumers so you could contact them and get information 
like, are the--were the floor mats in your car? There os a 
check box on a complaint form for the manufacturer to get a 
complaint, but there's no check box on that form for the 
consumer to make the entire complaint public.
    Ms. Claybrook. Make that clear, this is a form filled out 
by the consumer. So they would say, yes, it's OK for you to 
make my name public. They now say it's OK to send it to the 
manufacturer, but here they would have to say it's OK to make 
it public. And then, as Clarence says, we could have called Mr. 
Haggerty or whatever and found out.
    Mr. Ditlow. There's case after case in the early days where 
we got expanded recalls by going to the consumer and rebutting 
the information that the manufacturer had put in. And the other 
way to do that is to talk to the consumer. But if you can't get 
to the consumer, you can't do it. There needs to be a 
restoration of that check function of the outside public to 
look at what the agency is doing. The agency wants to operate 
behind closed doors.
    And one other thing is minutes. They have minutes of 
meetings of the manufacturers where the only thing you see are 
the list of the attendees. They should be required to have 
detailed minutes of what went on behind closed doors with the 
manufacturer and investigations.
    Chairman Towns. Let me ask you this. In response to a 
letter I sent to Toyota regarding the possible causes of sudden 
unintended acceleration, Toyota cited a report, of course, as 
to why it did not believe that an electronic malfunction is to 
blame for sudden acceleration. Is this a serious study? And do 
you think its methodology proves that the sudden acceleration 
problem is not caused by an electrical malfunction?
    Ms. Claybrook. Is this the Exponent's report?
    Chairman Towns. That's correct.
    Ms. Claybrook. Right. Well, I don't think that it's a 
serious study, and Toyota has now said that it's an ongoing 
study. This is not a company that I would go to if I were 
seriously interested in trying to find out the answer to a 
problem. This is a company that Toyota went to, to justify what 
it did, and that is the purpose of this company. That's what it 
does.
    Chairman Towns. Why wouldn't you go to them?
    Ms. Claybrook. I don't know why they did it. I guess they 
were in a defensive mode. And normally what this company does 
is it protects companies that are sued in product liability 
litigation. That's the purpose of this company and--or, a large 
part of it. And so that's what it was attempting to secure was 
justification for what it had done. If it was really seriously 
interested in a fresh approach and a fresh look, I think it 
could have gone to a lot of other people in the United States, 
including Mr. Gilbert who testified yesterday.
    Mr. Ditlow. General Motors once hired the same firm to do 
an analysis of fuel tank fires in GM vehicles. And they did 
such a misleading analysis that the president of General Motors 
had to make an apology for the fact that the study was 
misleading, that they didn't intend to mislead the agency, but 
in fact, they did.
    Chairman Towns. And then I can understand your response, 
Ms. Claybrook.
    But let me just say to you two, Mr. Haggerty, and to you, 
Mrs. Lastrella, when I hear the situation that occurred, this 
is the reason why it is just so important that we really 
continue to push to make certain that this is corrected. 
Because listening to you in terms of losing family members, and 
you in terms of, Mr. Haggerty, that must have been some 
experience when you have a car accelerate on you like that. And 
then you receiving that phone call, Mrs. Lastrella, I can 
imagine how you felt in that time. But so we want to let you 
know that we are going to stay on this and continue to see what 
we can do to try and get to the bottom of it.
    And thank you again----
    Mr. Haggerty. If I can make a comment.
    Chairman Towns. Go ahead.
    Mr. Haggerty. Regarding the acceleration and as far as the 
sticky pedal, I just want to make a note that the first or 
second time that happened, I was able to slow down the car, and 
I stopped it. I turned off the engine and turned it on again to 
reset itself. And when I brought it to the dealership after 
that day driving to work, you know, when I was driving to work 
when it was accelerating and the only way to stop it was 
putting it into neutral, they really didn't know what the 
problem was, and they never determined that it was a sticky 
pedal, or it was a defective pedal. I probably would have been 
OK with that.
    Here's the problem. We found it. It is defective; we fixed 
it. But that's how it happened. They put an accelerator pedal 
in, a throttle body, and replaced the sensors and sent it out 
to be tested. And I don't think they even knew themselves, and 
they had the car for a week and a half. They brought 
specialists in. And I just really in my heart don't feel they 
knew exactly what the problem was. And if it was a sticky pedal 
or if it was stuck in any way, I believe--and you would have to 
talk to the mechanic, but I believe he had spoke to some other 
people, that he turned the car off and then it reset itself. So 
just by knowing that information, I just hope they look into 
that as well, for my car particularly. I hope they look into 
that and make sure that may be--just take a look at that 
seriously.
    Chairman Towns. Thank you.
    Congressman Chaffetz, recognized for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Just a brief question. There was some discussion about 
Exponent, the company. They were evidently the organization 
used to investigate the Columbia crash, the space shuttle. Do 
you care to comment on that? Are you suggesting that they had 
that same type of reputation and that investigation was flawed?
    Ms. Claybrook. I don't know anything about that, so I can't 
answer that question. I can only say that, in the automobile 
area, where I do know something about them----
    Mr. Chaffetz. I mean, you just kind of tore a company and 
their reputation apart. And yet you are willing to give them a 
deference on the space shuttle?
    Ms. Claybrook. I will take your criticism and limit my 
comments to automobiles.
    Mr. Ditlow. In the automotive area, they have done a half a 
dozen major defects where they've come in and found there's no 
defect, even though there's been a recall in many of the cases.
    Mr. Chaffetz. Is there any reason to think that they are 
any different on space shuttles versus aircraft?
    Ms. Claybrook. They probably have different people working 
on them, and they may be different if they're working for----
    Mr. Chaffetz. How big a company? I just don't know. How big 
a company is this?
    Ms. Claybrook. It's a pretty big company. And it may have a 
different mode of operation when it's working for the 
government than when it's working for manufacturers.
    Mr. Chaffetz. So you would question what their motivation 
was kind of behind the scenes. Are you suggesting that we 
should go back and reconsider the work that they did in other 
areas? Or----
    Ms. Claybrook. Well, I don't know that you would want to do 
that, but----
    Mr. Chaffetz. I mean, that's a pretty serious allegation, 
and it's a pretty big disaster in the history of our country.
    Ms. Claybrook. I have no idea, as I said to you, about the 
space program. I have no idea at all.
    Mr. Chaffetz. And so going back to what you do know, is 
that from your own firsthand experience?
    Ms. Claybrook. Well, that is from my reading and 
understanding and talking to lots of different people and 
knowing a lot about what the agency has done and what they have 
said about these defects and looking at cases.
    Mr. Chaffetz. Would you be willing to share with the 
committee the people that you have garnered this information 
from so that we can further investigate why we would be so--why 
we should question their integrity?
    Ms. Claybrook. You probably don't know, but I just retired 
as the head of Public Citizen, and I sent 450 boxes to George 
Washington University of every file that I ever had on auto 
safety to start a new library there, so and they are piled up 
in some room out near Dulles Airport. So I don't know that I 
could supply you with much of anything. Maybe Clarence, 
however, who is still working in his job and has files.
    Mr. Chaffetz. You just bring a wealth of information and 
perspective that many of us don't have since we are brand new 
to this.
    Ms. Claybrook. Well, maybe we could do it together, and 
Clarence could pull from his files. I have nothing.
    Mr. Ditlow. I would be glad to submit for the record a book 
by a retired professor from Yale, Leon Robertson, who looked 
into a number of different cases where that failure analysis 
was involved in. And I think that's much broader than just the 
automotive area. But I, personally, have looked at their 
reports on Firestone Tires, their reports on GM fuel tanks and 
several other automotive investigations, and I would be happy 
to provide information on those.
    Mr. Chaffetz. I think this committee would appreciate your 
helpful input. I mean, you are two very credible witnesses 
giving us a perspective and calling into question the very core 
of the integrity of people who we have relied upon for some of 
the biggest disasters in our country. So to the extent that you 
can further help the committee with your insight and 
perspective, at least guiding us and giving us direction or 
documents that you may be aware of. You know, when you have a 
company that borders--has questionable conduct and integrity, I 
don't know that you necessarily draw that, well, they are 
really good on space shuttles. So we appreciate your testimony 
and perspective, and I guess that's why we bring it up, is it's 
a serious charge, and we would like to explore that further, 
and I think we would be negligent if we didn't.
    So thank you, Mr. Chairman.
    Chairman Towns. Thank you very much. The gentleman yields 
back his time.
    And I now recognize the gentleman from Ohio, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    You know, I had a representative of Toyota visit with me in 
my office to deliver this Exponent report. I noted a couple 
things when I looked at it.
    One is that it was, Exponent was retained in December 2009 
to look into these reports and claims of unintended 
acceleration. December 2009. Now, they looked at over a period 
of--looks like they focused on 3 years and looked at three 
different kinds of models from 3 years.
    Ms. Claybrook. It was a very small sample.
    Mr. Kucinich. I just wanted to point out the sample they 
took was very small. It would be interesting to pair that 
sample up with the complaints that came in to see if there's 
any similarity. And, you know, none of us are interested in 
smearing anybody here.
    But if a company has a reputation, according to 
LATimes.com, the California engineering firm is known for 
helping big corporations weather messy disputes. OK. Well, 
Toyota has more than a messy dispute. I want to submit this 
L.A. Times article for the record.
    Chairman Towns. Without objection.
    Mr. Kucinich. And----
    Chairman Towns. So ordered.
    Mr. Kucinich. I am more interested in, you know, this issue 
I raised before about, why did Toyota order a software design 
in 2005?
    Now, Mr. Ditlow, I read your testimony, and you heard the 
presentation that Toyota made. Is Toyota's representations that 
it's unlikely that it could have been an electronic throttle 
control, is that credible based on the information that you 
have seen and that you have studied at the Auto Safety Center?
    Mr. Ditlow. No. What we have done is we've examined the 
complaints that have come in.
    Mr. Kucinich. Could you sit closer to the mic?
    Mr. Ditlow. We have examined the complaints that have come 
in. And when you have a complaint that comes in and there's no 
floor mats in the vehicle, there's no sticking gas pedal, and 
the driver clearly has his foot on the brake to the extent that 
the brake system is scorched from trying to stop the vehicle, 
what else is there other than electronics?
    Mr. Kucinich. That's the thing.
    Mr. Haggerty, in your prepared testimony, when you brought 
your vehicle in and it was still running to the max, you had it 
in neutral. They checked it out. It wasn't a floor mat. It 
wasn't the pedal. And then they determined that it was the 
electronic throttle.
    Mr. Haggerty. They are not sure. They don't know. They 
replaced a bunch of parts. They never got back to me and said, 
we know what the problem was. All they kept coming back with 
is, per Toyota, they told us to replace these parts. They don't 
know. And that's why I didn't feel comfortable.
    Mr. Kucinich. Mr. Chairman, this whole hearing, which has 
been a very important hearing, I feel like we are trying to--
we're still at the point of trying to grasp smoke here.
    Ms. Claybrook. Well, not only that----
    Mr. Kucinich. Hold on, Ms. Claybrook.
    Because I don't think Toyota has been forthcoming. I think 
that they have made a--it's good that Mr. Toyoda was here. That 
was remarkable.
    But I don't think they have been forthcoming. They seem to 
have blinders on about this issue of electronic throttle 
control for whatever reason. It could be liability, could be 
that there's a link to a coverup. I don't know. But there's--
the thing doesn't fit here. If you have a missing piece when 
you are doing an investigation, you have to keep asking 
questions.
    So, Mr. Chairman, despite the fact that this committee has 
put in a very long day here, I am thinking that there's going 
to need to be a followup where we will sift through the 
testimony, look at all the evidence that we have gathered so 
far. And we may have to take one more crack at this, because 
the testimony by Toyota officials doesn't square with evidence 
that has been produced to this committee and doesn't square 
with evidence that is available to experts in the automotive 
industry.
    Now, Ms. Claybrook, you wanted to make a comment.
    Ms. Claybrook. Well, I just wanted to add to your 
collection there, which is that they are also putting in this 
electronic brake override in the vehicles.
    Mr. Kucinich. Speak closer to the mic.
    Ms. Claybrook. They are also putting the electronic brake 
override in the floor mat recall vehicles. There's two recalls. 
The one with the sticking pedal is low impact, low speed 
generally. But the floor mat recall, which most people don't 
believe is a floor mat because it just doesn't make a lot of 
sense; there, in most of those vehicles, they are putting the 
brake override. And they are putting the brake override--it's 
an electronic brake override to override the accelerator 
throttle, and that's an electronic software change that they 
are making. And so you are still going to have the problem, 
perhaps, of having an accelerator that slams to the floor, but 
you are going to have a brake override which will stop it.
    Now, normally, if it was a floor map problem, you fix the 
floor mat. Why are they putting the brake override in addition? 
They say they're doing it for the comfort of the people.
    Mr. Kucinich. My time has expired, but I just want to say 
thank you for your diligence in pursuing this, Chairman Towns.
    I also want to finally express my condolences to Mrs. 
Lastrella and your family for the suffering that they have 
endured. And to all those who are watching and trying to 
determine, will their families be safe, our job is a very 
serious one to pursue this. And I want to thank each and every 
one of the witnesses for their presence here. Thank you.
    Chairman Towns. Let me also thank all the witnesses. And 
really appreciate your being here, and to say to you that 
safety is the issue that we're really pursuing here. And thank 
you for helping us to do that. Thank you very much.
    This committee is adjourned.
    [Whereupon, at 6:48 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Paul W. Hodes, Hon. Mike 
Quigley, and Hon. Gerald E. Connolly, and additional 
information submitted for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T8346.047

[GRAPHIC] [TIFF OMITTED] T8346.048

[GRAPHIC] [TIFF OMITTED] T8346.049

[GRAPHIC] [TIFF OMITTED] T8346.050

[GRAPHIC] [TIFF OMITTED] T8346.051

[GRAPHIC] [TIFF OMITTED] T8346.052

[GRAPHIC] [TIFF OMITTED] T8346.053

[GRAPHIC] [TIFF OMITTED] T8346.054

[GRAPHIC] [TIFF OMITTED] T8346.055

[GRAPHIC] [TIFF OMITTED] T8346.056

[GRAPHIC] [TIFF OMITTED] T8346.057

[GRAPHIC] [TIFF OMITTED] T8346.058

[GRAPHIC] [TIFF OMITTED] T8346.059

[GRAPHIC] [TIFF OMITTED] T8346.060

[GRAPHIC] [TIFF OMITTED] T8346.061

[GRAPHIC] [TIFF OMITTED] T8346.062

[GRAPHIC] [TIFF OMITTED] T8346.063

[GRAPHIC] [TIFF OMITTED] T8346.064

[GRAPHIC] [TIFF OMITTED] T8346.065

[GRAPHIC] [TIFF OMITTED] T8346.066

[GRAPHIC] [TIFF OMITTED] T8346.067

[GRAPHIC] [TIFF OMITTED] T8346.068

[GRAPHIC] [TIFF OMITTED] T8346.069

[GRAPHIC] [TIFF OMITTED] T8346.070

[GRAPHIC] [TIFF OMITTED] T8346.071

[GRAPHIC] [TIFF OMITTED] T8346.072

[GRAPHIC] [TIFF OMITTED] T8346.073

[GRAPHIC] [TIFF OMITTED] T8346.074

[GRAPHIC] [TIFF OMITTED] T8346.075

[GRAPHIC] [TIFF OMITTED] T8346.076

[GRAPHIC] [TIFF OMITTED] T8346.077

[GRAPHIC] [TIFF OMITTED] T8346.078

[GRAPHIC] [TIFF OMITTED] T8346.079

[GRAPHIC] [TIFF OMITTED] T8346.080

[GRAPHIC] [TIFF OMITTED] T8346.081

[GRAPHIC] [TIFF OMITTED] T8346.082

[GRAPHIC] [TIFF OMITTED] T8346.083

[GRAPHIC] [TIFF OMITTED] T8346.084

[GRAPHIC] [TIFF OMITTED] T8346.085

[GRAPHIC] [TIFF OMITTED] T8346.086

[GRAPHIC] [TIFF OMITTED] T8346.087

[GRAPHIC] [TIFF OMITTED] T8346.088

[GRAPHIC] [TIFF OMITTED] T8346.089

[GRAPHIC] [TIFF OMITTED] T8346.090

[GRAPHIC] [TIFF OMITTED] T8346.091

[GRAPHIC] [TIFF OMITTED] T8346.092

[GRAPHIC] [TIFF OMITTED] T8346.093

[GRAPHIC] [TIFF OMITTED] T8346.094

[GRAPHIC] [TIFF OMITTED] T8346.095

[GRAPHIC] [TIFF OMITTED] T8346.096

[GRAPHIC] [TIFF OMITTED] T8346.097

[GRAPHIC] [TIFF OMITTED] T8346.098

[GRAPHIC] [TIFF OMITTED] T8346.099

[GRAPHIC] [TIFF OMITTED] T8346.100

[GRAPHIC] [TIFF OMITTED] T8346.101

[GRAPHIC] [TIFF OMITTED] T8346.102

[GRAPHIC] [TIFF OMITTED] T8346.103

[GRAPHIC] [TIFF OMITTED] T8346.104

[GRAPHIC] [TIFF OMITTED] T8346.105

[GRAPHIC] [TIFF OMITTED] T8346.106

[GRAPHIC] [TIFF OMITTED] T8346.107

[GRAPHIC] [TIFF OMITTED] T8346.108

[GRAPHIC] [TIFF OMITTED] T8346.109

[GRAPHIC] [TIFF OMITTED] T8346.110

[GRAPHIC] [TIFF OMITTED] T8346.111

[GRAPHIC] [TIFF OMITTED] T8346.112

[GRAPHIC] [TIFF OMITTED] T8346.113

[GRAPHIC] [TIFF OMITTED] T8346.114

[GRAPHIC] [TIFF OMITTED] T8346.115

[GRAPHIC] [TIFF OMITTED] T8346.116

[GRAPHIC] [TIFF OMITTED] T8346.117

[GRAPHIC] [TIFF OMITTED] T8346.118

[GRAPHIC] [TIFF OMITTED] T8346.119

[GRAPHIC] [TIFF OMITTED] T8346.120

[GRAPHIC] [TIFF OMITTED] T8346.121

[GRAPHIC] [TIFF OMITTED] T8346.122

[GRAPHIC] [TIFF OMITTED] T8346.123

[GRAPHIC] [TIFF OMITTED] T8346.124

[GRAPHIC] [TIFF OMITTED] T8346.125

[GRAPHIC] [TIFF OMITTED] T8346.126

[GRAPHIC] [TIFF OMITTED] T8346.127

[GRAPHIC] [TIFF OMITTED] T8346.128

[GRAPHIC] [TIFF OMITTED] T8346.129

[GRAPHIC] [TIFF OMITTED] T8346.130

[GRAPHIC] [TIFF OMITTED] T8346.131

[GRAPHIC] [TIFF OMITTED] T8346.132

[GRAPHIC] [TIFF OMITTED] T8346.133

[GRAPHIC] [TIFF OMITTED] T8346.134

[GRAPHIC] [TIFF OMITTED] T8346.135

[GRAPHIC] [TIFF OMITTED] T8346.136

[GRAPHIC] [TIFF OMITTED] T8346.137

[GRAPHIC] [TIFF OMITTED] T8346.138

[GRAPHIC] [TIFF OMITTED] T8346.139

[GRAPHIC] [TIFF OMITTED] T8346.140

[GRAPHIC] [TIFF OMITTED] T8346.141

[GRAPHIC] [TIFF OMITTED] T8346.142

[GRAPHIC] [TIFF OMITTED] T8346.143

[GRAPHIC] [TIFF OMITTED] T8346.144

[GRAPHIC] [TIFF OMITTED] T8346.145

[GRAPHIC] [TIFF OMITTED] T8346.146

[GRAPHIC] [TIFF OMITTED] T8346.147

[GRAPHIC] [TIFF OMITTED] T8346.148

[GRAPHIC] [TIFF OMITTED] T8346.149

[GRAPHIC] [TIFF OMITTED] T8346.150

[GRAPHIC] [TIFF OMITTED] T8346.151

[GRAPHIC] [TIFF OMITTED] T8346.152

[GRAPHIC] [TIFF OMITTED] T8346.153

[GRAPHIC] [TIFF OMITTED] T8346.154

[GRAPHIC] [TIFF OMITTED] T8346.155

[GRAPHIC] [TIFF OMITTED] T8346.156

[GRAPHIC] [TIFF OMITTED] T8346.157

[GRAPHIC] [TIFF OMITTED] T8346.158

[GRAPHIC] [TIFF OMITTED] T8346.159

[GRAPHIC] [TIFF OMITTED] T8346.160

[GRAPHIC] [TIFF OMITTED] T8346.161

[GRAPHIC] [TIFF OMITTED] T8346.162

[GRAPHIC] [TIFF OMITTED] T8346.163

[GRAPHIC] [TIFF OMITTED] T8346.164

[GRAPHIC] [TIFF OMITTED] T8346.165

[GRAPHIC] [TIFF OMITTED] T8346.166

[GRAPHIC] [TIFF OMITTED] T8346.167

[GRAPHIC] [TIFF OMITTED] T8346.168

[GRAPHIC] [TIFF OMITTED] T8346.169

[GRAPHIC] [TIFF OMITTED] T8346.170

[GRAPHIC] [TIFF OMITTED] T8346.171

[GRAPHIC] [TIFF OMITTED] T8346.172

[GRAPHIC] [TIFF OMITTED] T8346.173

[GRAPHIC] [TIFF OMITTED] T8346.174

[GRAPHIC] [TIFF OMITTED] T8346.175

[GRAPHIC] [TIFF OMITTED] T8346.176

[GRAPHIC] [TIFF OMITTED] T8346.177

[GRAPHIC] [TIFF OMITTED] T8346.178

[GRAPHIC] [TIFF OMITTED] T8346.179

[GRAPHIC] [TIFF OMITTED] T8346.180

[GRAPHIC] [TIFF OMITTED] T8346.181

[GRAPHIC] [TIFF OMITTED] T8346.182

[GRAPHIC] [TIFF OMITTED] T8346.183

[GRAPHIC] [TIFF OMITTED] T8346.184

[GRAPHIC] [TIFF OMITTED] T8346.185

[GRAPHIC] [TIFF OMITTED] T8346.186

[GRAPHIC] [TIFF OMITTED] T8346.187

[GRAPHIC] [TIFF OMITTED] T8346.188

[GRAPHIC] [TIFF OMITTED] T8346.189

[GRAPHIC] [TIFF OMITTED] T8346.190

[GRAPHIC] [TIFF OMITTED] T8346.191

[GRAPHIC] [TIFF OMITTED] T8346.192

[GRAPHIC] [TIFF OMITTED] T8346.193

[GRAPHIC] [TIFF OMITTED] T8346.194

[GRAPHIC] [TIFF OMITTED] T8346.195

[GRAPHIC] [TIFF OMITTED] T8346.196

[GRAPHIC] [TIFF OMITTED] T8346.197

[GRAPHIC] [TIFF OMITTED] T8346.198

[GRAPHIC] [TIFF OMITTED] T8346.199

[GRAPHIC] [TIFF OMITTED] T8346.200

[GRAPHIC] [TIFF OMITTED] T8346.201

[GRAPHIC] [TIFF OMITTED] T8346.202

[GRAPHIC] [TIFF OMITTED] T8346.203

[GRAPHIC] [TIFF OMITTED] T8346.204

[GRAPHIC] [TIFF OMITTED] T8346.205

[GRAPHIC] [TIFF OMITTED] T8346.206

[GRAPHIC] [TIFF OMITTED] T8346.207

[GRAPHIC] [TIFF OMITTED] T8346.208

[GRAPHIC] [TIFF OMITTED] T8346.209

[GRAPHIC] [TIFF OMITTED] T8346.210

[GRAPHIC] [TIFF OMITTED] T8346.211

[GRAPHIC] [TIFF OMITTED] T8346.212

[GRAPHIC] [TIFF OMITTED] T8346.213

[GRAPHIC] [TIFF OMITTED] T8346.214

[GRAPHIC] [TIFF OMITTED] T8346.215

[GRAPHIC] [TIFF OMITTED] T8346.216

[GRAPHIC] [TIFF OMITTED] T8346.217

[GRAPHIC] [TIFF OMITTED] T8346.218

[GRAPHIC] [TIFF OMITTED] T8346.219

[GRAPHIC] [TIFF OMITTED] T8346.220

[GRAPHIC] [TIFF OMITTED] T8346.221

[GRAPHIC] [TIFF OMITTED] T8346.222

[GRAPHIC] [TIFF OMITTED] T8346.223

[GRAPHIC] [TIFF OMITTED] T8346.224

[GRAPHIC] [TIFF OMITTED] T8346.225

[GRAPHIC] [TIFF OMITTED] T8346.226

[GRAPHIC] [TIFF OMITTED] T8346.227

[GRAPHIC] [TIFF OMITTED] T8346.228

[GRAPHIC] [TIFF OMITTED] T8346.229

[GRAPHIC] [TIFF OMITTED] T8346.230

[GRAPHIC] [TIFF OMITTED] T8346.231

[GRAPHIC] [TIFF OMITTED] T8346.232

[GRAPHIC] [TIFF OMITTED] T8346.233

[GRAPHIC] [TIFF OMITTED] T8346.234

[GRAPHIC] [TIFF OMITTED] T8346.235

[GRAPHIC] [TIFF OMITTED] T8346.236

[GRAPHIC] [TIFF OMITTED] T8346.237

[GRAPHIC] [TIFF OMITTED] T8346.238

[GRAPHIC] [TIFF OMITTED] T8346.239

[GRAPHIC] [TIFF OMITTED] T8346.240

[GRAPHIC] [TIFF OMITTED] T8346.241

[GRAPHIC] [TIFF OMITTED] T8346.242

[GRAPHIC] [TIFF OMITTED] T8346.243

[GRAPHIC] [TIFF OMITTED] T8346.244

[GRAPHIC] [TIFF OMITTED] T8346.245

[GRAPHIC] [TIFF OMITTED] T8346.246

[GRAPHIC] [TIFF OMITTED] T8346.247

[GRAPHIC] [TIFF OMITTED] T8346.248

[GRAPHIC] [TIFF OMITTED] T8346.249

[GRAPHIC] [TIFF OMITTED] T8346.250

[GRAPHIC] [TIFF OMITTED] T8346.251

[GRAPHIC] [TIFF OMITTED] T8346.252

[GRAPHIC] [TIFF OMITTED] T8346.253

[GRAPHIC] [TIFF OMITTED] T8346.254

[GRAPHIC] [TIFF OMITTED] T8346.255

[GRAPHIC] [TIFF OMITTED] T8346.256

[GRAPHIC] [TIFF OMITTED] T8346.257

[GRAPHIC] [TIFF OMITTED] T8346.258

[GRAPHIC] [TIFF OMITTED] T8346.259

[GRAPHIC] [TIFF OMITTED] T8346.260

[GRAPHIC] [TIFF OMITTED] T8346.261

[GRAPHIC] [TIFF OMITTED] T8346.262

[GRAPHIC] [TIFF OMITTED] T8346.263

[GRAPHIC] [TIFF OMITTED] T8346.264

[GRAPHIC] [TIFF OMITTED] T8346.265

[GRAPHIC] [TIFF OMITTED] T8346.266

[GRAPHIC] [TIFF OMITTED] T8346.267

[GRAPHIC] [TIFF OMITTED] T8346.268

[GRAPHIC] [TIFF OMITTED] T8346.269

[GRAPHIC] [TIFF OMITTED] T8346.270

[GRAPHIC] [TIFF OMITTED] T8346.271

[GRAPHIC] [TIFF OMITTED] T8346.272

[GRAPHIC] [TIFF OMITTED] T8346.273

[GRAPHIC] [TIFF OMITTED] T8346.274

[GRAPHIC] [TIFF OMITTED] T8346.275

[GRAPHIC] [TIFF OMITTED] T8346.276

[GRAPHIC] [TIFF OMITTED] T8346.277

[GRAPHIC] [TIFF OMITTED] T8346.278

[GRAPHIC] [TIFF OMITTED] T8346.279

[GRAPHIC] [TIFF OMITTED] T8346.280

[GRAPHIC] [TIFF OMITTED] T8346.281

[GRAPHIC] [TIFF OMITTED] T8346.282

[GRAPHIC] [TIFF OMITTED] T8346.283

[GRAPHIC] [TIFF OMITTED] T8346.284

[GRAPHIC] [TIFF OMITTED] T8346.285

[GRAPHIC] [TIFF OMITTED] T8346.286

[GRAPHIC] [TIFF OMITTED] T8346.287

[GRAPHIC] [TIFF OMITTED] T8346.288

[GRAPHIC] [TIFF OMITTED] T8346.289

[GRAPHIC] [TIFF OMITTED] T8346.290

[GRAPHIC] [TIFF OMITTED] T8346.291

[GRAPHIC] [TIFF OMITTED] T8346.292

[GRAPHIC] [TIFF OMITTED] T8346.293

[GRAPHIC] [TIFF OMITTED] T8346.294

[GRAPHIC] [TIFF OMITTED] T8346.295

[GRAPHIC] [TIFF OMITTED] T8346.296

[GRAPHIC] [TIFF OMITTED] T8346.297

[GRAPHIC] [TIFF OMITTED] T8346.298

[GRAPHIC] [TIFF OMITTED] T8346.299

[GRAPHIC] [TIFF OMITTED] T8346.300

[GRAPHIC] [TIFF OMITTED] T8346.301

[GRAPHIC] [TIFF OMITTED] T8346.302

[GRAPHIC] [TIFF OMITTED] T8346.303

[GRAPHIC] [TIFF OMITTED] T8346.304

[GRAPHIC] [TIFF OMITTED] T8346.305

[GRAPHIC] [TIFF OMITTED] T8346.306

[GRAPHIC] [TIFF OMITTED] T8346.307

[GRAPHIC] [TIFF OMITTED] T8346.308

[GRAPHIC] [TIFF OMITTED] T8346.309

[GRAPHIC] [TIFF OMITTED] T8346.310

[GRAPHIC] [TIFF OMITTED] T8346.311

[GRAPHIC] [TIFF OMITTED] T8346.312

[GRAPHIC] [TIFF OMITTED] T8346.313

[GRAPHIC] [TIFF OMITTED] T8346.314

[GRAPHIC] [TIFF OMITTED] T8346.315

[GRAPHIC] [TIFF OMITTED] T8346.316

[GRAPHIC] [TIFF OMITTED] T8346.317

[GRAPHIC] [TIFF OMITTED] T8346.318

[GRAPHIC] [TIFF OMITTED] T8346.319

[GRAPHIC] [TIFF OMITTED] T8346.320

[GRAPHIC] [TIFF OMITTED] T8346.321

[GRAPHIC] [TIFF OMITTED] T8346.322

[GRAPHIC] [TIFF OMITTED] T8346.323

[GRAPHIC] [TIFF OMITTED] T8346.324

[GRAPHIC] [TIFF OMITTED] T8346.325

[GRAPHIC] [TIFF OMITTED] T8346.326

[GRAPHIC] [TIFF OMITTED] T8346.327

[GRAPHIC] [TIFF OMITTED] T8346.328

[GRAPHIC] [TIFF OMITTED] T8346.329

[GRAPHIC] [TIFF OMITTED] T8346.330

[GRAPHIC] [TIFF OMITTED] T8346.331

[GRAPHIC] [TIFF OMITTED] T8346.332

[GRAPHIC] [TIFF OMITTED] T8346.333

[GRAPHIC] [TIFF OMITTED] T8346.334

[GRAPHIC] [TIFF OMITTED] T8346.335

[GRAPHIC] [TIFF OMITTED] T8346.336

[GRAPHIC] [TIFF OMITTED] T8346.337

[GRAPHIC] [TIFF OMITTED] T8346.338

[GRAPHIC] [TIFF OMITTED] T8346.339

[GRAPHIC] [TIFF OMITTED] T8346.340

[GRAPHIC] [TIFF OMITTED] T8346.341

[GRAPHIC] [TIFF OMITTED] T8346.342

[GRAPHIC] [TIFF OMITTED] T8346.343

[GRAPHIC] [TIFF OMITTED] T8346.344

[GRAPHIC] [TIFF OMITTED] T8346.345

[GRAPHIC] [TIFF OMITTED] T8346.346

[GRAPHIC] [TIFF OMITTED] T8346.347

[GRAPHIC] [TIFF OMITTED] T8346.348

[GRAPHIC] [TIFF OMITTED] T8346.349

[GRAPHIC] [TIFF OMITTED] T8346.350

[GRAPHIC] [TIFF OMITTED] T8346.351

[GRAPHIC] [TIFF OMITTED] T8346.352

[GRAPHIC] [TIFF OMITTED] T8346.353

[GRAPHIC] [TIFF OMITTED] T8346.354

[GRAPHIC] [TIFF OMITTED] T8346.355

[GRAPHIC] [TIFF OMITTED] T8346.356

[GRAPHIC] [TIFF OMITTED] T8346.357

[GRAPHIC] [TIFF OMITTED] T8346.358

[GRAPHIC] [TIFF OMITTED] T8346.359

[GRAPHIC] [TIFF OMITTED] T8346.360

[GRAPHIC] [TIFF OMITTED] T8346.361

[GRAPHIC] [TIFF OMITTED] T8346.362

[GRAPHIC] [TIFF OMITTED] T8346.363

[GRAPHIC] [TIFF OMITTED] T8346.364

[GRAPHIC] [TIFF OMITTED] T8346.365

[GRAPHIC] [TIFF OMITTED] T8346.366

[GRAPHIC] [TIFF OMITTED] T8346.367

[GRAPHIC] [TIFF OMITTED] T8346.368

[GRAPHIC] [TIFF OMITTED] T8346.369

[GRAPHIC] [TIFF OMITTED] T8346.370

[GRAPHIC] [TIFF OMITTED] T8346.371

[GRAPHIC] [TIFF OMITTED] T8346.372

[GRAPHIC] [TIFF OMITTED] T8346.373

[GRAPHIC] [TIFF OMITTED] T8346.374

[GRAPHIC] [TIFF OMITTED] T8346.375

[GRAPHIC] [TIFF OMITTED] T8346.376

[GRAPHIC] [TIFF OMITTED] T8346.377

[GRAPHIC] [TIFF OMITTED] T8346.378

[GRAPHIC] [TIFF OMITTED] T8346.379

[GRAPHIC] [TIFF OMITTED] T8346.380

[GRAPHIC] [TIFF OMITTED] T8346.381

[GRAPHIC] [TIFF OMITTED] T8346.382

[GRAPHIC] [TIFF OMITTED] T8346.383

[GRAPHIC] [TIFF OMITTED] T8346.384

[GRAPHIC] [TIFF OMITTED] T8346.385

[GRAPHIC] [TIFF OMITTED] T8346.386

[GRAPHIC] [TIFF OMITTED] T8346.387

[GRAPHIC] [TIFF OMITTED] T8346.388

[GRAPHIC] [TIFF OMITTED] T8346.389

[GRAPHIC] [TIFF OMITTED] T8346.390

[GRAPHIC] [TIFF OMITTED] T8346.391

[GRAPHIC] [TIFF OMITTED] T8346.392

[GRAPHIC] [TIFF OMITTED] T8346.393

[GRAPHIC] [TIFF OMITTED] T8346.394

[GRAPHIC] [TIFF OMITTED] T8346.395

[GRAPHIC] [TIFF OMITTED] T8346.396

[GRAPHIC] [TIFF OMITTED] T8346.397

[GRAPHIC] [TIFF OMITTED] T8346.398

[GRAPHIC] [TIFF OMITTED] T8346.399

[GRAPHIC] [TIFF OMITTED] T8346.400

[GRAPHIC] [TIFF OMITTED] T8346.401

[GRAPHIC] [TIFF OMITTED] T8346.402

[GRAPHIC] [TIFF OMITTED] T8346.403

[GRAPHIC] [TIFF OMITTED] T8346.404

[GRAPHIC] [TIFF OMITTED] T8346.405

[GRAPHIC] [TIFF OMITTED] T8346.406

[GRAPHIC] [TIFF OMITTED] T8346.407

[GRAPHIC] [TIFF OMITTED] T8346.408

[GRAPHIC] [TIFF OMITTED] T8346.409

[GRAPHIC] [TIFF OMITTED] T8346.410

[GRAPHIC] [TIFF OMITTED] T8346.411

[GRAPHIC] [TIFF OMITTED] T8346.412

[GRAPHIC] [TIFF OMITTED] T8346.413

[GRAPHIC] [TIFF OMITTED] T8346.414

[GRAPHIC] [TIFF OMITTED] T8346.415

[GRAPHIC] [TIFF OMITTED] T8346.416

[GRAPHIC] [TIFF OMITTED] T8346.417

[GRAPHIC] [TIFF OMITTED] T8346.418

[GRAPHIC] [TIFF OMITTED] T8346.419

[GRAPHIC] [TIFF OMITTED] T8346.420

[GRAPHIC] [TIFF OMITTED] T8346.421

[GRAPHIC] [TIFF OMITTED] T8346.422

[GRAPHIC] [TIFF OMITTED] T8346.423

[GRAPHIC] [TIFF OMITTED] T8346.424

[GRAPHIC] [TIFF OMITTED] T8346.425

[GRAPHIC] [TIFF OMITTED] T8346.426

[GRAPHIC] [TIFF OMITTED] T8346.427

[GRAPHIC] [TIFF OMITTED] T8346.428

[GRAPHIC] [TIFF OMITTED] T8346.429

[GRAPHIC] [TIFF OMITTED] T8346.430

[GRAPHIC] [TIFF OMITTED] T8346.431

[GRAPHIC] [TIFF OMITTED] T8346.432

[GRAPHIC] [TIFF OMITTED] T8346.433

[GRAPHIC] [TIFF OMITTED] T8346.434

[GRAPHIC] [TIFF OMITTED] T8346.435

[GRAPHIC] [TIFF OMITTED] T8346.436

[GRAPHIC] [TIFF OMITTED] T8346.437

[GRAPHIC] [TIFF OMITTED] T8346.438

[GRAPHIC] [TIFF OMITTED] T8346.439

[GRAPHIC] [TIFF OMITTED] T8346.440

[GRAPHIC] [TIFF OMITTED] T8346.441

[GRAPHIC] [TIFF OMITTED] T8346.442

[GRAPHIC] [TIFF OMITTED] T8346.443

[GRAPHIC] [TIFF OMITTED] T8346.444

[GRAPHIC] [TIFF OMITTED] T8346.445

[GRAPHIC] [TIFF OMITTED] T8346.446

[GRAPHIC] [TIFF OMITTED] T8346.447

[GRAPHIC] [TIFF OMITTED] T8346.448

[GRAPHIC] [TIFF OMITTED] T8346.449

[GRAPHIC] [TIFF OMITTED] T8346.450

[GRAPHIC] [TIFF OMITTED] T8346.451

[GRAPHIC] [TIFF OMITTED] T8346.452

[GRAPHIC] [TIFF OMITTED] T8346.453

[GRAPHIC] [TIFF OMITTED] T8346.454

[GRAPHIC] [TIFF OMITTED] T8346.455

[GRAPHIC] [TIFF OMITTED] T8346.456

[GRAPHIC] [TIFF OMITTED] T8346.457

[GRAPHIC] [TIFF OMITTED] T8346.458

[GRAPHIC] [TIFF OMITTED] T8346.459

[GRAPHIC] [TIFF OMITTED] T8346.460

[GRAPHIC] [TIFF OMITTED] T8346.461

[GRAPHIC] [TIFF OMITTED] T8346.462

[GRAPHIC] [TIFF OMITTED] T8346.463

[GRAPHIC] [TIFF OMITTED] T8346.464

[GRAPHIC] [TIFF OMITTED] T8346.465

[GRAPHIC] [TIFF OMITTED] T8346.466

[GRAPHIC] [TIFF OMITTED] T8346.467

[GRAPHIC] [TIFF OMITTED] T8346.468

[GRAPHIC] [TIFF OMITTED] T8346.469

[GRAPHIC] [TIFF OMITTED] T8346.470

[GRAPHIC] [TIFF OMITTED] T8346.471

[GRAPHIC] [TIFF OMITTED] T8346.472

[GRAPHIC] [TIFF OMITTED] T8346.473

[GRAPHIC] [TIFF OMITTED] T8346.474

[GRAPHIC] [TIFF OMITTED] T8346.475

[GRAPHIC] [TIFF OMITTED] T8346.476

[GRAPHIC] [TIFF OMITTED] T8346.477

[GRAPHIC] [TIFF OMITTED] T8346.478

[GRAPHIC] [TIFF OMITTED] T8346.479

[GRAPHIC] [TIFF OMITTED] T8346.480

[GRAPHIC] [TIFF OMITTED] T8346.481

[GRAPHIC] [TIFF OMITTED] T8346.482

[GRAPHIC] [TIFF OMITTED] T8346.483

[GRAPHIC] [TIFF OMITTED] T8346.484

[GRAPHIC] [TIFF OMITTED] T8346.485

[GRAPHIC] [TIFF OMITTED] T8346.486

[GRAPHIC] [TIFF OMITTED] T8346.487

[GRAPHIC] [TIFF OMITTED] T8346.488

[GRAPHIC] [TIFF OMITTED] T8346.489

[GRAPHIC] [TIFF OMITTED] T8346.490

[GRAPHIC] [TIFF OMITTED] T8346.491

[GRAPHIC] [TIFF OMITTED] T8346.492

[GRAPHIC] [TIFF OMITTED] T8346.493

[GRAPHIC] [TIFF OMITTED] T8346.494

[GRAPHIC] [TIFF OMITTED] T8346.495

[GRAPHIC] [TIFF OMITTED] T8346.496

[GRAPHIC] [TIFF OMITTED] T8346.497

[GRAPHIC] [TIFF OMITTED] T8346.498

[GRAPHIC] [TIFF OMITTED] T8346.499

[GRAPHIC] [TIFF OMITTED] T8346.500

[GRAPHIC] [TIFF OMITTED] T8346.501

[GRAPHIC] [TIFF OMITTED] T8346.502

[GRAPHIC] [TIFF OMITTED] T8346.503

[GRAPHIC] [TIFF OMITTED] T8346.504

[GRAPHIC] [TIFF OMITTED] T8346.505

[GRAPHIC] [TIFF OMITTED] T8346.506

[GRAPHIC] [TIFF OMITTED] T8346.507

[GRAPHIC] [TIFF OMITTED] T8346.508

[GRAPHIC] [TIFF OMITTED] T8346.509

[GRAPHIC] [TIFF OMITTED] T8346.510

[GRAPHIC] [TIFF OMITTED] T8346.511

[GRAPHIC] [TIFF OMITTED] T8346.512

[GRAPHIC] [TIFF OMITTED] T8346.513

[GRAPHIC] [TIFF OMITTED] T8346.514

[GRAPHIC] [TIFF OMITTED] T8346.515

[GRAPHIC] [TIFF OMITTED] T8346.516

[GRAPHIC] [TIFF OMITTED] T8346.517

[GRAPHIC] [TIFF OMITTED] T8346.518

[GRAPHIC] [TIFF OMITTED] T8346.519

[GRAPHIC] [TIFF OMITTED] T8346.520

[GRAPHIC] [TIFF OMITTED] T8346.521

[GRAPHIC] [TIFF OMITTED] T8346.522

[GRAPHIC] [TIFF OMITTED] T8346.523

[GRAPHIC] [TIFF OMITTED] T8346.524

[GRAPHIC] [TIFF OMITTED] T8346.525

[GRAPHIC] [TIFF OMITTED] T8346.526

[GRAPHIC] [TIFF OMITTED] T8346.527

[GRAPHIC] [TIFF OMITTED] T8346.528

[GRAPHIC] [TIFF OMITTED] T8346.529

[GRAPHIC] [TIFF OMITTED] T8346.530

[GRAPHIC] [TIFF OMITTED] T8346.531

[GRAPHIC] [TIFF OMITTED] T8346.532

[GRAPHIC] [TIFF OMITTED] T8346.533

[GRAPHIC] [TIFF OMITTED] T8346.534

[GRAPHIC] [TIFF OMITTED] T8346.535

[GRAPHIC] [TIFF OMITTED] T8346.536

[GRAPHIC] [TIFF OMITTED] T8346.537

[GRAPHIC] [TIFF OMITTED] T8346.538

[GRAPHIC] [TIFF OMITTED] T8346.539

[GRAPHIC] [TIFF OMITTED] T8346.540

[GRAPHIC] [TIFF OMITTED] T8346.541

[GRAPHIC] [TIFF OMITTED] T8346.542

[GRAPHIC] [TIFF OMITTED] T8346.543

[GRAPHIC] [TIFF OMITTED] T8346.544

[GRAPHIC] [TIFF OMITTED] T8346.545

[GRAPHIC] [TIFF OMITTED] T8346.546

[GRAPHIC] [TIFF OMITTED] T8346.547

[GRAPHIC] [TIFF OMITTED] T8346.548

[GRAPHIC] [TIFF OMITTED] T8346.549

[GRAPHIC] [TIFF OMITTED] T8346.550

[GRAPHIC] [TIFF OMITTED] T8346.551

[GRAPHIC] [TIFF OMITTED] T8346.552

[GRAPHIC] [TIFF OMITTED] T8346.553

[GRAPHIC] [TIFF OMITTED] T8346.554

[GRAPHIC] [TIFF OMITTED] T8346.555

[GRAPHIC] [TIFF OMITTED] T8346.556

[GRAPHIC] [TIFF OMITTED] T8346.557

[GRAPHIC] [TIFF OMITTED] T8346.558

[GRAPHIC] [TIFF OMITTED] T8346.559

[GRAPHIC] [TIFF OMITTED] T8346.560

[GRAPHIC] [TIFF OMITTED] T8346.561

[GRAPHIC] [TIFF OMITTED] T8346.562

[GRAPHIC] [TIFF OMITTED] T8346.563

[GRAPHIC] [TIFF OMITTED] T8346.564

[GRAPHIC] [TIFF OMITTED] T8346.565

[GRAPHIC] [TIFF OMITTED] T8346.566

[GRAPHIC] [TIFF OMITTED] T8346.567

[GRAPHIC] [TIFF OMITTED] T8346.568

[GRAPHIC] [TIFF OMITTED] T8346.569

[GRAPHIC] [TIFF OMITTED] T8346.570

[GRAPHIC] [TIFF OMITTED] T8346.571

[GRAPHIC] [TIFF OMITTED] T8346.572

[GRAPHIC] [TIFF OMITTED] T8346.573

[GRAPHIC] [TIFF OMITTED] T8346.574

[GRAPHIC] [TIFF OMITTED] T8346.575

[GRAPHIC] [TIFF OMITTED] T8346.576

[GRAPHIC] [TIFF OMITTED] T8346.577

[GRAPHIC] [TIFF OMITTED] T8346.578

[GRAPHIC] [TIFF OMITTED] T8346.579

[GRAPHIC] [TIFF OMITTED] T8346.580

[GRAPHIC] [TIFF OMITTED] T8346.581

[GRAPHIC] [TIFF OMITTED] T8346.582

[GRAPHIC] [TIFF OMITTED] T8346.583

[GRAPHIC] [TIFF OMITTED] T8346.584

[GRAPHIC] [TIFF OMITTED] T8346.585

[GRAPHIC] [TIFF OMITTED] T8346.586

[GRAPHIC] [TIFF OMITTED] T8346.587

[GRAPHIC] [TIFF OMITTED] T8346.588

[GRAPHIC] [TIFF OMITTED] T8346.589

[GRAPHIC] [TIFF OMITTED] T8346.590

[GRAPHIC] [TIFF OMITTED] T8346.591

[GRAPHIC] [TIFF OMITTED] T8346.592

[GRAPHIC] [TIFF OMITTED] T8346.593

[GRAPHIC] [TIFF OMITTED] T8346.594

[GRAPHIC] [TIFF OMITTED] T8346.595

[GRAPHIC] [TIFF OMITTED] T8346.596

[GRAPHIC] [TIFF OMITTED] T8346.597

[GRAPHIC] [TIFF OMITTED] T8346.598

[GRAPHIC] [TIFF OMITTED] T8346.599

[GRAPHIC] [TIFF OMITTED] T8346.600

[GRAPHIC] [TIFF OMITTED] T8346.601

[GRAPHIC] [TIFF OMITTED] T8346.602

[GRAPHIC] [TIFF OMITTED] T8346.603

[GRAPHIC] [TIFF OMITTED] T8346.604

[GRAPHIC] [TIFF OMITTED] T8346.605

[GRAPHIC] [TIFF OMITTED] T8346.606

[GRAPHIC] [TIFF OMITTED] T8346.607

[GRAPHIC] [TIFF OMITTED] T8346.608

[GRAPHIC] [TIFF OMITTED] T8346.609

[GRAPHIC] [TIFF OMITTED] T8346.610

[GRAPHIC] [TIFF OMITTED] T8346.611

[GRAPHIC] [TIFF OMITTED] T8346.612

[GRAPHIC] [TIFF OMITTED] T8346.613

[GRAPHIC] [TIFF OMITTED] T8346.614

[GRAPHIC] [TIFF OMITTED] T8346.615

[GRAPHIC] [TIFF OMITTED] T8346.616

[GRAPHIC] [TIFF OMITTED] T8346.617

[GRAPHIC] [TIFF OMITTED] T8346.618

[GRAPHIC] [TIFF OMITTED] T8346.619

[GRAPHIC] [TIFF OMITTED] T8346.620

[GRAPHIC] [TIFF OMITTED] T8346.621

[GRAPHIC] [TIFF OMITTED] T8346.622

[GRAPHIC] [TIFF OMITTED] T8346.623

[GRAPHIC] [TIFF OMITTED] T8346.624

[GRAPHIC] [TIFF OMITTED] T8346.625

[GRAPHIC] [TIFF OMITTED] T8346.626

[GRAPHIC] [TIFF OMITTED] T8346.627

[GRAPHIC] [TIFF OMITTED] T8346.628

[GRAPHIC] [TIFF OMITTED] T8346.629

[GRAPHIC] [TIFF OMITTED] T8346.630

[GRAPHIC] [TIFF OMITTED] T8346.631

[GRAPHIC] [TIFF OMITTED] T8346.632

[GRAPHIC] [TIFF OMITTED] T8346.633

[GRAPHIC] [TIFF OMITTED] T8346.634

[GRAPHIC] [TIFF OMITTED] T8346.635

[GRAPHIC] [TIFF OMITTED] T8346.636

[GRAPHIC] [TIFF OMITTED] T8346.637

[GRAPHIC] [TIFF OMITTED] T8346.638

[GRAPHIC] [TIFF OMITTED] T8346.639

[GRAPHIC] [TIFF OMITTED] T8346.640

[GRAPHIC] [TIFF OMITTED] T8346.641

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
